<html>
<title> - RADICALIZATION, INFORMATION SHARING AND COMMUNITY OUTREACH: PROTECTING THE HOMELAND FROM HOMEGROWN TERROR</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
                  RADICALIZATION, INFORMATION SHARING 
                   AND COMMUNITY OUTREACH: PROTECTING 
                   THE HOMELAND FROM HOMEGROWN TERROR 

=======================================================================

                                HEARING

                               before the

                     SUBCOMMITTEE ON INTELLIGENCE,
                        INFORMATION SHARING, AND
                       TERRORISM RISK ASSESSMENT

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 5, 2007

                               __________

                           Serial No. 110-22

                               __________

       Printed for the use of the Committee on Homeland Security
                                     
             [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                     

  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               __________

                       U.S. GOVERNMENT PRINTING OFFICE 

43-558 PDF                       WASHINGTON : 2009 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 






































                     COMMITTEE ON HOMELAND SECURITY

               BENNIE G. THOMPSON, Mississippi, Chairman

LORETTA SANCHEZ, California,         PETER T. KING, New York
EDWARD J. MARKEY, Massachusetts      LAMAR SMITH, Texas
NORMAN D. DICKS, Washington          CHRISTOPHER SHAYS, Connecticut
JANE HARMAN, California              MARK E. SOUDER, Indiana
PETER A. DeFAZIO, Oregon             TOM DAVIS, Virginia
NITA M. LOWEY, New York              DANIEL E. LUNGREN, California
ELEANOR HOLMES NORTON, District of   MIKE ROGERS, Alabama
Columbia                             BOBBY JINDAL, Louisiana
ZOE LOFGREN, California              DAVID G. REICHERT, Washington
SHEILA JACKSON LEE, Texas            MICHAEL T. McCAUL, Texas
DONNA M. CHRISTENSEN, U.S. Virgin    CHARLES W. DENT, Pennsylvania
Islands                              GINNY BROWN-WAITE, Florida
BOB ETHERIDGE, North Carolina        MARSHA BLACKBURN, Tennessee
JAMES R. LANGEVIN, Rhode Island      GUS M. BILIRAKIS, Florida
HENRY CUELLAR, Texas                 DAVID DAVIS, Tennessee
CHRISTOPHER P. CARNEY, Pennsylvania
YVETTE D. CLARKE, New York
AL GREEN, Texas
ED PERLMUTTER, Colorado
VACANCY

       Jessica Herrera-Flanigan, Staff Director & General Counsel

                     Rosaline Cohen, Chief Counsel

                     Michael Twinchek, Chief Clerk

                Robert O'Connor, Minority Staff Director

                                 ______

 SUBCOMMITTEE ON INTELLIGENCE, INFORMATION SHARING, AND TERRORISM RISK 
                               ASSESSMENT

                     JANE HARMAN, California, Chair

NORMAN D. DICKS, Washington          DAVID G. REICHERT, Washington
JAMES R. LANGEVIN, Rhode Island      CHRISTOPHER SHAYS, Connecticut
CHRISTOPHER P. CARNEY, Pennsylvania  CHARLES W. DENT, Pennsylvania
ED PERLMUTTER, Colorado              PETER T. KING, New York (Ex 
BENNIE G. THOMPSON, Mississippi (Ex  Officio)
Officio)

                 Thomas M. Finan, Director and Counsel

                        Brandon Declet, Counsel

                   Natalie Nixon, Deputy Chief Clerk

        Deron McElroy, Minority Senior Professional Staff Member

                                  (II)





























                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable Jane Harman, a Representative in Congress from the 
  State of California, and Chair, Subcommittee on Intelligence, 
  Information Sharing, and Terrorism Risk Assessment.............     1
The Honorable David G. Reichert, a Representative in Congress 
  from the State of Washington, and Ranking Member, Subcommittee 
  on Intelligence, Information Sharing, and Terrorism Risk 
  Assessment.....................................................     3
The Honorable Norman D. Dicks, a Representative in Congress from 
  the State of Washington........................................    27
The Honorable Daniel E. Lungren, a Representative in Congress 
  from the State of California...................................     4
The Honorable Ed Perlmutter, a Representative in Congress from 
  the State of Colorado..........................................    30

                               Witnesses
                                Panel I

Mr. William J. Bratton, Chief of Police, Los Angeles Police 
  Department:
  Oral Statement.................................................    10
  Prepared Statementq............................................    12
Ms. Janice K. Fedarcyk, Special Agent in-Charge (SAC), 
  Counterterrorism Division, FBI's Los Angeles Field Office:
  Oral Statement.................................................    15
  Prepared Statement.............................................    17
Sgt. Larry Mead, Deputy Sheriff, Los Angeles County Sheriff's 
  Department:
  Oral Statement.................................................    21
  Prepared Statement.............................................    23
Mr. John J. Neu, Chief of Police, Torrance Police Department:
  Oral Statement.................................................     6
  Prepared statement.............................................     7

                                Panel II

Mr. David Gersten, Director, Civil Rights and Civil Liberties 
  Programs, Department of Homeland Security:
  Oral Statement.................................................    46
  Prepared Statement.............................................    48
Mr. Brian Jenkins, Senior Advisor, RAND Corporation:
  Oral Statement.................................................    39
  Prepared Statement.............................................    41
Ms. Sireen Sawaf, Director, Southern California Government 
  Relations, Muslim Public Affairs Council:
  Oral Statement.................................................    33
  Prepared Statement.............................................    35

                                Appendix
                             For the Record

Prepared Statement:
  Mr. John M. Vanyur, Assistant Director, Correctional Programs 
    Division, Federal Bureau of Prisons..........................    63


RADICALIZATION, INFORMATION SHARING AND COMMUNITY OUTREACH: PROTECTING 
                   THE HOMELAND FROM HOMEGROWN TERROR

                              ----------                              


                        Thursday, April 5, 2007

             U.S. House of Representatives,
Subcommittee on Intelligence, Information Sharing, 
                     and Terrorism Risk Assessment,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 9 a.m., in the 
Torrance City Council Chambers, 3031 Torrance Boulevard, 
Torrance, California, Hon. Jane Harman [Chair of the 
Subcommittee] presiding.
    Present: Representatives Harman, Dicks, Perlmutter, and 
Reichert.
    Also Present: Representative Lungren
    Ms. Harman. The Subcommittee will come to order. The 
Subcommittee is meeting today to receive testimony on 
Radicalization, Information Sharing and Community Outreach: 
Protecting the Homeland from Homegrown Terror.
    Twenty months ago, police in this city, Torrance, disrupted 
the first known prison-based terrorist cell in the United 
States. Those arrested were Americans and one permanent 
resident. The allegations against them, if true, present a 
chilling account of the threat we face from homegrown 
terrorism.
    Among other things, they are charged with having planned 
attacks on synagogues on Jewish holidays in order to maximize 
the number of deaths and on U.S. military bases and recruitment 
centers. To fund their terror campaign, the defendants 
allegedly robbed eleven gas stations in and around Torrance. 
That is where the Torrance Police Department came in.
    But for the hard work of some local officers whose efforts 
led to the discovery of maps and other evidence that unraveled 
the plot many, many lives could have been lost. Those Torrance 
Police Department officers worked with LAPD and FBI partners to 
share information and build a case in a way that would have 
been almost unimaginable before 9/11. All of us on this dais 
want to commend them for their great service to Torrance, to 
California, and to our country. Thank you on behalf of a 
grateful nation.
    We are holding this field hearing on radicalization to 
learn more about the homegrown terror threat to our nation. Let 
me be clear: when we talk about radicalization and homegrown 
terrorists, we are not talking about people from any particular 
ethnic, political, or religious group.
    On the contrary, we are talking about ideologically-driven 
violence, whether by a white, U.S. Bronze Star honoree named 
Timothy McVeigh; or in Belgium, a female Catholic convert to 
Islam who traveled to Iraq and blew herself up; or in the UK, 
third generation Britons of Pakistani descent who killed their 
countrymen on buses and trains and were plotting to blow up 
U.S. airliners en route from Britain to America.
    Last fall, Dame Eliza Manningham Buller, the Director of 
Britain's MI5, revealed for the first time the seriousness of 
the home grown terrorism threat in her country. She stated that 
MI5 and local police in the UK are currently investigating some 
200 separate terrorist networks that include over 1,600 
individuals who are actively planning attacks both domestically 
and overseas. And those are just the ones she knows about.
    When I met with her in my Washington office in February, I 
reminded her that what happened here in Torrance shows that the 
threat is also emerging on this side of the Atlantic. She 
agrees. But focusing our efforts against any particular group 
of people would be futile. The Washington Post recently 
reported that police in Western Europe are 
arresting``significant numbers of women, teenagers, white-
skinned suspects and people baptized as Christians'' people who 
until now were not on the radar screen as radicals prone to 
violence.
    In fact, the demographics of those being arrested are so 
diverse that many European officials say that they have given 
up trying to predict who is most likely to become a terrorist. 
Age, sex, ethnicity, education and economic status simply have 
become more and more irrelevant. The same is true here. How do 
we explain why Adam Gadahn, a 17-year-old Jewish kid from Santa 
Ana became a radical, moved to Pakistan, now works as Osama Bin 
Laden's spokesman, and is under indictment here for treason?
    I am very pleased to be joined by the distinguished 
witnesses, and obviously my distinguished colleagues, on two 
panels this morning. On the first panel, we will hear from 
Torrance Police Chief John Neu, LAPD Chief Bill Bratton and 
Special Agent in-Charge Janice Fedarcyk from the FBI's Los 
Angeles office, and Sergeant Mead of the Los Angeles County 
Sheriff's Department. They will be talking with us about the 
Torrance arrests, what homegrown terrorism is, and what we 
might do about it.
    We will then hear from a second panel including Sireen 
Sawaf from the Muslim Public Affairs Council who serves as a 
representative on the FBI's Multi-Cultural Advisory Committee 
called MCAC, and David Gersten from DHS. Both will share their 
own thoughts about home grown terrorism and how engagement with 
minority communities can help prevent it. And finally, an old 
friend, author, and consultant on terrorism, Brian Jenkins of 
the RAND Corporation, who will put our subjects in perspective.
    I am joined today by some very valued House colleagues. Let 
me start on my right by introducing the Ranking Member Dave 
Reichert of Washington State, a former sheriff. On my left Norm 
Dicks of Washington. On my right Dan Lungren of Northern 
California, formerly of Long Beach, California.
    On my left a new member of Congress, Ed Perlmutter of 
Colorado, I would also like to acknowledge in the audience 
Charles Allen, the Assistant Secretary for Intelligence and 
Analysis at the Department of Homeland Security who has come 
out here to join us yesterday at meetings at the JRIC, Joint 
Regional Intelligence Center, and today to be part of this 
hearing. As I mentioned, one of his DHS associates will be a 
witness on the second panel.
    Charlie, you obviously are a very valued partner in this 
effort to make certain that we understand radicalization and 
that we provide those first preventers with the tools and the 
information they need to find out what the plots are and stop 
them before they happen. Let me just say finally that this is a 
success story and it is a very important success story. We are 
telling that story where it happened, in Torrance, California.
    Now let me recognize the Ranking Member of the 
Subcommittee, the gentleman from Washington, for an opening 
statement.
    Mr. Reichert. Thank you, Madam Chair. It is a pleasure to 
be here in the Los Angeles area. It reminds me of some old days 
in the 1980's when I was a homicide detective, the lead 
investigator on a serial murder case, and I spent a long time 
in this area working and following leads, working with the 
various police departments here in the Los Angeles area and 
with the sheriff's office and with the FBI, all great partners.
    I think it really points to the success of that case the 
team work that came together and what we see here today and the 
different uniforms representing different law enforcement 
agencies and those of you in suits and ties also coming 
together in civilian clothes all here to protect our country 
and to keep our citizenry safe.
    Charlie Allen, thank you, too, for your efforts and 
leadership and understanding the necessity of sharing 
information with locals and working hard to bring that about.
    Again, thank you Madam Chair. I am really honored to be 
here. You and I both agree that radicalization is a very 
important topic and I want to commend you for holding this 
hearing. Given the recent pattern of homegrown terrorist that 
have been discovered in the UK, Canada, and the United States 
it is important that the Subcommittee spend some time 
understanding this issue and its implications for the security 
of our homeland. Identifying the patterns of radicalization, 
where they exist, and isolating the contributing factors can 
help us mitigate problems before they begin.
    The topic of this hearing today, Radicalization, 
Information Sharing, and Community Outreach: Protecting the 
Homeland from Homegrown Terror, builds upon the work of this 
Subcommittee from last Congress and will be part of the 
continuing record we are developing on this topic.
    Last July members of this Subcommittee traveled to Toronto, 
Canada to learn more about the so-called Toronto 17, a group of 
radicalized individuals in the Toronto area. The Subcommittee 
was concerned with radicalization of individuals traveling to 
the United States across our northern border and how to stop 
them.
    But when radicalization is happening within our own 
borders, it becomes increasingly difficult to detect. While the 
global fight against terrorism focuses our attention on Islamic 
radicalism, other forms of radicalization also endanger our 
homeland. We saw this in Oklahoma City in 1995. Radicalization 
can happen in many different ways and in many different places.
    Since the late 1970s, the Aryan Nations has been engaged in 
radicalizing and recruiting in prisons. Others including al-
Qa'ida sympathizers are doing the same. Prisons can quickly 
become fertile recruiting ground for those who wish to 
radicalize susceptible inmates. We have seen this occur right 
here in California and it will be discussed today.
    I would like to yield the balance of my time, Madam Chair, 
to the gentleman from California, Mr. Lungren, whose district 
includes New Folsom State Prison where a recent case of 
radicalization and alleged terrorist plotting occurred.
    Ms. Harman. Without objection.
    Mr. Lungren. I thank the gentleman for yielding and I very 
much thank the Chairwoman for having this hearing and for the 
work that she is doing in this area and the bipartisan way in 
which she is approaching this.
    I used to represent this area some 20 years ago and I 
represent an area 450 miles away and it is always great to be 
able to come down here but it saddens me that I come down here 
as we look at a problem that had its genesis in my district at 
Folsom State Prison and yet was carried out down here.
    The idea of homegrown terrorists is something that ought 
not to surprise us but ought to make us ready to take action 
and ensure that we do all this is necessary. One of the things 
that is crucial to this is the cooperation of all elements of 
law enforcement, local, state, and Federal. I look forward to 
hearing the case study to the extent that we can talk about it 
since the case is still going on of cooperation among all of 
these elements of law enforcement.
    When I was Attorney General one of the concerns I had was 
making sure that information flowed both from the feds down to 
us as well as from us to the feds. It will be interesting to 
see in this particular instance how well that worked. But I 
would also like to just say this. It is the great work done by 
police officers doing their regular work that really gives us 
the key to solving these problems.
    If we didn't have a very, very good police officer from
    Torrance understand the importance of this, if we didn't 
have some people in the state prison system understand this, if 
we didn't have the cooperation with LAPD and the other law 
enforcement agencies, we never would be where we are with the 
case that is uppermost in many minds.
    I thank the gentlelady for having this hearing. I thank the 
gentleman for yielding. I just want to thank all law 
enforcement for the work they are doing.
    Ms. Harman. Thank you. This Subcommittee rules provide that 
other members under our rules can submit opening statements for 
the record.
    It is now my pleasure to welcome our first panel and I will 
introduce all of you briefly and then each of you will be 
recognized for five minutes or less. Your complete statement 
will be accepted in the record so please summarize. That will 
give us all a chance to ask you questions which I think will 
make this hearing a more interesting event. I know you are 
aware of this request.
    Let me say that I had hoped to recognize the individual 
Torrance police officers who were so capable and were able to 
first understand this terror plot, but I am told they are 
operating under cover so the best I can do is recognize the big 
boss who actually had a role in this and that is Chief John Neu 
who himself has had a distinguished career at the Torrance PD 
for almost 22 years.
    Prior to his appointment as police chief he served in a 
variety of capacities including Special Operations and Patrol 
Bureau Commander. Among his numerous accomplishments was his 
establishment of the supervisory development course that is 
used for training new supervisors at the Torrance Police 
Department. Chief Neu has been cited by the U.S. Department of 
Justice Organized Crime Bureau, the FBI, and the U.S. 
Attorney's Office for his effective police work and exemplary 
leadership skills.
    Our second witness, Bill Bratton, has been on the cover of 
Time magazine and has had a very quiet career so far. How many 
cops with a strong boss in action who have been head of the 
NYPD have come on over to LA where now he is just unanimously 
supported for a second five-year term. It sounds like a movie 
plot but it is actually happening in our midst. He is the only 
person ever to have served as chief executive of these two huge 
police departments.
    Throughout Bill Bratton's 37 years in law enforcement he 
has been a strong advocate of community policing and has worked 
extremely hard in LA to strengthen local commands, increase 
responsiveness to community concerns, develop strategies to 
counter gang-related crimes and the threat of terrorism.
    Under Chief Bratton's leadership the LAPD has developed one 
of the most comprehensive and effective counterterrorism 
operations in the country if not the world.
    Our third witness, Janice Fedarcyk, is the newly appointed 
Special Agent in-Chart of the Counterterrorism Division at the 
FBI's Los Angeles Field Office. A 19-year FBI veteran, Ms. 
Fedarcyk previously served as the FBI's representative to the 
National Counterterrorism Center's Directorate of Strategic 
Operational Planning where she led the development of a 
classified national strategic operational plan in the war on 
terror.
    She has also served as an inspector at FBI headquarters 
where she led inspection teams in assessments of FBI offices 
and entities. Among other things Ms. Fedarcyk will be speaking 
to us today about the FBI's Multi-Cultural Advisory Committee, 
MCAC, we will then hear from someone involved in MCAC, which is 
designed to share information, ideas, and concerns between the 
FBI's Los Angeles Field Office and Arab, Muslim, Sikh, and 
Coptic communities.
    Our forth witness, who I will not overlook, is Sergeant 
Larry Mead who has 24 years of experience with the LA County 
Sheriff's Department. Sergeant Mead serves as the jail 
investigations gang intelligent sergeant where he has worked to 
improve the dissemination of declassified information to line 
deputies thereby increasing their awareness of ongoing gang 
trends and communications with the LAPD, FBI, ICE, and the 
California Department of Corrections among other local, state, 
and Federal agencies regarding the street gang subculture and 
present radicalization.
    As I said, without objection, the witness' full statements 
will be inserted in the record and we will enthusiastically 
receive very concise summaries of your testimony beginning with 
Chief Neu.

    STATEMENT JOHN J. NEU, CHIEF OF POLICE, TORRANCE POLICE 
                           DEPARTMENT

    Mr. Neu. Chairwoman Harman, Honorable Committee Members, 
good morning. I want to thank you for holding this hearing this 
morning.
    Needless to say, since the terrorist attacks of September 
11, 2001, the role and responsibility of local law enforcement 
as first responders to terrorist activity have changed. Our 
mission demands that we make every effort possible to detect 
and prevent terrorist activity right here in our own 
communities. The new paradigm for local law enforcement is 
prevention, but the awareness, knowledge, skills and abilities 
of these officers must be enhanced in order to effectively 
thwart terrorist plots before they manifest as attacks.
    The most significant trend that has been identified over 
the past several years is the rise of the homegrown threat, 
which has been publicized extensively in the media. The 
possibility of a homegrown terrorist attack against Los 
Angeles, New York, Chicago or any other American city is real 
and is worsening with time as the radicalization process 
unfolds. The fuel that ignites this inside threat is a 
significant challenge for law enforcement agencies across the 
United States.
    In July of 2005, officers from my department arrested two 
suspects for robbing a local gas station. As the investigation 
continued to unfold, the officers came face-to-face with a 
direct act of domestic terrorism. An Islamic extremist group 
based here in California and known as``Assembly of Authentic 
Islam'' (JIS) was uncovered.
    This group, operating primarily in state prisons without 
apparent connections or direction from outside the United 
States, committed several armed robberies throughout Southern 
California, including the one in Torrance. The robberies were 
committed with the goal of financing attacks against the 
enemies of Islam, including the United States government and 
supporters of Israel. The chilling evidence that was recovered 
during the investigation showed us the capabilities of this 
terror group.
    The JIS case is a prime example of the powerful radical 
influence which poses a serious threat from within. Our 
greatest weapon against terrorism is unity. That unity is built 
upon information sharing and coordination of law enforcement at 
every level and the intelligence communities. The JIS case 
involved approximately 500 law enforcement officers from the 
Federal, state and local levels. It has been described by some 
in our community as a model case of information sharing and 
investigation. The Los Angeles Police Department provided over 
100 officers to this investigation alone.
    Local law enforcement is, in fact, uniquely positioned to 
identify terrorist activity right here in our own communities. 
As displayed in the JIS case, local law enforcement's 
relationship with Federal law enforcement has improved 
immensely. A major portion of this success is directly related 
to the training of our line level officers in regards to 
domestic terrorism. A specific focus on threat identification 
training paid dividends across the board during the JIS 
investigation. The vertical sharing of intelligence 
information, coupled with communication and coordination 
throughout the investigation, proved to be invaluable to all of 
the agencies involved.
    Local law enforcement plays a critical role in the 
identification and disruption of radicalized Islamic groups. 
Our personnel are on the streets of our community everyday 
interacting, observing, and maintaining the public safety. Our 
Community Based Policing model, Focus Based Policing, has 
proven to be successful mainly because of our steadfast 
relationships with the people we protect. Since the attacks of 
9/11 local law enforcement has utilized these policing models 
to address our homeland security needs and specifically the 
radicalized Islamic extremist threat.
    Our professional relationship with the Federal Bureau of 
Investigation has been well established for over twenty years. 
Our investigators from the Crimes Persons, Narcotics, and Crime 
Impact Sections of our organization work hand in hand with FBI 
personnel on very successful regional investigations. Our 
organizations have synergized and we have gained from each 
others strengths. We consistently enjoy a seamless commingling 
of resources, training, and expertise with our FBI partners.
    Our participation in the FBI Joint Terrorism Task Force was 
a natural progression of our professional relationship. We, as 
an organization, recognize the regional challenge to security 
and we meet the challenge without hesitation. The success of 
the JTTF initiative weighs heavily on local law enforcement 
participation. We understand our role and are prepared to 
endure the challenge. We recognize the value of the ``Task 
Force'' approach to investigations, and our National Security 
is paramount in our thoughts during this trying time in our 
history.
    In closing, the Torrance Police Department has experienced 
homegrown terrorism firsthand. Our Federal, state, and local 
partners were invaluable in uncovering and dismantling a very 
real threat to our region. I would like to thank the committee 
for allowing me to participate in this hearing. Thank you.
    [The statement of Mr. Neu follows:]

                   Prepared Statement of John J. Neu

    Needless to say, since the terrorist attacks of September 11, 2001, 
the role and responsibility of local law enforcement as first 
responders to terrorist activity have changed. Our mission demands that 
we make every effort possible to detect and prevent terrorist activity 
right here in our own communities. The new paradigm for local law 
enforcement is prevention, but the awareness, knowledge, skills and 
abilities of these officers must be enhanced in order to effectively 
thwart terrorist plots before they manifest as attacks.
    The most significant trend that has been identified over the past 
several years is the rise of the ``homegrown'' threat, which has been 
publicized extensively in the media. The possibility of a ``homegrown'' 
terrorist attack against Los Angeles, New York, Chicago or any other 
American city is real and is worsening with time as the radicalization 
process unfolds. The fuel that ignites this inside threat is a 
significant challenge for law enforcement agencies across the United 
States.
    In July of 2005, officers from my department arrested two suspects 
for robbing a local gas station. As the investigation continued to 
unfold, the officers came face-to-face with a direct act of domestic 
terrorism. An Islamic extremist group based here in California and 
known as ``Assembly of Authentic Islam'' (JIS) was uncovered. This 
group, operating primarily in state prisons without apparent 
connections or direction from outside the United States, committed 
several armed robberies throughout Southern California, including the 
one in Torrance. The robberies were committed with the goal of 
financing attacks against the enemies of Islam, including the United 
States government and supporters of Israel.
    The investigation brought charges against Kevin James, Lavar 
Washington, Gregory Patterson, and Hammad Samana. The indictment 
alleges that James, while in prison in Sacramento, recruited fellow 
prison inmates to join JIS and preached the duty of members was to 
target for violent attack any enemies of Islam, or ``infidels,'' 
including the United States government and Jewish and non-Jewish 
supporters of Israel. James allegedly distributed a document in prison 
that justified the killing of ``infidels,'' and made members take an 
oath not to talk about the existence of JIS. He also allegedly sought 
to establish groups or ``cells'' of JIS members outside of prison to 
carry out violent attacks against ``perceived infidels,'' including the 
United States government, the government of Israel and Jewish people.
    Washington, also an inmate at the Sacramento prison, joined JIS in 
November 2004 and was paroled at the end of the month. In December 
2004, James allegedly instructed Washington to recruit five people to 
train in covert operations, acquire firearms with silencers, and find 
contacts with explosives expertise or learn to make bombs that could be 
activated from a distance.
    The indictment alleges that beginning in December 2004, Washington, 
Patterson and Samana targeted and conducted Internet research on and 
surveillance of United States military facilities, which included 
recruitment centers and military bases in the Los Angeles area, as part 
of their plot to kill United States military personnel. In July 2005, 
Patterson and Samana allegedly used computers to research military 
targets in the Los Angeles area, while Samana drafted a document 
listing Israeli and United States targets in Los Angeles. In addition 
to the United States military targets, the coconspirators specifically 
targeted Israeli and Jewish facilities in the Los Angeles area, 
including the Israeli Consulate, El Al (the national airline of Israel) 
and synagogues. They also allegedly engaged in firearms and physical 
training in preparation for attacks.
    According to the indictment, the defendants purchased weapons or 
otherwise tried to acquire weapons in furtherance of their terrorist 
conspiracy, and made efforts to raise money by robbing gas stations. 
The indictment alleges that eleven times beginning May 30, 2005, the 
defendants, armed with shotguns, robbed or attempted to rob gas 
stations in several cities and towns in Southern California, including 
Los Angeles, Torrance, Playa del Ray, Bellflower, Pico Rivera, Walnut, 
Orange, Playa Vista and Fullerton. The indictment alleges that during 
the gas station robbery spree, Patterson updated James on the progress 
of the planned war of terrorism against the United States government.
    The JIS case is a prime example of the powerful radical influence 
which poses a serious threat from within. Our greatest weapon against 
terrorism is unity. That unity is built upon information sharing and 
coordination of law enforcement at every level and the intelligence 
communities. The JIS case involved approximately 500 law enforcement 
officers from the federal, state and local levels. It has been 
described by some in our community as a model case of information 
sharing and investigation. The Los Angeles Police Department provided 
over 100 officers to this investigation alone.
    The criminal investigation into the alleged terrorist conspiracy 
was lead by the FBI's Long Beach Joint Terrorism Task Force, whose 
participating agencies include the Los Angeles Police Department; U.S. 
Immigration and Customs Enforcement; the Torrance Police Department; 
the Los Angeles County Sheriff's Department; the Long Beach Police 
Department; the Bureau of Alcohol, Tobacco, Firearms and Explosives; 
U.S. Immigration and Customs Enforcement; the Los Angeles Port Police; 
U.S. Customs and Border Protection; the U.S. Coast Guard Investigative 
Service; the Defense Criminal Investigative Service; and the U.S. 
Environmental Protection Agency. The JIS case is a prime example of how 
far local law enforcement has come in our collaborative efforts in 
fighting domestic terrorism that involved radical homegrown terrorists.
    Local law enforcement is, in fact, uniquely positioned to identify 
terrorist activity right here in our own communities. As displayed in 
the JIS case, local law enforcement's relationship with federal law 
enforcement has improved immensely. A major portion of this success is 
directly related to the training of our line level officers in regards 
to domestic terrorism. A specific focus on threat identification 
training paid dividends across the board during the JIS investigation. 
The vertical sharing of intelligence information, coupled with 
communication and coordination throughout the investigation, proved to 
be invaluable to all of the agencies involved.

Information Needs of Local Law Enforcement Relating to Islamic 
Radicalization
    Local law enforcement plays a critical role in the identification 
and disruption of radicalized Islamic groups. Our personnel are on the 
streets of our community everyday interacting, observing, and 
maintaining the public safety. Our Community Based Policing model, 
Focus Based Policing, has proven to be successful mainly because of our 
steadfast relationships with the people we protect. Since the attacks 
of nine-eleven, local law enforcement has utilized these policing 
models to address our homeland security needs and specifically the 
radicalized Islamic extremist threat. We do, however, require better 
awareness in some critical areas such as:
        <bullet> Understanding the threat of terrorism to our community 
        and infrastructure
                <bullet> Homegrown terror (JIS)
        <bullet> Cultural awareness of the Muslim community we serve 
        and equal knowledge of the very small percentage of Muslims 
        that would be vulnerable to the radical ideologies
        <bullet> What factors lead to radicalized beliefs and what are 
        the trip wires or clues in the community that local law 
        enforcement would encounter?
        <bullet> Where could recruitment and radicalization occur in 
        our community?
        <bullet> Identification of material support efforts for terror 
        and criminal organizations
        <bullet> Gaining a better understanding of combating Fourth 
        Generation Warfare
                <bullet> Terrorism is a tactic of Fourth Generation 
                Warfare
    Our partners in the FBI and the region are facilitating the 
training and awareness through unprecedented lateral networking.

Our Well Established Relationship with the FBI
    Our professional relationship with the Federal Bureau of 
Investigation has been well established for over twenty years. Our 
investigators from the Crimes Persons, Narcotics, and Crime Impact 
Sections of our organization work hand in hand with FBI personnel on 
very successful regional investigations. Our organizations have 
synergized and we have gained from each others strengths. We 
consistently enjoy a seamless commingling of resources, training, and 
expertise with our FBI partners.
    Our participation in the FBI Joint Terrorism Task Force was a 
natural progression of our professional relationship. We, as an 
organization, recognize the regional challenge to security and we meet 
the challenge without hesitation. Our investigators are contributors 
and team players within the task force initiative. The success of the 
JTTF initiative weighs heavily on local law enforcement participation. 
We understand our role and are prepared to endure the challenge. We 
recognize the value of the ``Task Force'' approach to investigations, 
and our National Security is paramount in our thoughts during this 
trying time in our history.
    Our FBI partners, the Los Angeles Police Department, the Los 
Angeles Sheriff's Department, and other law enforcement agencies have 
embraced this spirit of cooperation. We truly witnessed this selfless 
commitment during the JIS investigation. This investigation tasked over 
500 personnel and the Los Angeles Police Department alone contributed 
over 100 officers. This ability to force multiply was critical to the 
rapid dismantling of this dangerous threat and we are very appreciative 
to ``our big brothers'' in the region.
    With the creation of the Los Angeles Joint Regional Intelligence 
Center (LA JRIC), the ``fusion'' of information sharing has really 
evolved. The centralized facility has truly encouraged both vertical 
and, more importantly, lateral information sharing. The initiative has 
spurred the growth of other Terror Early Warning Groups (TEW) and 
Terror Liaison Officer working groups within the region. These groups 
apply proven networking techniques; mentor one another, track crime 
trends, and train on terror related topics. The LA JRIC also provides 
terror reporting fusion procedures, predictive analysis relating to 
crime and terrorism, investigative support and training. All are 
critical components to enhancing line level officers' awareness.

Our Community Outreach Efforts
    To address our community's safety, we have followed our successful 
Focus Based Policing model to reach out to the public and business 
sectors. We have modified the ``focus'' to include trip wires for 
terror related activities. We have identified areas within our 
jurisdiction such as the Del Amo Fashion Center, our many public and 
private schools, petrochemical facilities, Exxon Mobil Refinery, and 
secured our relationships and resources to maximize security efforts. 
This, too, has been a collaborated effort involving DHS, FBI, and local 
law enforcement. We are constantly reinforcing our methods and training 
to equal the threat and maintain the safety our community.

        Focus Based Policing for Counterterrorism
                <bullet> Building ties and relationships with the 
                community
                <bullet> Understanding socio-cultural, political, and 
                religious issues
                <bullet> Understanding terrorist indicators and 
                behaviors
                <bullet> Empowering the community
        Engage the Community
                <bullet> Town hall meeting and outreach programs
                <bullet> School awareness programs and counter terror 
                trained School Resource Officers
                <bullet> Business contacts and critical infrastructure 
                monitoring
                <bullet> Deployment of Terror Liaison Officers
    In closing, the Torrance Police Department has experienced 
``homegrown'' terrorism firsthand. Our federal, state, and local 
partners were invaluable in uncovering and dismantling a very real 
threat to our region from JIS. Our success in this case was due to a 
professional, established, aggressive approach to investigating 
criminal activity, and the established partnership with the FBI Joint 
Terrorism Task Force. I would like to thank the committee for allowing 
me to participate in this hearing.
    Thank you

    Ms. Harman. Thank you, Chief, and thank you for respecting 
the time limits.
    Chief Bratton, you are now recognized for up to five 
minutes.

 STATEMENT OF WILLIAM J. BRATTON, CHIEF OF POLICE, LOS ANGELES 
                       POLICE DEPARTMENT

    Mr. Bratton. Chairwoman Harman, Ranking Member Reichert and 
members of the Committee, thank you for holding this hearing on 
the pressing issue of Radicalization.
    The Los Angeles Police Department and the City of Los 
Angeles have forged successful relationships with our local, 
state, and Federal partners to begin examining and responding 
to the growing threat posed by radicalization. However, we need 
continued support for our efforts across a number of areas of 
concern. Today, I will address three issues of interest to this 
committee:
    First, the growing threat of Muslim radicalization in the 
United States. Second, the connection between prison 
radicalization and the potential of homegrown Islamist 
terrorism. Third, the role that a congressionally-funded 
National Counter Terrorism Academy serving state and local law 
enforcement would have in countering the these threats.
    As you are aware, beginning in May of 2005, four radical 
Muslim suspects, armed with shotguns, went on a significant 
crime spree that by itself would have been noteworthy. Eleven 
times they robbed or attempted to rob gas stations in the 
cities. In investigating the crimes, the experienced detectives 
of the Torrance Police Department focused on the basics of any 
investigation: evidence, witnesses, and modus operandi.
    A lucky break occurred when a cell phone belonging to one 
of the suspects was recovered. When a search was conducted of 
the suspect's apartment the detective also observed disturbing 
evidence. This evidence included body armor, knives, and other 
evidence of the crime. However, when the detective noticed 
jihad-related literature and the addresses of potential 
``targets'' the detective fell back on his previous training as 
a Terrorism Liaison Officer (TLO), and yesterday you heard 
about TLOs, and recognized this as a pre-incident indicator to 
a terrorist attack.
    As a TLO, this detective had received minimal formalized 
terrorism training in comparison to the routine training 
received by bona fide counter-terrorism professionals. Yet this 
training was sufficient enough to arm the Torrance detective 
with usable information. To most detectives this``disturbing 
evidence'' would have appeared as inconsequential to the 
robbery charge.
    Some of it, political or philosophical in nature, would 
have appeared as mere ramblings during a routine search.
    Directions, maps, and other non-overtly criminal articles 
would usually be brushed aside as miscellaneous. To the trained 
observer, however, the evidence clearly pointed to only one 
possibility, homegrown terrorism.
    It was at the Los Angeles Joint Terrorism Task Force(JTTF), 
which you are familiar with, where LAPD task force officers, 
tenured detectives, and FBI special agents worked together 
diligently and tirelessly with the Torrance detectives' 
information. As a result of this extraordinary teamwork, not 
only were the suspects apprehended but a larger and greater 
conspiracy was uncovered.
    Further investigation revealed that this group was aligned 
with a California prison group known as Jamiyyat Ul Islam Is 
Saheeh (JIS), which translates to ``Assembly of Authentic 
Islam.'' JIS practiced a radical form of Islam that was neither 
authentic nor peaceful. An inmate, Kevin Lamar James, founded 
this radical group in 1997 at California's notorious Folsom 
Prison. James, a Los Angeles-based gang member serving time for 
robbery, directed his followers ``to target for violent attack 
any enemies of Islam or `infidels,' including the United States 
government and Jewish and non-Jewish supporters of Israel.''
    Hiding behind the guise of religious freedom, James' JIS 
used assumed protections such as the freedom of religion to 
advance its beliefs and pressure new recruits and converts into 
a hate-based cult. It affiliated itself with al-Qa'ida's 
philosophies and targeting array. James has much in common with 
many other radicals that have been identified in the United 
States. All were street thugs radicalized while behind bars. 
All were first encountered by local law enforcement before they 
were radicalized. And all plotted to kill Americans.
    The tentacles of JIS reached beyond the prison's walls. A 
released member was able to recruit two otherwise law-abiding 
residents into a terrorist cell. He convinced them to rob and 
eventually commit terrorist acts for JIS. He also indoctrinated 
them into the radical philosophy of hate.
    The successful approach taken by all participating agencies 
involved in the Torrance case is no accident. Rather, it was 
the result of the dedication, training, and expertise of the 
officers involved. More, however, can be done to locate and 
stop other attacks. We need to educate all of local law 
enforcement about counter-terrorism techniques and 
investigations.
    In this respect, as a region, as a state, and as a nation, 
in the Torrance Case we dodged a bullet. Whether the motivation 
is religious fundamentalism, anti-government sentiment, or the 
disaffected loner, radicalized groups or individuals are 
increasingly perpetrating terrorism. A substantial attack upon 
U.S. soil is increasingly likely. The answer rests with 
prevention. The nation's 12,000 FBI Special Agents clearly 
cannot do it alone with their new mission of dealing with 
terrorism.
    However, over 700,000 local law enforcement officers in the 
U.S. are already on the front lines, fighting crime and 
gathering critical information on a daily basis. Providing 
these 700,000 front-line officers standardized counterterrorism 
training will transform these first responders into a 
coordinated collection and prevention asset.
    Such an approach can be a true force multiplier. We must 
cultivate a working relationship with all religious groups in 
our region, and gain their trust. The colleague from the FBI 
will speak to that. It is essential that this, in fact, be 
done.
    Here in Los Angeles we have initiated a partnership with 
the Center for Policing terrorism (CPT), which is part of the 
Manhattan Institute, a think tank in New York City. My working 
relationship with the Institute goes back to my days as the 
Commissioner of New York City Police Department. CPT leverages 
world-class experts to help the LAPD and other departments 
tackle our most pressing counterterrorism challenges smarter, 
faster, and cheaper.
    As a result, it is the recommendation of the CPT that the 
LAPD partner with an existing school of higher education and 
our Federal partners to create a National Counter Terrorism 
Academy (NCTA) in Los Angeles. The purpose of the NCTA would be 
to lead the way in ushering in a new era of policing strategy: 
Intelligence-Led Policing (ILP).
    Recognized as a national way forward, ILP is an all-crimes 
approach to enforcement that will revolutionize law 
enforcement. ILP richly integrates existing strategies and 
technologies into a coherent ``game-plan'' approach in 
allocating resources efficiently.
    Currently, without a national strategy, or a place where 
police executives can learn how to implement ILP, it is sitting 
on the shelf unused. We must set national standards. We must 
provide training at all levels. It is essential. The Torrance 
case reinforces that.
    Public-private partnerships such as that exemplified by the 
LAPD and the Manhattan Institute build tangible results. 
Public-private partnerships and partnerships among various 
agencies at all levels of government are essential.
    Madam Chairwoman and members of the Subcommittee, thank you 
for inviting me to speak today on this important subject. I am 
happy to answer any questions you may have.
    [The statement of Mr. Bratton follows:]

                Prepared Statement of William J. Bratton

    Chairwoman Harman, Ranking Member Reichert and members of the 
committee, thank you for holding this hearing on the pressing issue of 
Radicalization.
    The Los Angeles Police Department (LAPD) and the City of Los 
Angeles have forged successful relationships with our local, state, and 
federal partners to begin examining and responding to the growing 
threat posed by radicalization. However, we need continued support for 
our efforts across a number of areas of concern. Today, I will address 
three issues of interest to this committee:
        <bullet> First, the growing threat of Muslim radicalization in 
        the United States, specifically here in the Los Angeles area, 
        and the challenges posed to local, state, and federal 
        authorities.
        <bullet> Second, the connection between prison radicalization 
        and the potential of homegrown Islamist terrorism.
        <bullet> Third, the role that a congressionally-funded National 
        Counter Terrorism Academy (NCTA) serving state and local law 
        enforcement would have in countering the these threats.
    Beginning in May of 2005, four radical Muslim suspects--armed with 
shotguns)--went on a significant crime spree that by itself would have 
been noteworthy. Eleven times they robbed or attempted to rob gas 
stations in the cities of Los Angeles, Torrance, Playa Del Rey, 
Bellflower, Pico Rivera, Walnut, Orange, Playa Vista, and Fullerton.
    In investigating the crimes, the experienced detectives of the 
Torrance Police Department focused on the basics of any investigation: 
evidence, witnesses, and modus operandi. A lucky break occurred when a 
cell phone belonging to one of the suspects was recovered. When a 
search was conducted of the suspect's apartment the detective also 
observed disturbing evidence. This evidence included body armor, 
knives, and other evidence of the crime.
    However, when the detective noticed jihad-related literature and 
the addresses of potential ``targets'' the detective fell back on his 
previous training as a Terrorism Liaison Officer (TLO) and recognized 
this as a pre-incident indicator to a terrorist attack. As a TLO, this 
detective had received minimal formalized terrorism training--in 
comparison to the routine training received by bona fide counter-
terrorism professionals. Yet this training was sufficient enough to arm 
the Torrance detective with usable information.
    To most detectives this ``disturbing evidence'' would have appeared 
as inconsequential to the robbery charge. Some of it, political or 
philosophical in nature, would have appeared as mere ramblings during a 
routine search. Directions, maps, and other non-overtly criminal 
articles would usually be brushed aside as miscellaneous. To the 
trained observer, however, the evidence clearly pointed to only one 
possibility--homegrown terrorism.
    It was at the Los Angeles Joint Terrorism Task Force (JTTF) where 
LAPD task force officers--tenured detectives--and FBI special agents 
worked together diligently and tirelessly. As a result of this 
extraordinary teamwork, not only were the suspects apprehended but a 
larger and greater conspiracy was uncovered.
    Experienced local detectives and federal agents conducted textbook 
interrogations of the suspects revealing a surprising fact. The cell of 
robbers and alleged terrorists were further along in their conspiracy 
than anyone knew or expected. These homegrown terrorists had already 
conducted surveillance of military recruitment stations, the Israeli 
consulate, El-Al airlines, and prominent synagogues. According to the 
federal indictment against the JIS members, they had selected attack 
periods ``to maximize the number of casualties.''
    Further investigation revealed that this group was aligned with a 
California prison group known as Jamiyyat Ul Islam Is Saheeh (JIS), 
which translates to ``Assembly of Authentic Islam.'' JIS practiced a 
radical form of Islam that was neither authentic nor peaceful. An 
inmate, Kevin Lamar James, founded this radical group in 1997 at 
California's notorious Folsom Prison. James, a Los Angeles-based gang 
member serving time for robbery, directed his followers ``to target for 
violent attack any enemies of Islam or `infidels,' including the United 
States government and Jewish and non-Jewish supporters of Israel.'' \1\
---------------------------------------------------------------------------
    \1\ Kevin Lamar James
---------------------------------------------------------------------------
    Hiding behind the guise of religious freedom, James' JIS used 
assumed protections such as the freedom of religion to advance its 
beliefs and pressure new recruits and converts into a hate-based cult. 
It affiliated itself with al-Qa'ida's philosophies and targeting array 
(``The ruling to kill the Americans and their allies--civilians and 
military--is an individual duty for every Muslim who can do it in any 
country in which it is possible to do it.'' \2\). James has much in 
common with Ahmed Ressam, Richard Reid, Abu Musab al Zarqawi, and Jose 
Padilla. All were street thugs radicalized while behind bars. All were 
first encountered by local law enforcement before they were 
radicalized. And all plotted to kill Americans.
---------------------------------------------------------------------------
    \2\ Jihad Against Jews and Crusaders, World Islamic Front 
Statement, 23 February 1998
---------------------------------------------------------------------------
    The tentacles of JIS reached beyond the prison's walls. A released 
member was able to recruit two otherwise law-abiding residents into a 
terrorist cell. He convinced them to rob and eventually commit 
terrorist acts for JIS. He also indoctrinated them into the radical 
philosophy of hate.
    In this case, ``Islamist'' radicals were taken into custody, 
preventing terrorism at home. It was demonstrated that formal education 
in the subject matter of terrorist tradecraft, together with modern 
intelligence-led policing strategies and proven investigative 
techniques, could be used successfully to counter and prevent 
terrorism.
    The successful approach taken by all participating agencies 
involved in the Torrance case is no accident. Rather, it was the result 
of the dedication, training, and expertise of the officers involved. 
More, however, can be done to locate and stop other attacks. We need to 
educate all of local law enforcement about counter-terrorism techniques 
and investigations. In this respect, as a region, as a state, and as a 
nation, in the Torrance Case we dodged a bullet.
    Whether the motivation is religious fundamentalism, anti-government 
sentiment, or the disaffected loner, radicalized groups or individuals 
are increasingly perpetrating terrorism. A substantial attack upon U.S. 
soil is increasingly likely. The answer rests with prevention.
    The nation's 12,000 FBI Special Agents are indeed some of the best 
investigators in the world, and the training they receive sets the 
benchmark for law enforcement. Despite their talents and abilities, the 
workload of most special agents is overwhelming and their enforcement 
scope is limited. However, over 700,000 local law enforcement officers 
in the U.S. are already on the front lines, fighting crime and 
gathering critical information on a daily basis.
    Providing these 700,000 front-line officers standardized counter-
terrorism training will transform these first responders into a 
coordinated collection and prevention asset. Such an approach can be a 
true force multiplier.
    The only way to prevent radicalization is to end the conditions 
that foster it. When efforts at prevention are unsuccessful or 
impractical, a fully trained and seamlessly integrated public safety 
force is required to recognize pre-incident indicators and develop 
interdiction, disruption, or arrest strategies.
    Furthermore, we must cultivate a working relationship with all 
religious groups in our region, and gain their trust. It is these 
congregations that will provide the needed intelligence of disaffected 
membership. However, a suspicious and frightened religious community 
will react to knee-jerk outreach efforts as dubious or disingenuous.
    We have initiated a partnership with the Center for Policing 
Terrorism (CPT), which is part of the Manhattan Institute, a think tank 
in New York City. My working relationship with the Institute dates back 
to my days as the Commissioner of New York Police Department, where the 
Institute provided some of the intellectual force behind our crime 
reduction strategies and assisted in their dissemination. Similarly, 
the CPT leverages world-class intellectuals to help the LAPD and other 
departments tackle our most pressing counter-terrorism challenges 
smarter, faster, and cheaper.
    As a result, it is the recommendation of the CPT that the LAPD 
partner with an existing school of higher education and our federal 
partners to create a National Counter Terrorism Academy (NCTA) in Los 
Angeles. The purpose of the NCTA would be to lead the way in ushering 
in a new era of policing strategy: Intelligence-Led Policing (ILP). 
Recognized as a national way forward, ILP is an all-crimes approach to 
enforcement that will revolutionize law enforcement. ILP richly 
integrates existing strategies and technologies into a coherent ``game-
plan'' approach in allocating resources efficiently. Currently, without 
a national strategy, or a place where police executives can learn how 
to implement ILP, it is sitting on the shelf unused.
    Setting national standards for training in the field of counter-
terrorism would be the first step in pursuing a coordinated approach to 
intelligence gathering and analysis. Currently, unlike intelligence 
training, information technology systems and first responder training 
courses must be certified and approved as interoperable. As proposed by 
the LEAP Strategy report,\3\ such an effort would be needed to train 
police officers at every level in a unified, scientific, and 
constitutionally-responsible manner. The NCTA would both seek out 
current and professional programs and curriculum and develop its own 
where gaps exist. By establishing a professional academic approach, the 
NCTA would be a first of its kind to forward ILP strategies for local 
police agencies and their partners who are going to be essential in 
transitioning national and international homeland security efforts into 
homeland security initiatives.
---------------------------------------------------------------------------
    \3\ Law Enforcement Assistance and Partnership Strategy - Improving 
Information Sharing Between the Intelligence Community and State, 
Local, and Tribal Law Enforcement.
---------------------------------------------------------------------------
    Public-private partnerships such as that exemplified by the Los 
Angeles Police Department and the Manhattan Institute build tangible 
results. For example, we have sought the advice of CPT and other 
private and public partners in developing our fundamental approach to 
building good community relations with faith-based groups in our City. 
I am proud to report that LAPD works extraordinarily hard at developing 
strong ties with the people of Los Angeles. In building effective 
relationships with those groups that the current terrorist operative is 
likely to exploit, we are learning that it is best to concentrate on 
shared goals such as public safety and quality of life issues. With the 
trust and mutual respect between police and citizen that such 
collaboration fosters, we are erecting the strongest of defenses 
against terrorism.
    As with any new educational effort the basics are needed--a brick 
and mortar facility, and educational infrastructure, computers, 
networks, and other information technology. A core curriculum aimed at 
every level of law enforcement, one that is tailored to the students' 
needs, must be developed and quickly implemented.
    Madam Chairwoman and members of the Subcommittee, thank you for 
inviting me to speak today on this important subject. I am happy to 
answer any questions you may have.

    Ms. Harman. Thank you, Chief.
    Ms. Fedarcyk.

STATEMENT OF JANICE K. FEDARCYK, SPECIAL AGENT IN-CHARGE (SAC) 
   COUNTERTERRORISM DIVISION, FBI'S LOS ANGELES FIELD OFFICE

    Ms. Fedarcyk. Chairman Harman, Ranking Member Reichert, and 
members of the Subcommittee, I want to thank you for this 
opportunity to speak to you on the topic of Islamic 
radicalization in the U.S., and the FBI's efforts to address 
this emerging threat with our other Federal, state, and local 
partners. FBI does not investigate members of any religion for 
their religious beliefs, but rather focuses on investigating 
activities that may harm the United States.
    Although the most dangerous instances of radicalization 
have so far been overseas, the Islamic radicalization of U.S. 
persons, whether foreign-born or native, is of increasing 
concern. Key to the success of stopping the spread of 
radicalization is identifying patterns and trends in the early 
stages.
    The FBI characterizes homegrown Islamic extremists as U.S. 
persons who may appear to be assimilated, but reject the 
cultural values, beliefs, and environment of the United States. 
They identify themselves as Muslim on some level and on some 
level become radicalized in the United States. They could 
provide support for or directly commit a terrorist act inside 
the United States.
    The FBI has identified certain venues, such as prisons and 
the internet, that present opportunities for the proselytizing 
of radical Islam. The European and American experience shows 
that prisons are venues where extremists can be radicalized and 
recruited among the inmate population. Prison radicalization 
primarily occurs through anti-U.S. sermons provided by 
contract, volunteer, or staff imams, radicalized inmates who 
gain religious influence, and extremist media.
    Most cases of prison radicalization appear to be carried 
out by domestic Islamic extremist groups with few or no direct 
foreign connections, like the Sunni Islamic extremist group in 
California that you have just heard about, the JIS. Although 
the Committee is familiar with this case, it is theFBI's 
responsibility to ensure the defendants in this case receive a 
fair and impartial trial so I will limit my comments relative 
to that concern.
    I would like to emphasize, however, that not all prison 
radicalization is Islamic in nature. Domestic groups such as 
white supremacists also recruit in prisons. In response to this 
possible threat, the FBI and the Bureau of Prisons have been 
actively engaged in efforts to detect, deter, and interdict 
efforts by terrorist and extremist groups to radicalize or 
recruit in U.S. prisons. This effort has been underway since 
February 2003.
    As a result of the JIS case, the FBI organized a Prison 
Radicalization Working Group which is comprised of more than 15 
Federal, state, and local agencies, and over 30 task force 
officers. As part of these efforts, we have identified ``best 
practices'' for correctional institutions to combat the spread 
of radicalization.
    In addition to our investigative efforts, the FBI realizes 
that community involvement is critical to the success of our 
mission in combating radicalization within our homeland.
    In September 2003, the Los Angeles Field Office did 
initiate the formation of the Muslim, Arab, Armenian, Sikh, and 
Coptic Ombudsman Program, which actually has evolved into the 
Multi-Cultural Advisory Committee. This committee allows 
information, ideas, and concerns to be shared between the FBI 
and said communities. The inaugural meeting of the Committee 
was hosted by the Los Angeles Field Office on May 27, 2004.
    Since that date, the Committee has met on the third Monday 
of each month to address issues and concerns ranging from the 
FBI's Counter Terrorism and Counter Intelligence missions, the 
Patriot Act, and interviews of individuals within these 
communities, as well as guest presentations by other agencies.
    As a result the Los Angeles Field Office has also 
participated in a number of town hall meetings and community 
functions at which an FBI presence is requested among their 
communities.
    In the spirit of partnership and sharing information, 
Committee members have hosted a number of events for FBI 
personnel to broaden their cultural and religious understanding 
of the various aspects of the Arab, Armenian, Muslim, Sikh, and 
Coptic communities in the greater Los Angeles area.
    With respect to our collaborations that have been forged 
among law enforcement and other public safety sectors, the FBI 
and its law enforcement partners have been working together for 
a number of years to address terrorism related matters. In 
1984, in order to coordinate counterterrorism threats and 
responses associated with the Summer Olympics the FBI initiated 
a working group which led to the formation of the Los Angeles 
Joint Terrorism Task Force.
    The combined resources of the various formalized and ad-hoc 
JTTF groups in the greater Los Angeles territory includes more 
than 260 full-time task force investigators, consisting of 
approximately 150 FBI Special Agents, and 110 other Federal, 
state, and local task force agents/officers.
    Among the fundamental post-September 11th changes, sharing 
intelligence is now the paramount objective. Among a number of 
other programs and initiatives one that we are most proud of 
and excited is the Joint Regional Intelligence Center which you 
had the opportunity to visit yesterday in which Federal, state, 
and local resources are commingled in order to produce an 
integrated multi-agency intelligence processing center.
    We believe the LA JRIC is a ground-breaking cooperative 
which fully integrates intelligence intake, vetting, analysis/
fusion, and synthesis from a multitude of law enforcement and 
public safety agencies. JRIC's services are available to all 
law enforcement agencies throughout our seven county region and 
that it allow for a smoother flow of leads and intelligence to 
prevent duplication, fragmentation, and circular reporting.
    Chairwoman Harman, Ranking Member Reichert, and members of 
the Subcommittee, there has been a lot of discussion and 
speculation about the effectiveness of the FBI and its partners 
to combat terrorism, and the manner in which information is 
processed and shared. The FBI has made significant improvements 
in the past six years to ensure we are pooling our Federal, 
state, and local resources accordingly, and working as one team 
to address potential threats to our homeland.
    In my 25 plus years working as a law enforcement officer, I 
have never experienced the level of collegial partnerships 
between law enforcement and public safety agencies as I have 
here in Los Angeles. We fully appreciate and understand the 
tasking that the American people expect of us, and we are 
standing shoulder to shoulder with our partners to accomplish 
this mission. Thank you.
    [The statement of Ms. Fedarcyk follows:]

                 Prepared Statement of Janice Fedarcyk

    Chairman Harman, Ranking Member Reichert, and members of the 
Subcommittee, I want to thank you for this opportunity to speak to you 
on the topic of Islamic radicalization in the United States, and the 
Federal Bureau of Investigation's (FBI) efforts to address this 
emerging threat with our other federal, state, and local partners. I 
would like to emphasize before I begin that the issue is not Islam 
itself, but how the religious ideology is used by violent extremists to 
inspire and justify their actions. The FBI does not investigate members 
of any religion for their religious beliefs, but rather focuses on 
investigating activities that may harm the United States.
    Successes in the war on terrorism and the arrests of many key al-
Qa'ida leaders have diminished the ability of the group to attack the 
United States (US) Homeland. At the same time, a broader Sunni 
extremist movement has evolved from being run entirely by al-Qa'ida 
central, to a broader movement. This is demonstrated by the 2004 Madrid 
bombings, the July 2005 London bombings, and recent disruptions in the 
US, United Kingdom, Canada, Bosnia, Denmark and elsewhere.
    That said, al-Qa'ida's core remains committed to attacking the 
United States and continues to demonstrate its ability to adapt its 
tactics to circumvent security measures and reconstitute its ranks. Al-
Qa'ida is also attempting to broaden its appeal to English-speaking 
Western Muslims by disseminating violent Islamic extremist propaganda 
via media outlets and the Internet.
    Although the most dangerous instances of radicalization have so far 
been overseas, the Islamic radicalization of US persons, whether 
foreign-born or native, is of increasing concern. Key to the success of 
stopping the spread of radicalization is identifying patterns and 
trends in the early stages.
    The FBI characterizes homegrown Islamic extremists as US persons 
who may appear to be assimilated, but, to some degree, have become 
radicalized in their support for Islamic jihad. They often see 
themselves as devout Muslims and reject the cultural values, beliefs, 
and environment of the United States. Let me make it clear that the FBI 
is not interested in these people because they have rejected American 
culture and adopted a strict, devout view of Islam. We are interested 
in them when and where there are reasonable indications that they may 
provide support for, or directly commit, a terrorist attack inside the 
United States because of their radicalized view of Islam. The threat 
from homegrown Islamic extremists is likely smaller in scale than that 
posed by overseas terrorist groups such as al-Qa'ida, but is 
potentially larger in psychological impact. Several recent cases 
illustrate the nature of the issue.
        <bullet> Since August 2005 the FBI, other federal agencies, and 
        our foreign partners have dismantled a global network of 
        extremists who are operating independently of any known 
        terrorist organization. Several individuals affiliated with 
        this network were arrested for providing material support in 
        connection with the plotting of a terrorist attack in the 
        United States.
        <bullet> The apparent increase of cases involving homegrown 
        Islamic extremists may represent an increased sensitivity of 
        law enforcement to activities not previously regarded as 
        terrorism, but we cannot rule out the possibility that the 
        homegrown phenomenon could be growing.
    The FBI has identified certain venues, such as prisons and the 
internet, that present opportunities for the proselytizing of radical 
Islam.
    The European and American experience shows that prisons are venues 
where extremists can be radicalized and recruited among the inmate 
population. Prison radicalization primarily occurs through anti-US 
sermons provided by contract, volunteer, or staff imams, radicalized 
inmates who gain religious influence, and extremist media. Ideologies 
that radicalized inmates appear most often to embrace include the 
Salafi form of Sunni Islam (including revisionist versions commonly 
known as ``prison Islam'') and an extremist view of Shia Islam similar 
to that of the Government of Iran and Lebanese Hizballah.
    Most cases of prison radicalization appear to be carried out by 
domestic Islamic extremist groups with few or no direct foreign 
connections, like the Sunni Islamic extremist group in California, the 
Jam'iyyat Ul-Islam Is-Saheeh (JIS), identified in July 2005. Although 
the Committee is familiar with this case, I regret that I am unable to 
elaborate publicly on it at this time due to pending legal proceedings, 
and the FBI's responsibility to ensure the defendants in this case 
receive a fair and impartial trial. I would like to emphasize, however, 
that not all prison radicalization is Islamic in nature. Domestic 
groups such as white supremacists also recruit in prisons.
    In response to this possible threat, the FBI and the Bureau of 
Prisons (BOP) have been actively engaged in efforts to detect, deter, 
and interdict efforts by terrorist and extremist groups to radicalize 
or recruit in US prisons since February 2003. As a result of the JIS 
case here in Los Angeles, the FBI organized a Prison Radicalization 
Working Group which is comprised of more than 15 federal, state, and 
local agencies, and over 30 task force officers. As part of these 
efforts, we have identified ``best practices'' for correctional 
institutions to combat the spread of radicalization.
    The Internet is also a venue for the radicalization of young, 
computer-savvy Westerners--both male and female--who identify with an 
Islamic extremist ideology. An older generation of supporters and 
sympathizers of violent Islamic extremism, in the post-9/11 environment 
of increased law enforcement scrutiny, has migrated their 
radicalization, recruitment, and material support activities online. 
Radicalization via the Internet is participatory, and individuals are 
actively engaged in exchanging extremist propaganda and rhetoric online 
which may facilitate the violent Islamic extremist cause. These online 
activities further their indoctrination, create links between 
extremists located around the world, and may serve as a springboard for 
future terrorist activities.
    Overseas experience can also be a significant element in 
facilitating the transition from one who has a proclivity to be 
radicalized, and who may espouse radicalized rhetoric, to one who is 
willing and ready to act on those radicalized beliefs. Although 
radicalization can occur without overseas travel, the foreign 
experience appears to provide the networking that makes it possible for 
interested individuals to train for and participate in operational 
activity. The experience may vary from religious or language 
instruction, to basic paramilitary training.
        <bullet> We assess that the overseas experiences of John Walker 
        Lindh \1\ played a pivotal role in his involvement with the 
        Taliban. Once overseas, he was directed by radicalized 
        individuals to attend extremist universities, and ultimately 
        training camps in Pakistan and Afghanistan.
---------------------------------------------------------------------------
    \1\ John Walker Lindh, after pleading guilty in the Eastern 
District of Virginia to supporting the Taliban, in violation of the 
International Emergency Economic Powers Act (IEEPA) (50) U.S.C. 
Sec. 1705(b)0, and carrying an explosive during the commission of a 
felony (18 U.S.C. Sec. 844(h)(2)), was given a 20-year sentence.

The FBI approaches the radicalization issue on two levels:
        <bullet> We are attempting to understand the dynamics of 
        individual and organizational radicalization to identify early 
        indicators as to whether individuals or groups are 
        demonstrating the potential for violence.
        <bullet> We are engaged in extensive outreach to Muslim 
        communities to dispel misconceptions that may foster extremism.
    With respect to the latter point, I would like to spend some time 
discussing the Los Angeles Field Office's efforts over the years to 
develop and foster a positive working relationship with our Muslim, 
Arab, Armenian, Sikh, and Coptic communities.
    In September 2003, the Los Angeles Field Office (LAFO) initiated 
the formation of the Muslim, Arab, Armenian, Sikh, and Coptic Ombudsman 
Program per a directive by Director Mueller. It was decided that a 
council should be formed through which information, ideas, and concerns 
could be shared between the FBI and said communities. The inaugural 
meeting of the Committee was hosted by LAFO on May 17, 2004. Since that 
date, the Committee has met on the third Monday of each month to 
address issues and concerns ranging from the FBI's Counter Terrorism 
and Counter Intelligence missions, the Patriot Act, and interviews of 
individuals within Arab, Armenian, Muslim, and Sikh communities, as 
well as guest presentations by other agencies. The Committee has grown 
to 35 members, and is continuing to grow to include, among others, four 
members from college Muslim student organizations. As a result of the 
interactions between the FBI and the Committee members, LAFO has 
participated in a number of town hall meetings and community functions 
at which an FBI presence is requested, as well as media events hosted 
by Muslim community organizations. Members of the Multi-Cultural 
Advisory Committee have also provided information to the FBI which has 
resulted in investigations of potential radical extremists living among 
their communities. In the spirit of partnership and sharing 
information, Committee members have hosted a number of events for FBI 
personnel to broaden their cultural and religious understanding of the 
various aspects of the Arab, Armenian, Muslim, Sikh, and Coptic 
communities in the greater Los Angeles area. LAFO maintains daily 
contact with the Committee members via telephone, e-mail, and in person 
meetings.
    With respect to collaborations that have been forged among law 
enforcement and other public safety sectors, the FBI and its law 
enforcement partners have been working together for a number of years 
to address terrorism related matters. In 1984, in order to coordinate 
counterterrorism threats and responses associated with the Summer 
Olympic Games event which took place in Los Angeles, the FBI initiated 
a working group with the Los Angeles Police Department and Los Angeles 
County Sheriffs Department. This led to the formation of the Los 
Angeles Joint Terrorism Task Force (JTTF) in 1986.
    Today, the Los Angeles JTTF program has expanded to include the 
Long Beach JTTF, the Orange County JTTF, and the Inland Empire JTTF, 
which coordinate their investigations through the Los Angeles JTTF, and 
ultimately with the National JTTF. The combined resources of the 
various formalized and ad-hoc JTTF groups in the greater Los Angeles 
territory includes more than 260 full-time task force investigators, 
consisting of approximately 150 FBI Special Agents, and 110 other 
federal, state, and local task force agents/officers. The following is 
a listing of the various local, state, and federal agencies who 
participate on the JTTF's in LAFO's territory:
        Local Agencies:
                Los Angeles Police Department
                Los Angeles County Sheriffs Department
                Beverly Hills Police Department
                Long Beach Police Department
                Los Angeles International Airport Police Department
                Los Angeles City Fire Department
                Los Angeles County District Attorney's Office, Bureau 
                of Investigations
                Torrance Police Department
                Los Angeles Port Police
                Redondo Beach Police Department
                Orange County Sheriff's Department
                Orange County District Attorney's Office
                Ventura County Sheriff's Department
                Santa Ana Police Department
                Anaheim Police Department
                Cypress Police Department
                Garden Grove Police Department
                Irvine Police Department
                San Bernardino Police Department
                San Bernardino Sheriff's Department
                Riverside Sheriff's Department
                Banning Police Department
                Barstow Police Department
                Beaumont Police Department
                BNSF Railroad Police Department
                Chino Police Department
                Colton Police Department
                Corona Police Department
                Fontana Police Department
                Hemet Police Department
                Indio Police Department
                Montclair Police Department
                Murrieta Police Department
                Ontario Police Department
                Ontario Airport Police Department
                Palm Springs Police Department
                Redlands Police Department
                Riverside Police Department
                UC Riverside Police Department
                Upland Police Department
                Buena Park Police Department
        State Agencies:
                California Highway Patrol
                California Department of Justice (CATIC)
                California Army National Guard
                California Department of Motor Vehicles
        Federal Agencies:
                United States Secret Service
                U.S. Immigration and Customs Enforcement
                Department of State Diplomatic Security Service
                United States Army
                Air Force Office of Special Investigations
                Department of Treasury, Internal Revenue Service
                Bureau of Alcohol, Tobacco, Firearms, and Explosives
                U.S. Postal Inspection Service
                Naval Criminal Investigative Service
                Defense Criminal Investigative Service
                Central Intelligence Agency
                Drug Enforcement Administration
                Federal Air Marshals
                U.S. Coast Guard
                Environmental Protection Agency
                U.S. Customs and Border Protection
                Transportation Security Administration
                Department of Defense
                U.S. Bureau of Prisons
                Amtrak Rail Police
    In addition to the long standing JTTF program, the Los Angeles FBI 
has also developed a number of information sharing programs and 
initiatives to ensure that our partners are fully aware of intelligence 
and threat information developed by the FBI and other agencies.
    As part of the transformation undertaken by the FBI since September 
11, 2001, we have developed and directed the implementation of the 
Field Intelligence Group (FIG) program, which serves as the mechanism 
by which the Field Divisions evaluate threats. The FIG is utilized by 
the FBI to evaluate regional and local perspectives on a variety of 
issues, to include the receipt of and action on integrated 
investigative and intelligence requirements. FIGs further provide the 
intelligence link to the JTTFs, Fusion Centers, FBIHQ and the 
Intelligence Community at large. FIGs, which have been established in 
all 56 Field Offices since October 2003, consist of Intelligence 
Analysts, Special Agents, Language Analysts, and Special Surveillance 
Groups. FIG personnel have been embedded in more than twenty-five 
Fusion Centers and/or Multi-Agency Intelligence Centers (MAICs) around 
the country.
    Among the fundamental post September 11th changes, sharing 
intelligence is now the paramount objective. We have developed an FBI 
intelligence presence within the intelligence and law enforcement 
communities by sharing Intelligence Information Reports (IIRs), 
Intelligence Assessments (IAs), Intelligence Bulletins (IBs), and 
related intelligence information on platforms routinely used by our law 
enforcement and Intelligence Community partners, including JWICS, 
SIPRNet and Law Enforcement Online (LEO), as well as on the FBI 
Intranet. This effort has resulted in more than 7,400 IIRs, 150 IBs, 
and 100 IAs that have been posted on all listed platforms; in addition, 
over 400 Current Intelligence Reports have also been produced, of which 
over 50 have been shared with the intelligence community through NCTC 
Online. We are also using our internal, closed network to provide FBI 
employees with access to raw, current and finished intelligence 
products. Additionally, we utilize unclassified, but law enforcement 
sensitive portals, such as Law Enforcement Online (LEO) and The 
Intelligence and Terrorism Alert Network (TITAN), to disseminate 
products to officers on the street relative to both terrorism and 
criminal matters on which we have developed analysis.
    Regarding the Fusion Centers and/or Multi-Agency Intelligence 
Centers, Los Angeles established a Joint Regional Intelligence Center 
(JRIC) in which federal, state, and local resources were commingled in 
order to produce an integrated multi-agency intelligence processing 
center. The Los Angeles JRIC is a groundbreaking cooperative which 
fully integrates intelligence intake, vetting, analysis/fusion, and 
synthesis from a multitude of law enforcement and public safety 
agencies. The JRIC also disseminates developed intelligence, provides 
analytical case support, analyzes trends, and provides tailored 
analytical products to end users. The JRIC was founded by the FBI, the 
United States Attorney's Office for the Central District of California, 
the California Governor's Office of Homeland Security, the Los Angeles 
Sheriff's Department (LASD), and the Los Angeles Police Department 
(LAPD). Other agencies who participate in the JRIC provide analysts to 
staff the facility, and the JRIC's services are available to all law 
enforcement agencies throughout our seven county region. The 
partnerships formed in the JRIC allow the facility to be a central 
contact point for law enforcement and public safety intelligence, and 
provides for a smoother flow of leads and intelligence to prevent 
duplication, fragmentation, and circular reporting.
    Chairwoman Harman, Ranking Member Reichert, and members of the 
Subcommittee, there has been a lot of discussion and speculation about 
the effectiveness of the FBI and its partners to combat terrorism, and 
the manner in which information is processed and shared to ensure the 
prevention of terrorist attacks on American soil. The FBI has made 
significant improvements in the past six years to ensure we are pooling 
our federal, state, and local resources accordingly, and working as one 
team to address potential threats to our homeland. In my 25 years 
working as a law enforcement officer, I have never experienced the 
level of collegial partnerships between law enforcement and public 
safety agencies as I have here in Los Angeles. We fully appreciate and 
understand the tasking that the American people expect of us, and we 
are standing shoulder to shoulder with our partners to accomplish this 
mission.
    Thank you for the opportunity to come before you today and share 
the work the FBI and our federal, state, and local partners are doing 
to address terror threats to our country. I am happy to answer any 
questions.

    Ms. Harman. Thank you, Ms. Fedarcyk.
    Sergeant Mead.

 STATEMENT OF SERGEANT LARRY MEAD, DEPUTY SHERIFF, LOS ANGELES 
                  COUNTY SHERIFF'S DEPARTMENT

    Sgt. Mead. Madam Chairman, ranking member and members of 
the Committee, thank you for the opportunity to speak to you on 
the issue of ``Prison Radicalization.'' The subject of ``Prison 
Radicalization'' reaches far beyond the walls of the California 
Department of Corrections and Rehabilitation, county jails and 
juvenile facilities throughout the State of California. It has 
local, national and international implications. The effort to 
impact homegrown terrorism in prisons, jails and society is a 
monumental task which requires the cooperation of local, state 
and Federal agencies and the community at large.
    My testimony will focus on the local gang culture and it's 
effects on the Los Angeles County Jail regarding radicalization 
and our Department's cooperation with Federal, state and local 
agencies to share information thereby preventing, disrupting, 
or mitigating a terrorist attack. Within our custody operations 
division, our gang intelligence unit, Operation Safe Jails 
(OSJ), which originated in 1985, analyzes gang trends, conduct 
gang interviews, classifies and maintains gang files in an 
ongoing effort to prevent attacks on both staff and our inmate 
population.
    Over the years OSJ has evolved into an extremely critical 
asset for unit commanders and executives such as my Chief Sammy 
Jones of Custody Operations Division. In addition, the unit 
assists local, state and Federal agencies with ongoing 
investigations.
    In an effort to improve communications, a sergeant attends 
briefings and meetings with the Los Angeles area Joint 
Terrorism Task Force (JTTF), Terrorism Early Warning group 
(TEW), the Joint Regional Information Center (JRIC), the 
California Department of Corrections Gang Task Force and other 
regional gang meetings. These relationships have resulted in 
high quality products that are provided to decision makers 
covering a variety of terror-related subjects.
    With an average daily population of 19,000 plus inmates, 
the Los Angeles County jail system is seen as a possible 
location where prison radicalization can sew it roots. Since 
late 1995, several OSJ gang intelligence deputies were 
designated Terrorism Liaison Officers (TLO's) who report on 
radical activities to the Department's Terrorism Early Warning 
group. This has expanded to other local state and Federal 
agencies. Their activities were heightened by the July, 2005, 
discovery of the radical prison group, Jam'iyyat Ul-Islam Is-
Sheeh (JIS), that Chief Bratton and Chief Neu have talked about 
in length.
    Since then, analysis shows that radicalization and 
recruitment in U.S. prisons is still an ongoing concern. Prison 
radicalization primarily occurs through anti-U.S. sermons 
provided by contract, volunteer's, staff imams, radicalized 
inmates, etc. Ideologies that radicalized inmates appear most 
often to embrace, include or are influenced by the Salafi form 
of Sunni Islam (including revisionist versions commonly known 
as ``prison Islam'') and an extremist view of Shia Islam 
similar to that of the government of Iran and Lebanese 
Hezbollah.
    Some of the initiatives that we have taken in Los Angeles 
County is we have two deputies from our Terrorism and Early 
Warning Group who are working full time on the radicalization 
issue within the Los Angeles County Jail System. Our department 
participates on the Jail Radicalization Working group with FBI, 
LAPD, CDC, and other agencies.
    There is an ongoing integration effort with Jail 
Investigations Unit, Operation Safe Jails, Classification Unit 
and the Joint Regional Intelligence Center. Ongoing interaction 
with religious leaders (more than 100) who conduct services at 
all Los Angeles County jail facilities. And we have a continued 
outreach for better communication between local, state and 
Federal custodial facilities regarding the transfer and travel 
of ``problem inmates.''
    Finally, we participated with George Washington University 
on the study of issues related to radicalization. In the LA 
County Jail our religious leaders go through a verification 
process. We do an application. There is a copy of ordination. 
We do background checks and we monitor their services as well.
    Sheriff Baca has taken the lead in this effort to impact 
radicalization and homegrown terrorism in mainstream society is 
an inherently difficult task, especially without the 
cooperation and partnership of the local Muslim community. 
Muslim-American organizations have been working on various ways 
of supporting and participating in the security needs of 
America, as well as people of all nations. Sheriff Baca has 
taken the lead to formalize this endeavor by forming a national 
organization known as the Muslim-American Homeland Security 
Congress (MAHSC). This is a non-political, non-governmental, 
nonreligious, and non-profit organization.
    Through partnerships, cooperation and assistance with 
national and local elected officials, law enforcement, civic 
and inter-faith groups, the Muslim-American Homeland Security 
Congress will educate, reach out to the disenfranchised, and 
communicate to all Americans.
    Operation Safe Jails gang intelligence deputies are 
continuously monitoring our inmate population. We have 
identified several inmates who had radical correspondence, 
drawings of airplanes flying into the World Trade Center, e-
mail addresses to radical websites, and we are working with 
local, state, and Federal agencies.
    I want to thank you for the time this morning.
    [The statement of Sgt. Mead follows:]

                  Prepared Statement of Larry A. Mead

    Madam Chairman, ranking member and members of the committee, thank 
you for the opportunity to speak to you on the issue of ``Prison 
Radicalization.''
    The subject of ``Prison Radicalization'' reaches far beyond the 
walls of the California Department of Corrections and Rehabilitation 
(CDCR), county jails and juvenile facilities throughout the State of 
California. It has local, national and international implications. The 
effort to impact ``homegrown'' terrorism in prisons, jails and society 
is a monumental task which requires the cooperation of local, state and 
federal agencies and the community at large. My testimony will focus on 
the local gang culture and it(s effects on the Los Angeles County Jail 
regarding radicalization and our Department(s cooperation with federal, 
state and local agencies to share information thereby preventing, 
disrupting or mitigating a terrorist attack.
    Within our custody operations division, our gang intelligence unit, 
Operation Safe Jails (OSJ), which originated in 1985, analyzes gang 
trends, conduct gang interviews, classifies and maintains gang files in 
an ongoing effort to prevent attacks on both staff and our inmate 
population. Over the years OSJ has evolved into an extremely critical 
asset for unit commanders and executives throughout the Department. 
OSJ's primary responsibility is gang intelligence. In addition, the 
unit assists local, state and federal agencies with ongoing 
investigations. In an effort to improve communications, a sergeant 
attends briefings and meetings with the Los Angeles area Joint 
Terrorism Task Force (JTTF), Terrorism Early Warning group (TEW), the 
Joint Regional Information Center (JRIC), the California Department of 
Corrections Gang Task Force and other regional gang meetings. These 
relationships have resulted in high quality products that are provided 
to decision makers covering a variety of terror-related subjects.
    With an average daily population of 19,000 plus inmates, the Los 
Angeles County jail system is seen as a possible location where prison 
radicalization can sew it roots. Since late 1995, several OSJ gang 
intelligence deputies were designated Terrorism Liaison Officers 
(TLO's) who report on radical activities to the Department's Terrorism 
Early Warning group. This has expanded to other local state and federal 
agencies. Their activities were heightened by the July, 2005, discovery 
of the radical prison group, Jam'iyyat Ul-Islam Is-Sheeh (JIS) or the 
``Authentic Assembly of Islam,'' at Folsom State Prison, near 
Sacramento, California. Since then, analysis shows that radicalization 
and recruitment in U.S. prisons is still an ongoing concern. Prison 
radicalization primarily occurs through anti-U.S. sermons provided by 
contract, volunteer's, staff imams, radicalized inmates who gain 
religious influence, or extremist media. Ideologies that radicalized 
inmates appear most often to embrace, include or are influenced by the 
Salafi form of Sunni Islam (including revisionist versions commonly 
known as ``prison Islam'') and an extremist view of Shia Islam similar 
to that of the government of Iran and Lebanese Hizballah.

    JAIL RADICALIZATION INITIATIVES IN LOS ANGELES COUNTY
        <bullet> Two deputies working full time on the radicalization 
        issue within the Los Angeles County Jail System
        <bullet> LASD participates on the Jail Radicalization Working 
        group with FBI, LAPD, CDC
        <bullet> Ongoing integration effort with Jail Investigations 
        Unit, Operation Safe Jails, Classification Unit and the Joint 
        Regional Intelligence Center
        <bullet> Ongoing interaction with religious leaders (more than 
        100) who conduct services at all Los Angeles County jail 
        facilities
        <bullet> Continued outreach for better communication between 
        local, state and federal custodial facilities regarding the 
        transfer and travel of ``problem inmates''
        <bullet> Participation with George Washington University on the 
        study of issues related to radicalization
Religious Leader Verification Process
Application
Copy of Ordination
Support Letter from sponsoring church
Background by Inmate Services Unit
Orientation program
Random monitoring by Inmate Services Unit
Random monitoring by Chapel Deputies

Sheriff Baca's Statement:
    The effort to impact radicalization and ``homegrown'' terrorism in 
mainstream society is an inherently difficult task, especially without 
the cooperation and partnership of the local Muslim community. Muslim-
American organizations have been working on various ways of supporting 
and participating in the security needs of America, as well as people 
of all nations. Sheriff Leroy D. Baca, of the Los Angeles County 
Sheriff(s Department, has taken the lead to formalize this endeavor by 
forming a national organization known as the Muslim-American Homeland 
Security Congress (MAHSC). This is a non-political, non-governmental, 
non-religious, and non-profit organization. Through partnerships, 
cooperation and assistance with national and local elected officials, 
law enforcement, civic and inter-faith groups, the Muslim-American 
Homeland Security Congress will educate, reach out to the 
disenfranchised, and communicate to all Americans the goals and purpose 
of the organization.

MISSION
    The Muslim-American Homeland Security Congress shall foster 
education & understanding, organization & empowerment, along with 
Communication & Cooperation with the American public to protect and 
defend the United States of America and all people through the 
prevention of terrorism and any acts of prejudice.
    Operation Safe Jails gang intelligence deputies are continuously 
monitoring our inmate population for radical activity. The Imams who 
conduct religious service go through a thorough background check and 
their teachings are not associated with the radicalized form of Islam. 
Inmates who attempt to spread radical Islam are monitored and reported 
to the appropriate agencies. We have identified several inmates who had 
radical correspondence, drawings of airplanes flying into the World 
Trade Center, e-mail addresses to radical websites, and in one 
disturbing instance, we interviewed a foreign national who provided 
information regarding a safe house radical mosque where large sums of 
U.S. Currency is counted and forwarded to a Middle Eastern country for 
dissemination. There is no doubt that ``Prison Radicalization,'' is an 
ongoing problem. We all need to continue our focus on this growing 
phenomena and add additional resources to combat this growing trend or 
run the risk of another similar situation such as the JIS incident 
which occurred at Folsom State Prison in July, 2005.

    Ms. Harman. Thank you, Sergeant.
    I thank all the witnesses for putting up with my tapping 
but the goal was to give us enough time to ask questions which 
will bring out even more good information. Now I will remind 
each member that the same rules apply to us. Each of us has 
five minutes to question the panel and I will now recognize 
myself and adhere strictly to my time.
    Chief Bratton, you are the one who called training a true 
force multiplier. You pointed out, I think it was you, that 
there are 700,000 local law enforcement agents and, as far as I 
remember, about 40,000 FBI agents, something like that. Think 
about it. If they are well trained, we obviously have many more 
resources to prevent harm to our citizens. This Torrance case, 
which still has to go to trial, but the allegations in this 
Torrance case are surely evidence that alert policing can 
prevent harm to our citizens.
    My first question of both chiefs, and others chime in if 
you would like to, is what exactly is this training? I think 
the public would be interested in this because the public, too, 
can be part of the first preventer force. After all, we all 
live in these neighborhoods and we can observe strange 
activities in our neighborhood so could you give us some more 
information about what the training includes.
    Chief Bratton, please add a plug for your academy which 
would be based here but would train nationally as I understand 
it.
    Mr. Bratton. Well, the plug actually supports the need. 
There is no generic training overall in the sense that each 
agency is effectively attempting to train their own TLOs, if 
you will. I now have one in each of my area police stations. 
This is a new area for local policing. It took us many hundreds 
of years to develop expertise and traditional crime fighting.
    We need to expedite trying to get basic information into 
the hands of patrol officers, investigating detectives, 
supervisors, managers, and chiefs so there's different needs at 
each of those levels. My suggestion and my belief is that we 
need to have a degree of generic training for each of those 
levels that does not currently exist. Oftentimes it's as a 
result of an individual chief or investigator or supervisor's 
interest in the topic area, or in the case of Los Angeles, New 
York, Washington, Chicago, the level of perceived threat in 
terms of generating focus on this issue.
    The idea of a national police terrorism academy is to 
develop a curriculum on what chiefs need, what managers need, 
what supervisors need, and what does a frontline cop need so 
those 700,000 personnel are effectively working cohesively to 
support the 40,000 Federal agents, FBI, DEA, all of those who 
engage in a similar effort.
    We are really only at the beginning of this process. We are 
not really down the road at all.
    Well, speaking on my own behalf, and I think the 
Subcommittee would agree, we are very interested in your idea 
and we will be looking at it closely.
    Chief Neu, I mentioned in introducing you that you have 
been commended for the training activity that you have engaged 
in for your police department. Can you give us some detail just 
as to that one police department and how do you think it helped 
the undercover cops, who figured out at least the beginning of 
this plot, do their work?
    Mr. Neu. The key to our training as been consistency. It's 
not just a one day of training or a two-day course. The way 
that we approach this is we have actually created an 
intelligence section within out department which has really 
given us an upper hand, so to speak, in the training of our 
officers.
    We have two detectives who train not only the entire 
department but also open up avenues in the community with our 
critical facilities, the Del Amo Fashion Center, Exxon/Mobile 
refinery to name two. All of their security personnel have been 
through our training because, as Chief Bratton talked about, 
the force multiplier. It's not just within the walls of the 
Torrance Police Department. It expands into the community.
    To expand on that a little bit more, a perfect example 
would be an incident that we dealt with yesterday which was a 
threat that came through the internet to the mall. The security 
director instead of calling for a black and white field officer 
called our terrorism liaison officer directly who then called 
the Long Beach FBI office and spoke to a JTTF member who then 
passed the information on to the LA JRIC.
    That's the continuity. That's the unity that I talked 
about. That is common place now but we can't sit still. We have 
to build upon that and that is exactly what the efforts of 
Chief Bratton, Sheriff Baca continue to do in this region. Keep 
in mind we have 43 local law enforcement agencies and it's 
going to take time for all of us to get there. But I must 
stress that local law enforcement has a responsibility here. 
Police chiefs have a responsibility here and that's where we're 
moving.
    Ms. Harman. Thank you. My time has expired and I now 
recognize the Ranking Member of the Subcommittee, the gentleman 
from Washington, for five minutes of questions.
    Mr. Reichert. Thank you, Madam Chair. Would anyone want to 
take a shot at defining what radicalization is?
    Ms. Fedarcyk. I think we would define it as the movement 
from beyond a moderate posture, if you will, into a more 
extremist viewpoint wherein perfectly regular, if you will, 
beliefs are taken to the extreme to insight violence, if you 
will in furtherance of a stated religious belief where we see 
it taken from, if you will, a middle-of-the-road approach or 
religious belief. It has basically taken the more radical form 
and the more extremist form with calls to actually insight 
violence in a call of religion, if you will.
    Mr. Reichert. Chief.
    Mr. Bratton. I think in the simplest form is from dormancy 
to action. Somebody who is looking at it thinking about it, 
fantasizing about it now moving overtly to do something about 
it. I guess that is about as simple an explanation that I can 
provide.
    Mr. Reichert. There is a lot of discussion about Islamic 
radicalism. What non-Muslim radicalism is taking place that you 
can describe probably in the presence that you would see it.
    Sergeant Mead. I just got off the phone yesterday with one 
of my counterparts at the California Department of Corrections. 
In addition to Islamic radicalism they have, as you know, 
several white supremacist groups that are prison gang members. 
Some of the recruitment that is ongoing occurs in prisons 
throughout the United States, not just California. What happens 
is traditionally you'll have the lone wolf individual who 
matches the description given here who goes out and pushes it 
beyond the limit some place in the midwest and elsewhere.
    They are tracking an individual in addition to all of the 
other radical issues that are happening in CDC. It is not just 
the Muslim problem. It is a problem where anyone, whatever 
their beliefs are, whether it is industrial or radicalism, 
whatever, they are pushing the limits and they want to take 
action to destroy infrastructure and our way of life.
    Mr. Reichert. As you see this problem start to develop, and 
it sounds like it is increasing across the country, and we are 
looking at all of these entities that we just rattle off, the 
local PD intelligence units, the JRICs, the JTTFs and the 
Fusion Centers. Now we have the prison radicalization group and 
Operation Safe Jails and we can go on with lots of other groups 
coming together.
    You have talked a little bit about how they work together 
and they share information, but how does the problem of over-
classification play into this? I know that is a complicated 
question but it is something that I think all of you are 
working on in order to share this information that is 
developing. Can you describe that problem just a little bit? I 
know we don't have a whole lot of time for that.
    Ms. Fedarcyk. I know that the issue of over-classification 
has been surfaced and is currently being reviewed. I think we 
have been very successful from what I have seen so far in my 
short time here in LA in taking information and being able to 
translate that from the classified version, if you will, into a 
more actionable intelligence for our partners.
    We have been very aggressive in obtaining clearances for 
our partners so that we are in a position to share classified 
information at all levels. I do think that we are through all 
of the efforts you have heard about with the JRIC, the JTTF, 
and many of the other working associations have the ability to 
pass that information down to where it needs. The issue of 
over-classification I know is a topic of concern.
    Mr. Reichert. Yes. Thank you, Madam Chair. My time has 
expired.
    Ms. Harman. Thank you, Mr. Reichert.
    I now recognize Mr. Dicks of Washington State for five 
minutes of questions.
    Mr. Dicks. Thank you. Chief, tell us a little bit more in 
detail about the terrorism liaison officers. What kind of 
people do you pick? How are they trained? Give us a little more 
specificity if you could.
    Mr. Neu. Within our agency we like to have experienced 
investigators in those positions. In other words, folks within 
our agency that can actually train immediately because it's not 
just the singular position of a TLO that we are looking at to 
work directly with the FBI. It is also to get out in the 
community and to educate our officers so we are looking for 
experience.
    Mr. Dicks. The chief has been talking about a training 
center which I think is a great idea. Did you just do this on 
your own? Did you just come up with your own curriculum to 
train these people or did you get any help from the Department 
of Homeland Security or the FBI?
    Mr. Neu. It is actually joint. It is with the Department of 
Homeland Security and our working relationship with the FBI as 
I mentioned earlier.
    Mr. Dicks. Does it go into the training of these people?
    Mr. Neu. Absolutely. What is important to note through the 
FBI is there are a number of subject matter experts that they 
have at our disposal in local law enforcement. It is important 
for us to utilize that. Instead of, again, waiting for them to 
come to us we have to go to them and that is what we do not 
only through our TLOs but also through our intelligence section 
which is a sergeant and a detective, and also our member who 
works with the JTTF.
    Mr. Dicks. It sounds like a good program. Chief, you are 
saying more training and different kinds of training depending 
on what level you are in the Department? Is that basically what 
I heard?
    Mr. Neu. By way of example the question about 
radicalization, what is it? The need to educate that we are all 
speaking with the same understanding of a term or a definition, 
Hamas, Hezbollah. What is it? What's the history? What's the 
importance of understanding the differences? Something as basic 
as that, that we are speaking from the same language and 
definition base. Again, in this area TLO is a new concept and 
some agencies are doing it on their own and others are doing it 
in conjunction with FBI, the JTTFs, Homeland Security.
    The idea of trying to develop some basic training 
guidelines. In California, for example, all of our police 
officers have to be post-certified. That's the California State 
system to ensure that all of our officers have basic 
understanding and skills to put a badge on and go into the 
streets. We need similar types of levels of training 
familiarization at the various ranks in local policing to 
better aid the Federal Government agencies, as well as to 
inform the 2.5 million private security officers that are out 
there.
    The chief referenced that he gets a call from the private 
security director at a local mall because that person has been 
educated and informed to work with the Torrance Police 
Department. What he just described was the seamlessness of the 
effort that we are trying to create throughout the country.
    Mr. Dicks. Thank you.
    Sergeant, tell us a little bit about your prison program. 
Obviously these people, the Torrance group, the four people, 
were in prison and they were recruited. What are we trying to 
do to better understand this and to stop this from happening in 
the future? You mentioned the gangs as part of this.
    Sergeant Mead. I think traditionally over the many, many 
years in the history of law enforcement when a police officer 
makes an arrest and the person goes to a county jail or prison 
they basically forget about them and that is something they 
hadn't looked at until the JIS incident. Since then the 
California Department of Corrections, my sources, they are 
actively involved in keeping an eye on what is going on over 
there, gathering intelligence.
    They are working with JTTFs throughout the state. In many 
cases, my case for example, the FBI is the one who invited me 
to come down to the prison working group. Since then I have 
been sharing that information with everyone. Inside a prison 
you have young men who are sitting around for long periods of 
time, when they go especially to the penal, and they go through 
what I call graduate school. Graduate school has taken a new 
twist in the form of radicalization that can affect the 
community on the outside and that is what we see.
    Mr. Dicks. So this Torrance thing wasn't a one-time 
incident? Can you tell us are there other things being 
investigated?
    Sergeant Mead. Sir, all I can tell you is I have a lot of 
information that cannot be shared in a public setting but there 
is a great deal of investigations ongoing. My source yesterday 
said there is also a paper where an individual is being looked 
at for radical writings with locations, etc., and I can't say 
anymore.
    Mr. Dicks. Thank you. Maybe, Madam Chairman, we will have 
to have a classified meeting at some point. I think that might 
not be a bad idea.
    Ms. Harman. I think that is a great suggestion. Obviously 
we don't want to compromise an ongoing investigation.
    Mr. Dicks. We can also talk to Federal officials as well.
    Ms. Harman. Yes, we can. Yes, we can, the FBI being one of 
that group. I appreciate the suggestion and I do think we 
should do that.
    The gentleman's time has expired and now Mr. Lungren of 
California is recognized for five minutes.
    Mr. Lungren. Thank you very much, Madam Chair.
    Chief Bratton and Chief Neu, as a former Commissioner of 
Post I am intrigued by your statements that we need to have 
training in the area of terrorism, liaison, or terrorism. Is 
there a training component approved by Post right now for 
terrorism training?
    Mr. Neu. I checked into that in dealing with actually the 
academies. I know in the academy there is a small block of 
training as Chief Bratton referred to.
    Mr. Lungren. Is that Post approved?
    Mr. Neu. I believe so.
    Mr. Lungren. Do you think we need more? What I'm trying to 
find out is you are talking about we need more training. Has 
Post done enough here in California? Is that block enough? Do 
they need more elements? Do you believe that it is of the 
quality that is necessary for the officers you are talking 
about?
    Mr. Neu. My opinion is that the training needs to mirror 
what we are dealing with right now. The JIS case is a perfect 
example of, again, the knowledge, the awareness, the education 
that is needed for the line level officers that are dealing 
with this in the streets. My answer to your question would be 
that it needs to be formalized, needs to be enhanced, and it 
needs to be consistent.
    Mr. Lungren. For all four of you, if it were not a question 
of additional money, let us say, for whatever reason, we can't 
get additional money, what single most important thing would 
you suggest that we need to do from a policy standpoint to 
improve the situation dealing with radicalization, dealing with 
terrorism from a law enforcement standpoint from each of your 
vantage points?
    Mr. Bratton. Let me speak briefly to that. The Los Angeles 
region, I think, is a clear example of what can be done. The 
ability to share information is not something that has a cost 
to it, if you will, in the sense of a financial cost. It starts 
with the willingness to be inclusive to understand that we all 
need to work together.
    I think we have tried to emphasize over the last two days 
with your Committee that we believe that we have crossed over 
that barrier that still exist unfortunately in many areas of 
the country. In this area we are attempting to develop seamless 
lines of communication locally with our colleagues at Homeland 
Security. Charlie Allen has been out here quite frequently 
trying to move some of those issues forward. That is really a 
no cost, just getting people to make nice with each other.
    Mr. Neu. To echo those statements also, I think it is 
extremely important to understand, getting back to local law 
enforcement, that at the TLO level the TLO officer needs to be 
active. In other words, we can't sit back and wait for 
something to happen. When I mean active, I am talking about out 
in the community building and forging that relationship with 
DHS, with the FBI similar to what we have done.
    We have done this for years and it has paid dividends for 
us not just in the JIS case but other cases that we have been 
involved with. I am answering that question that way because 
there is no cost to that. In other words, every agency has a 
TLO identified. It is just a matter of the involvement, the 
activity of that TLO at this point in time and that TLO needs 
to be active.
    Mr. Lungren. Let me ask this on the issue of 
radicalization. It is more than just moving from thought to 
action. It is moving from thought to a particular action 
inspired by, in this case, the case we are basically talking 
about, a distortion of religious belief. We have had gangs. We 
have had different organizations who wished to do crime, even 
crime on an extended level.
    We are dealing here with a phenomenon of radicalization to 
the extent of attempting to destroy the very essence of the 
society we live in. That is different than many of the white 
skinheads we had. Klu Klux Klan was a terrorist group but they 
thought they were promoting their crazy idea of American ideals 
which was a radicalization of a different type.
    Here we are dealing with a question of an etiologically 
based radicalization which goes beyond just committing crimes. 
It goes to committing crimes for the purpose of destroying the 
structures of our society. That is different in form and 
substance than what we have done before. That being the case, 
how do we try and deter that from your stand?
    Well--
    Ms. Harman. Let's let the witnesses offer brief answers to 
that question. It's a very hard and good question.
    Ms. Fedarcyk. If I may, I think the outreach efforts that 
we have engaged in go to a large part of being able to share, 
exchange and hopefully influence those beliefs as they may 
exist. I think that is an important component anytime you are 
trying to persuade another that perhaps an extremist viewpoint 
they wish to take is perhaps not the one that they should be 
following.
    Ms. Harman. The gentleman's time as expired. Before turning 
to Mr. Perlmutter for questions, I would just note that when 
Mr. Reichert pushed the wrong button and he said he just called 
the mayor, the mayor arrived. Frank Scott, the mayor of 
Torrance, is waving from the audience. I do want to thank him 
and his city for letting us use this marvelous facility.
    Let me just note further that early in my Congressional 
career I actually had my office in the city hall complex in 
Torrance except the then-mayor Katy Geissert didn't let me 
occupy this lovely building. She put me in a trailer with no 
indoor plumbing and then the trailer was demolished. I guess 
that was the notice to me that I had to move on.
    Mr. Dicks. Madam Chair, you would think in Washington, D.C. 
we could get a button that said, ``Call the President?''
    Ms. Harman. I think Mr. Perlmutter will answer that as part 
of his five minutes. I now yield five minutes to the gentleman 
from Colorado.
    Mr. Perlmutter. Thank you, Madam Chair. I guess the thing 
that is bothering me is within our prison system, both state 
and Federal system, groups break down into sort of protective 
gangs. Some guys will join the Aryan Nation bunch as a way to 
protect themselves. Others will join some other kind of 
organization just as a way to protect themselves from the 
violence that is ongoing within our prisons.
    I am just curious if any of you see something different 
now. I mean, this experience that you've had in Torrance, and I 
don't want to screw up your case and talk about it in any 
detail, but there seems to have been something different that 
occurred here because in Colorado we have the gangs develop 
within the system and then they seem to disperse generally 
later. Here in this instance something else happened and I'm 
just concerned and curious if you see this becoming a more 
regular kind of phenomenon.
    Sergeant Mead, I would start with you on that question.
    Sargeant Mead. Within the prison system you have prison 
gangs and basically when you go to prison you have to align 
yourself with someone or else you will probably end up becoming 
the victim of some sort of assault or dying.
    As far as your question goes, I think the catalyst for all 
of this was the September 11th attacks. It is sort of like a 
spark on a dormant issue. These people have been radicalized 
for a long period of time. However, since the September 11th 
attacks and our actions in response to it I think there is a 
spark that created something and it is ongoing.
    We have information that certain groups such as the Black 
Gorilla Family, which is a prison group, have aligned 
themselves with People's Nation and they are trying to get 
together and create problems for us out here on the street. The 
bottom line is we are in different times. These gangs members 
no longer just want to go out and commit crimes just for 
profit. They are embracing Islam in many cases and the type of 
Islam that they are embracing is radicalized. Therefore, we 
will see problems in the future.
    Mr. Perlmutter. This goes with Representative Lungren's 
questions and Reichert's. Do you see that same thing coalescing 
around white supremacist kind of gangs that develop in prison 
and do you see them staying together outside of prison to do 
political harm or kind of terrorist or are you seeing it more 
just with the JIS type of gang?
    Sergeant Mead. It is on both sides, more on one side than 
the other side. What you would find in the white supremacist 
group apart from how they go about doing their illegal 
activities, remember these people are the Aryan Nation and, 
``It should be a white world and America should be all white 
and we should be in control of everything.''
    You have these lone wolves every once in a while that break 
away from the group and they become problematic. They make two 
or three or four with them. It doesn't take much for them to 
get together and create a weapon of some kind to get a message 
across whatever their ideologies are so, yes, it does occur.
    Mr. Perlmutter. In Colorado we have what is called Super 
Max which is the most maximum security prison we have at the 
Federal level. We had the Unibomber and the shoe bomber and the 
cosa nostra and some very bad guys in that prison. We 
determined that there was a lot of information, particularly 
the man who was involved with the World Trade Center bombing in 
1993 was able to get a lot of communications out to his friends 
and there actually was some additional activity going on that 
hopefully we put a stop to.
    Is there any action being taken on the Federal side? I know 
this is probably more for the Bureau of Prisons than for this 
panel but to try to put a lid on that kind of thing so that 
there isn't some guidance given by some of these folks that we 
captured or imprisoned that they are leading radical elements 
outside.
    Ms. Fedarcyk. I think that is part of the national 
initiative that has been underway since 2003. Obviously the 
working group that has been developed to try and address some 
of those concerns about whether the groups that form inside the 
prison walls continue after either the release or through 
communications as you have referenced. I think that is part of 
our ongoing effort to fully identify exactly whether these 
groups are prone to stay together once they exit the prison 
walls or if it is strictly a function of needing that 
association inside the prison walls.
    Ms. Harman. Thank you. The time of the gentleman has 
expired. While we could continue this for a long time I want to 
thank this panel for very helpful testimony and for hosting our 
visit to the Joint Regional Intelligence Center, the JRIC, 
yesterday. Of course, I am totally unbiased but this is the 
biggest and best fusion center in the country and hopefully 
will be a model for best practices around California including 
in the Sacramento area and elsewhere.
    The circumstances are not identical but both the way this 
is put together, the training exercises, and the collaboration 
is just I think an excellent start. I know that our friend 
Charlie Allen is watching these developments closely, has his 
own person attached to this JRIC and this fusion center and 
some others. This Subcommittee will follow the progress here 
closely and try to support the effort to build out these fusion 
centers.
    This panel is excused. Thank you again.
    The second panel should be making its way up to the table. 
Thank you. I welcome the second panel of witnesses. Our first 
witness, Ms. Sireen Sawaf, is the Southern California 
Government Relations Director for the Muslim Public Affairs 
Council and someone I have met on several occasions and find 
enormously impressive.
    As a leading voice of the American Muslim Community, Ms. 
Sawaf has strategized with coalition and lobbied for 
legislation that affects Muslims in the United States. She has 
spoken extensively on the misconceptions of Islam and Muslims, 
bias in the media and hate crimes prevention. Ms. Sawaf has 
also coordinated activities with the Department of Homeland 
Security and local law enforcement and is an active member of 
the FBI initiated Multi-Cultural Advisory Committee, MCAC, 
which was described by our prior FBI witness.
    Our second witness, Brian Jenkins, is a Senior Advisor to 
the President of the RAND Corporation and is one of the world's 
leading authorities on terrorism. Mr. Jenkins founded the RAND 
Corporation's Terrorism Research Program in 1972--get this, 
1972--and has written frequently on terrorism and as an advisor 
to the Federal Government and the private sector on the 
subject.
    In 1996 Mr. Jenkins was appointed by President Clinton to 
the White House Commission on Aviation Safety and Security. He 
also served as an adviser to the National Commission on 
Terrorism, a Commission on which I served which is when I met 
him which predicted a major attack on U.S. soil prior to the 9/
11 tragic events of 2001. And he is a member of the U.S. 
Comptroller General's Advisory Board.
    He is a former army captain who served with special forces 
in Vietnam and also a former deputy chairman of Crowell 
Associates. He has authored many books, most recently 
``Unconquerable Nation--Knowing our Enemy, Strengthening 
Ourselves.''
    Our third witness, David Gersten, is the Director of the 
Department of Homeland Security Civil Rights and Civil 
Liberties Programs. Mr. Gersten manages several efforts 
underway at the Department including engagement in outreach to 
the American Arab and Muslim Communities, Civil Rights and 
Civil Liberties Training for DHS personnel and partners, 
appraisal of immigration and assimilation policy, Department 
fulfillment of international civil rights and human rights 
treaties, and review of how the Department's use of technology 
and its approach to information sharing impacts civil 
liberties.
    Mr. Gersten also leads the Department's Los Angeles 
community roundtable for engagement with American Arab Muslim, 
Sikh, and South Asian communities.
    Without objection the witnesses' full statements will be 
inserted in the record. The little timer is here. I think you 
can see it. I would urge you to summarize in five minutes or 
you will hear my clicking sound. Then we will be interested in 
asking you questions.
    Let's begin with you, Ms. Sawaf, for five minutes.

   STATEMENT OF SIREEN SAWAF, DIRECTOR, SOUTHERN CALIFORNIA 
      GOVERNMENT RELATIONS, MUSLIM PUBLIC AFFAIRS COUNCIL.

    Ms. Sawaf. Thank you. First and foremost, I would like to 
talk about radicalization. It must be seen as a socio-political 
set of behaviors and is not simply a law enforcement problem 
per se. If not understood, mishandled, or even exacerbated, the 
emotions and political persuasions of the people we are trying 
to help, in this case Muslim American youth, will be further 
alienated and marginalized from the mainstream, and hence a 
sense of ghettoization will further alienate and marginalize 
the community.
    We cannot afford to continue with language that imposes 
suspicion on Muslim American youth, whereby they are guilty 
before proven innocent, and then spend millions of dollars on 
studies and programs to engage them. The key to countering 
extremism and radicalization, therefore, is understanding and 
partnering with the mainstream moderate authentic constituent-
based Muslim American community, as we are one of the most 
under-utilized but irreplaceable assets in the war on terror.
    When extremists use Islam to justify actions, the only 
group that can counter bad theology with good theology are the 
authentic experienced leadership in the Muslim American 
leadership. We are best equipped to win the hearts of minds of 
Muslims worldwide and we are best equipped to detect suspicious 
behavior when we partner with law enforcement as opposed to 
cultural or what is the norm.
    It takes leadership and insight to recognize the critical 
role American Muslims play in protecting this country; hence I 
commend this Subcommittee for including our perspective today 
in seeking solutions. As we collectively strive to analyze the 
reality and possibility of ``homegrown terrorism'' we must 
understand the roots of extremism. MPAC has just developed a 
youth paper entitled ``Countering Extremism and Supporting 
Muslim American Youth.'' The paper does two things.
    1) Frame issues related to the phenomenon of radicalization 
of Muslim youth while considering the realities on the ground. 
And
    2) providing recommendations to specifically Muslim 
American institutions, government and the media, and 
universities that engage in a healthy partnership of respect 
and understanding.
    While on the minds of many, radicalization is void of 
thoughtful analyses that explain core dynamics within Western 
societies and how they affect youth. We must look into key 
factors and particularly the key factors of identity, social 
and political alienation, the definition of moderation versus 
extremism, and Islamophobia. Only then can we begin to identify 
the problem and learn to prevent it from being further 
exacerbated. MPAC is ready to provide a detailed briefing to 
this honorable Subcommittee and its staff and I would be happy 
to coordinate that with you.
    Now, to talk about partnership, I think one of the key 
things that the Muslim community has been doing post-9/11 and 
pre-9/11, as a matter of fact, is partnering with local and 
Federal law enforcement. There is a long history of partnership 
and since the 1990's MPAC enjoyed a very strong and fruitful 
relationship with the FBI. I have to say that the FBI must be 
commended for being the first agency to identify the importance 
of partnering with Muslim Americans.
    Specifically, I would like to highlight key partnership 
models two of which were talked about earlier today. One of the 
them is the Muslim American Homeland Security Congress that was 
initiated by Sheriff Leroy Baca of LA County and
    Senior Advisor of the Muslim Public Affairs Council Dr. 
Maher
    Hathout in response to the 7/7 bombings in London. This is 
a community initiated, community constructed model that 
includes universities, academics, businesses, social and 
political institutions, mosques, and other Muslim entities to 
participate in Homeland Security efforts.
    The second is the Department of Homeland Security's recent 
efforts in building bridges and initiating consistent dialogues 
in the local community. That followed, of course, previous 
dialogues held in Washington in an interagency meeting.
    The third is the LAPD's recent outreach to us. We recently 
hosted Chief Bratton and the command staff at the Islamic 
Center in Southern California in January.
    The final thing I would like to share with you is the 
Multi-Cultural Advisory Committee with the FBI. There are 
certainly challenges in these partnerships, some of which being 
the distrust between community members and law enforcement due 
to past experiences or cultural baggage. There are 
misunderstandings, misperceptions and often times the 
perception of politicization of cases.
    There is further a lack of systematic and organized 
approaches to these partnerships where you have each agency 
independently operating and constructing some form of 
partnership lacking the backing of Washington support. You 
further have often times bureaucracy in some of the agencies 
that get in the way rather than the lack of interest from the 
community.
    That said, I would like to simply close with a quote from 
former FBI Director Edgar Hoover that is etched on the wall of 
the FBI's headquarters in Washington that says, ``The most 
effective weapon against crime is cooperation, the efforts of 
all law enforcement agencies with the support and understanding 
of the American people. We as Muslim Americans are ready and 
willing to partner with law enforcement but we need the support 
from Washington and we need the systematic approach that is 
necessary to effectively counter extremism, radicalization, and 
protect the country.
    Thank you.
    [The statement of Ms. Sawaf follows:]

                   Prepared Statement of Sireen Sawaf

    Chairwoman Harman and distinguished members of the Subcommittee, 
thank you for the opportunity to testify before you today.  It is a 
privilege to testify before you today on behalf of the Muslim Public 
Affairs Council to discuss the phenomenon of radicalization and some of 
the work the Muslim American community has done alongside law 
enforcement to counter this threat and enhance our nations security. 
    First and foremost, radicalization must be seen as a socio-
political set of behaviors and is not simply a law enforcement problem. 
 If not understood, mishandled, or even exacerbated, the emotions and 
political persuasions of the people we are trying to help, in this case 
Muslim American youth, will be further alienated and marginalized from 
the mainstream, and hence a sense of ghettoization will take place in 
various communities.  We cannot afford to continue with language that 
imposes suspicion on Muslim American youth, whereby they are guilty 
before proven innocent, and then spend millions of dollars on studies 
and programs to engage them.  The key to countering extremism and 
radicalization, therefore, is understanding and partnering with the 
Muslim American community, as we are one of the most underutilized but 
irreplaceable assets in protecting the homeland. When extremists use 
Islam to justify acts of terrorism, the only group that can counter bad 
theology with accurate theology is the Muslim American leadership.  We 
are best equipped to detect criminal activity and distinguish it from 
cultural norms (such as prayer in airport terminals), and we are most 
qualified to win the hearts and minds of the Muslim world.  It takes 
leadership and insight to recognize the critical role American Muslims 
play in protecting this country; hence I commend this Subcommittee for 
including our much-needed perspective in this solution-seeking effort.
    It is important to note that one of the key factors in preventing 
another 9/11 from happening is the patriotism of the Muslim American 
community in openly rejecting al-Qaeda as a legitimate group within 
Islamic discourse.  Through counter-terrorism policy papers and public 
pronouncements against terrorism, such as the Fatwa (legal opinion) of 
Muslim American scholars, Muslim Americans have separated legitimate 
Islamic discourse and activity from violent radicalism using religion 
as a vehicle for mobilization.  We recommend that policy-makers and 
opinion-shapers should apply the same practice.  Otherwise, we afford 
al-Qaeda the only source of legitimacy, the veneer of Islam.
    As we collectively strive to analyze the reality and possibility of 
``homegrown terrorism'' in the West, the bombings in London, Madrid and 
the recently foiled plots in Canada have fueled public anxiety and the 
concerns of public officials. In order to effectively counter homegrown 
terrorism in the U.S., particularly the potential for radicalization of 
Muslim youth, it is necessary to understand the roots of that extremism 
and the key factors that may cause one to cross the line from rhetoric 
to violence.
    The Muslim Public Affairs Council has just completed the first 
substantive American Muslim position paper addressing radicalization 
that contributes to preventing this phenomenon from taking root in U.S. 
soil by 1) framing the issues related to the radicalization of Muslim 
youth in the West while considering the realities on the ground, and 2) 
providing recommendations to Muslim American institutions, government 
and the media to engage young Muslims in a healthy partnership of 
respect and equality and subsequently reduce the possibility of 
radicalization by enhancing integration.  For the purpose of today's 
hearing, I will highlight key parts of this paper entitled, 
``Effectively Countering Extremism and Supporting Muslim American 
Youth.'' The Muslim Public Affairs Council is offering an opportunity 
to all staff and members of this distinguished committee a briefing on 
this Muslim Youth paper in Washington, DC, at a time of your 
convenience.

Radicalization and Key Factors
    The radicalization of young Western Muslims, while on the minds of 
many, is void of thoughtful analyses that explain core dynamics within 
Western societies and how they uniquely affect youth within extremely 
diverse Muslim communities. Only when we delve into the key issues of 
identity, social and political alienation, the definition of a 
moderate, and Islamophobia as a root cause of radicalization can we 
understand and prevent radicalization from taking root in the U.S.
    First and foremost, when defining radicalization, government 
agencies across the board must articulate a clear distinction between 
healthy challenging of the status quo in current affairs with the 
expression of radical rhetoric, and the willingness to use, support or 
facilitate violence as a means for change.  Until today, the public 
officials striving to understand and prevent violence have yet to 
effectively articulate this distinction to the public, particularly the 
Muslim American community, which has increased the gap of community 
distrust and suspicion of government officials.
    Moreover, when law enforcement or anti-academic freedom groups 
(e.g. Campus Watch) engage in what some have called ``thought 
policing'', many young Muslim Americans feel alienated. To criticize 
the lack of free expression in the Muslim world while discouraging the 
same in the U.S. is perceived to be hypocritical or at least 
incongruent. As a result Muslim American youth can end up resisting or 
distrusting mainstream political and civic participation leaving them 
vulnerable to fringe radical groups.

Identity
    We at MPAC believe that an accurate evaluation of the state of the 
Muslim American community must be built upon an assessment of the 
health and vibrancy of the Muslim American Identity. Since the early 
1980's, MPAC and its affiliate institutions have focused resources and 
efforts on building a community of Muslims in America that are forward-
looking and contributing components of American pluralism. This and 
similar Muslim American experiences across the nation aim to build 
communities that are organic to the global community of Muslims and 
also at ``home'' in the American project.
    A recent Gallup poll discussed in our position paper on youth that 
accounted statistically for the opinions of 1 billion Muslims and their 
opinions of the West presented data challenging those who argue a 
``clash of civilizations'' analysis to explain present concerns around 
extremism and terrorism. The study's findings further challenge the 
notion that religiosity and radicalism are two sides of the same coin 
of terrorism. The inability to realize that religion is an answer to 
radicalization, that only a good and authentic theology can overcome a 
zealous and fraudulent one, has led us down a slippery slope of 
conflating religious conservatism for radicalism or extremism.
    While rejecting the simplistic ``clash of civilizations'' theory, 
as realities on the ground including the adoption of the Muslim 
American Identity have proven false, it is important to recognize the 
sense of marginalization many youth feel and the importance of 
reaffirming the contributory role Muslim American youth play in our 
nations pluralism.

    Social and Political Alienation
    It is important to note that the factors that increase the wedge of 
identity, such as alienation and marginalization of Muslims, vary in 
the United States and in Europe. MPAC's position paper on youth brings 
to light the different factors contributing to the more successful 
integration of Muslim Americans into American pluralism, such as the 
demographic and structural differences between the U.S. and Europe.
    As of today, we have not seen a terrorist group forming amongst 
youth here in the U.S. In fact, the Muslim American community at large 
has rejected any militancy within the mainstream community and there is 
no indication that any Al-Qaeda-like movement has gained traction in 
America.
    In recent decades, however, some Muslim groups drew young people 
into communities that attempted to live self-sufficiently from the 
broader society surrounding them with the intent of living a Puritan 
life. Throughout the course of American history, the idea of 
``separating'' as a race or a religion from the larger society has been 
viewed repeatedly as an option for the disenfranchised or a desire by 
immigrant communities to maintain ones identity. It is important to 
emphasize that in the U.S. experience, none of these social 
manifestations represented a terrorist threat but were an expression of 
marginalization, even frustration with current foreign and domestic 
policies of the U.S. government.

Moderates vs. Extremists
    Much of the global conversation about Islam and Muslims is focused 
on labeling the different camps of Muslims from a perspective 
completely out of touch with the realities on the ground. Since our 
inception in 1988, MPAC has proposed that moderation, particularly of 
Muslims, cannot be gauged by the political ideas and ideologies that 
one holds, but rather by ones understanding of moderation as defined by 
the Qur'an and the tradition of the Prophet. If acquiescence to or 
active support of American global interest were the test, then 
characters such as Saddam Hussein and Usama bin Laden would each have 
qualified at different junctures in their careers.
    MPAC's position paper details the distinction between a moderate 
and a radical, the problems that arise when we invoke rhetoric and 
terminology, such as Islamic Radicalization, and the key to 
marginalizing the extremists.  Suffice it to say, the litmus tests for 
moderation, rather, revolve around topics such as the role of women in 
the public square and in leadership roles within Muslim institutions, 
the impermissibility of the use of violence as a means for political 
change, the acceptance of disparate segments of the Muslim American 
community, the rights of non-Muslims in Muslim-majority societies and 
the role of critical thinking in building the character of a Muslim.  
When it comes to the topic of reform, it is the sole role of Muslim 
Americans to lead this discourse within arenas of authentic and well-
grounded sources of Islam.

Islamophobia: A Root Cause of Radicalization
    We at MPAC have consistently argued through publications such as 
our Counterproductive Counterterrorism policy paper and other avenues 
that much of the hate disguised in counterterrorism is 
counterproductive, and the anti-Islamic rhetoric will eventually result 
in impeding our national security and ability to defend the homeland.
    Too frequently, communities that are excluded from conversations 
tend to use that exclusion as an excuse to withdraw from any discussion 
on religious reform and civic engagement. Since the 1980's, MPAC has 
advocated for civic and political engagement as the key tools for the 
inclusion of Muslim Americans and the consequent prevention of 
extremism.  Our position paper on youth lists recommendations for 
Universities, American Muslim institutions, the media, and government 
to quell the potential for radicalization in the U.S.  Here, it is 
important to highlight some of the relationships MPAC has built with 
government officials, particularly law enforcement.

Muslim Community-Law Enforcement Relations
    MPAC has been heavily involved in counter-terrorism and outreach 
efforts in cooperation with national and local law enforcement agencies 
as well as the equally important efforts of counter-extremism in the 
Muslim American community with a focus on youth. We have also been 
engaged with European Muslim communities and governments in numerous 
arenas on both sides of the Atlantic as well as in Muslim-majority 
countries in an effort to assess the environments that produce such 
extremism.  Recognizing the importance of engaging young people in 
planning for the future as a central theme to constructive religious, 
social and political work, MPAC is committed to building a future 
generation of leaders.
    Since the early 1990's, MPAC has worked closely with federal 
agencies such as the FBI, and has contributed to enhancing our nations 
security by providing analysis and a unique perspective through direct 
communication with key officials and thoughtful mediums, such as MPAC's 
1999 Counterterrorism Policy Paper. Following 911, many of these 
relationships have become institutionalized and formalized to some 
degree, and have expanded to include leadership from other 911-impacted 
communities on the local and national levels. MPAC currently 
participates in regular meetings with state and local law enforcement, 
and on a local and national level, the Department of Homeland Security 
and the Federal Bureau of Investigations.  The partnership model in Los 
Angeles I wish to elaborate on is the FBI-initiated Multi-Cultural 
Advisory Committee (MCAC).
    As the Government Relations Director of Southern California for the 
Muslim Public Affairs Council, it is my responsibility to enhance civic 
engagement amongst the Muslim American community and to ensure that the 
concerns of the community are being addressed by the appropriate 
government agencies responsible for those concerns, which is what lead 
to my participation in MCAC since it's inception.
    I must start by commending the FBI for being among the first 
government agencies to recognize the importance of engaging with and 
outreaching to the community following the horrific attacks of 911. In 
response to the increasing concerns of American Muslim, Arab, Sikh, 
South Asian, Coptic Christian, Bahai and Iranian communities in the 
post-911 era, the FBI initiated the creation of the Multi-Cultural 
Advisory Committee in 2004. MCAC's mission of creating ``an environment 
to facilitate dialogue and enhance the relationship between the FBI and 
the Community, which is based upon mutual respect, understanding, and 
the protection of Constitutional rights and civil liberties'' is 
necessary in ensuring communities become part of the solution. Creating 
and strengthening a two-way line of communication with the government 
has provided the opportunity for community leaders to raise concerns 
about policies and procedures and regain confidence in the government 
when concerns are resolved given their due attention, encouraging the 
use of community expertise towards problem-solving.
    While most of what I will share will apply to other communities, I 
will be addressing the concerns of the Muslim American community. Upon 
its inception, establishing a strong relationship with the FBI and the 
grassroots Muslim American community was burdened with external factors 
such as cultural baggage, particularly cultural distrust due to 
previous experiences within the indigenous African American Muslim 
community, and suspicion of law enforcement by first and second-
generation Muslims due to experiences in ones country of origin, where 
police were an extension of an oppressive regime. Muslim leadership and 
the FBI have continued to jointly craft solutions to these challenges 
such as providing constructive feedback on watch lists for the purpose 
of enhancing efficacy and avoiding wrongful inclusion of innocent 
people; increasing direct communication between the FBI and community 
members to ensure the sharing of accurate information and citizens have 
direct access to their public servants; and providing cultural 
sensitivity trainings to law enforcement designed to increase 
sensitivity toward the community.  These efforts have been successful 
in breaking down the communication barrier, and they must continue, as 
the road ahead is a long one.
    Unfortunately, several internal factors have and continue to 
inhibit the relationship to some degree, much of which are due to the 
bureaucracy in the FBI rather than the lack of desire for engagement by 
the community. The names of innocent citizens landing on watchlists, 
controversy around high profile cases, the use of informants, the use 
of foreign intelligence in the prosecution of domestic cases, and the 
conflation of every criminal activity by Muslims that makes it's way to 
public media as terrorism are just a few issues that drive a wedge 
between the FBI and the Muslim American community.  The perception of 
the community has become one where they believe they are viewed as 
suspect rather than partner in the War on Terror, and that their civil 
liberties are ``justifiably'' sacrificed upon the decisions of federal 
agents. So the task of building the level of communication, trust and 
confidence with the Muslim American community has become much more 
challenging.  It is the responsibility of the FBI to provide clarity in 
the midst of confusion, and of the community to ensure accurate 
information surpasses the rumors that can cause fear and alienation.  
Here, I'd like to highlight an example of a success.
    Following a series of politically controversial events held by 
Muslim students at the University of California, Irvine, Pat Rose, the 
head of the FBI's Orange County al-Qaida squad was quoted as saying her 
agency was looking for and electronically monitoring potential 
terrorists in Orange County.  Rose also said that the FBI is aware of 
large numbers of Muslims at UCI and USC, and was ``quite surprised'' 
that ``there are a lot of individuals of interest right here in Orange 
County.'' The publication and timing of this quote caused an uproar in 
Muslim youth and the Orange County Muslim community, as they understood 
these comments to suggest that the FBI was monitoring student groups, 
possibly due to organizing unpopular but nevertheless legal political 
events on campus. In efforts to nip this rumor in the bud, FBI 
Assistant Director in Charge of the Los Angeles field office, Stephen 
Tidwell, clarified these remarks at an emergency town hall meeting of 
youth, parents and other community members in Irvine in June 2006, and 
in a written statement in July 2006. While some were skeptical of 
Tidwell's clarification, this swift response by the FBI should serve as 
an example to the importance of disseminating accurate information 
about FBI operations and answering to the legitimate grievances of 
community members.
    Many challenges remain ahead, and despite the deficiencies in 
partnerships that currently exist, the MCAC model is an example of how 
to create and maintain partnership, understanding, information sharing, 
and bridge building between government officials and community members. 
The responsibility to maintain a successful partnership falls on both 
parties. For instance, government public pronouncements about criminal 
activity should avoid the conflated use of terrorism terminology that 
implicates Islam and motivations sourced in Muslim culture and Islamic 
tradition. Moreover, when cases that are championed as terrorism-
related are resolved with no relation to issues related to Islam or the 
American Muslim community, law enforcement should clearly and loudly 
inform the public. In tandem, community members should continue to 
engage their public officials, and ensure decision-makers and public 
servants are addressing their concerns, while we continue to 
collectively think of innovative ways to participate in the protection 
of the country and the principles upon which it was founded. Tensions 
that will challenge the partnership will certainly arise, but we must 
patiently persevere to create and maintain positive, constructive 
relations as we find each other on the frontlines of protecting this 
nation. Sincere partnership based on accurate and responsible 
communication sharing, the recognition of the critical role the 
community plays in enhancing our nations security, and collective 
problem solving is a key tool in preventing radicalization from taking 
root in our soil. I thank you for the opportunity to testify today, and 
I welcome your questions.

    Ms. Harman. Thank you very much. J. Edgar Hoover was not a 
former President. He was Director of the FBI. I just think the 
record should show that, editorial comments from my colleagues 
notwithstanding.
    Mr. Jenkins, you are now recognized for five minutes.

  STATEMENT OF BRIAN JENKINS, SENIOR ADVISOR, RAND CORPORATION

    Mr. Jenkins. Madam Chair, members of the Committee, thank 
you very much for the opportunity to talk to you about the 
subject today. I'm not going to try to summarize my testimony 
but let me simply highlight a couple of points and in doing so 
underscore some of the remarks that were made earlier.
    First of all, we do have a problem. Although we have 
achieved undeniable success in degrading the operational 
capabilities of our jihadist terrorist foes, we have had far 
less success in reducing the radicalization and recruitment 
that supports the jihadist campaign. This is going to be a 
long-term problem.
    You have to understand that the campaign is above all a 
missionary enterprise, much more than a military contest. 
Terrorist operations are intended above all to insight and 
attract recruits. Recruiting is not meant merely to fill 
operational needs. It is an end in itself.
    Despite the importance of recruiting, however, to the 
jihadist foe, we are not dealing with a centralized recruiting 
structure. That would be too easy. Recruiting has always been 
defused, localized, informal and, indeed, self-radicalization 
was often the norm even before the worldwide crackdown on al-
Qa'ida and its jihadist allies forced them to decentralize.
    The message from the global jihad is aimed directly at the 
individual. It argues that the Islamic community is under 
assault. It is threatened, in their view, by military attack, 
by cultural corruption, by social disintegration, by 
substandard zeal. The antidote to all of these threats is 
jihad. Jihad not as a spiritual quest but as a violent action.
    Don't underestimate the appeal of this narrative, 
especially to angry young men. It offers a possibility of 
adventure, the lure of clandestinity, a sense of direction, a 
seemingly nobel cause, and the eventual promise of paradise.
    Personal problems do play a role unquestionably. Recruits 
often come from dysfunctional families. They have experience in 
some cases disruptive relocations. They suffer identity crisis. 
They feel alienation. In some cases they are in trouble with 
the law. Some of these problems come with immigration. Some of 
them are typical of the age group. The bottom line here is 
there is no single psychological profile and no obvious 
indicator that is going to permit targeted intervention.
    We talked about the problem earlier here that Europe faces. 
Fortunately the United States does not face the same problem as 
Europe. Europe is confronted with large numbers of poor 
immigrants entering legally and illegally from the Middle East 
and the Maghreb. American by contrast is a distant destination.
    American's recent Muslim immigrants tend to be better 
educated, better off, more easily integrated moreover. We know 
how to do this in a certain sense. As a nation of immigrants we 
don't demand cultural assimilation as a prerequisite to 
citizenship. Certainly accented English is no barrier to 
achievement in this country. These are some inherent strengths 
we have as a nation of immigrants.
    At the same time, however, since 9/11 a number of arrests, 
discoveries of terrorist plots indicate that radicalization and 
recruitment are taking place here in this country. What can we 
do? We can try to block the message. Of course, that raises 
issues of free speech. But, in fact, I think we can do a lot 
better than we have here. This is a nation that invented 
marketing, invented the internet, and yet when it comes to our 
response here we are pretty flatfooted.
    We can try to remove the inciters. We can try to focus 
instead on identifying and monitoring recruiting venues. That 
has some promise. The recruiting process seems to not be very 
efficient. In reducing the number of retail outlets, in fact, 
would seriously impede recruiting.
    We can try to dissuade potential recruits. We can try to 
enlist the broader community. Whatever we do should be guided 
by some basic principles that reflect our values and preserve 
our strengths.
    We have talked about moving in the direction of a more 
preventive posture, protecting vulnerable members of society 
from recruitment down destructive paths, protecting society 
against destruction. A more preventive or more preemptive 
posture is going to mean in some cases changing the rules. But 
although we can change the rules, rules must prevail. Extra 
judicial measures I always think are unacceptable and 
dangerous.
    As a nation of immigrants we have been successful at 
integrating new arrivals without specific policies beyond 
guaranteeing equal opportunity and fairness to all so long as 
they obey our laws. This success makes one wary of government 
programs aimed at specific ethnic or immigration groups.
    Faith alone should never be the basis for suspicion but 
religion should provide no shield for subversion. We don't have 
to be shy about going after hatred and exhortation to violence 
even when they are cloaked as religious belief.
    Final couple of points here is we do need good intelligence 
at the local level. That has been said time and time again. 
Finally, whatever we do with regard to intelligence or our 
response has to be done with strict oversight and a sense of 
proportion to the threat. We should not by our very efforts to 
protect society against terrorism destroy what may be our best 
defense, a free and tolerant society.
    [The statement of Mr. Jenkins follows:]

            Prepared Statement of Brian Michael Jenkins \1\

Building an Army of Believers: Jihadist Radicalization and Recruitment 
                                  \2\

    Madame Chair: I appreciate the opportunity to be here today where 
you have experienced homegrown terror firsthand to discuss the issues 
of radicalization and how to protect the homeland. Although the United 
States and its allies have achieved undeniable success in degrading the 
operational capabilities of jihadist terrorists worldwide, they have 
had less success in reducing the radicalization and recruitment that 
support the jihadist enterprise.
    Nearly five years after 9/11, a 2006 National Intelligence Estimate 
concluded that ``activists identifying themselves as jihadists. . . are 
increasing in both number and geographic dispersion.'' As a 
consequence, ``the operational threat from self-radicalized cells will 
grow in importance to U.S. counterterrorism efforts, particularly 
abroad, but also in the Homeland.'' \3\ In testimony before the Senate, 
FBI Director Robert Mueller indicated concern about extremist 
recruitment in prisons, schools, and universities ``inside the United 
States.'' \4\ In March of this year, Charles Allen, Assistant Secretary 
of Homeland Security, concurred that ``radicalization will continue to 
expand within the United States over the long term.'' \5\
---------------------------------------------------------------------------
    \1\ The opinions and conclusions expressed in this testimony are 
the author's alone and should not be interpreted as representing those 
of RAND or any of the sponsors of its research. This product is part of 
the RAND Corporation testimony series. RAND testimonies record 
testimony presented by RAND associates to federal, state, or local 
legislative committees; government-appointed commissions and panels; 
and private review and oversight bodies. The RAND Corporation is a 
nonprofit research organization providing objective analysis and 
effective solutions that address the challenges facing the public and 
private sectors around the world. RAND's publications do not 
necessarily reflect the opinions of its research clients and sponsors.
    \2\ This testimony is available for free download at http://
www.rand.org/pubs/testimonies/CT278.
    \3\ U.S. Government, Declassified Key Judgments of the National 
Intelligence Estimate ``Trends in Global Terrorism: Implications for 
the United States.'' April 2006.
    \4\ Testimony of Robert S. Mueller, III, Director, Federal Bureau 
of Investigation Before the Senate Committee on Intelligence, February 
16, 2005.
    \5\ Testimony of Charles E. Allen, Assistant Secretary, 
Intelligence and Analysis, Chief Intelligence Officer, Department of 
Homeland Security Before the Senate Committee on Homeland Security and 
Governmental Affairs, March 7, 2007.
---------------------------------------------------------------------------
    Recently, we have begun to focus more attention on what I refer to 
in my book as the ``front end'' of the jihadist cycle.\6\ Growing 
concern has produced a growing volume of literature on the topic.\7\ My 
testimony today will simply highlight a few areas for further 
discussion:
---------------------------------------------------------------------------
    \6\ Brian Michael Jenkins, Unconquerable Nation: Knowing Our Enemy, 
Strengthening Ourselves, Santa Monica: RAND Corporation, 2006. See 
specifically pp. 123-132.
    \7\ Edwin Bakker, Jihadists in Europe--Their Characteristics and 
the Circumstances in which They Joined the Jihad: An Exploratory Study, 
Clingendael: Netherlands Institute of International Relations, 2006. 
Paul K. Davis and Brian Michael Jenkins, Deterrence and Influence in 
Counterterrorism: A Component of the War
---------------------------------------------------------------------------
        <bullet> Building an army of believers--how the jihadists 
        recruit
        <bullet> Radicalization and recruitment in the United States
        <bullet> How we might impede radicalization and recruitment, 
        and
        <bullet> Guiding principles for any actions we might consider.
    These comments derive from my own study of terrorism over the 
years, and from a large body of research done by my colleagues at the 
RAND Corporation.\8\
---------------------------------------------------------------------------
    \8\ See for example, Scott Gerwehr and Sara Daly, ``Al-Qaida: 
Terrorist Selection and Recruitment,'' in David G. Kamien (ed.), The 
McGraw-Hill Homeland Security Handbook, New York: McGraw-Hill, 2005, 
pp. 73--89; William Rosenau, ``Al Qaeda Recruitment in the United 
States: A Preliminary Assessment,'' MIPT Yearbook 2004. Oklahoma City: 
Memorial Institute for the Prevention of Terrorism, 2004, pp.23--31. 
See also Kim Cragin and Sara Daly, The Dynamic Terrorist Threat: An 
Assessment of Group Motivations and Capabilities in a Changing World, 
Santa Monica, California: RAND Corporation, MG-246-AF, and Angel 
Rabasa, et al, The Muslim World After 9/11, Santa Monica, CA: RAND 
Corporation, 2004.

Building An Army Of Believers
    More than a military contest, the jihadist campaign is above all a 
missionary enterprise. Jihadist terrorist operations are intended to 
attract attention, demonstrate capability, and harm the jihadists' 
enemies, but they are also aimed at galvanizing the Muslim community 
and, above all, inciting and attracting recruits to the cause. 
Recruiting is not merely meant to fill operational needs. It is an end 
in itself: It aims at creating a new mindset.
    At one time, al Qaeda dispatched recruiters, but the jihadists 
never created a central recruiting organization. Instead, they relied 
upon a loose network of like-minded extremists who constantly 
proselytized on behalf of jihad. Recruiting was always diffused, 
localized, and informal.
    Self-radicalization was often the norm, even before the worldwide 
crackdown on al Qaeda and its jihadist allies forced them to 
decentralize and disperse. Those who arrived at jihadist training camps 
were already radicalized. At the camps, they bonded through shared 
beliefs and hardships, underwent advanced training, gained combat 
experience, and were selected by al-Qaeda's planners for specific 
terrorist operations.
    There is a distinction between radicalization and recruitment. 
Radicalization comprises internalizing a set of beliefs, a militant 
mindset that embraces violent jihad as the paramount test of one's 
conviction. It is the mental prerequisite to recruitment. Recruitment 
is turning others or transforming oneself into a weapon of jihad. It 
means joining a terrorist organization or bonding with like-minded 
individuals to form an autonomous terrorist cell. It means going 
operational, seeking out the means and preparing for an actual 
terrorist operation--the ultimate step in jihad.
    Worldwide, radicalization and recruiting vary from country to 
country. In some places, such as the Philippines, Indonesia, Pakistan, 
and Chechnya, potential recruits are already members of a locally 
dominant culture and may be involved in an on-going conflict that seeks 
independence, autonomy, or nationwide adherence to a fundamentalist 
interpretation of Islam. They draw on local tradition and, in some 
cases, family histories of resistance. The local population is 
sympathetic to their cause, although it may not always support their 
actions.\9\
---------------------------------------------------------------------------
    \9\ For an informative discussion of the different routes to 
radicalization, see Matenia Sirseloudi and Peter Waldman, ``Where Does 
the Radicalization Lead? Radical Community, Radical Networks and 
Radical Subcultures,'' forthcoming.
---------------------------------------------------------------------------
    In the core Arab countries, where potential jihadists may share the 
basic beliefs of the dominant national culture or a fundamentalist 
subculture, they confront hostility and oppression from the central 
political authorities and therefore must go abroad or operate 
underground.
    The situation in the West is still different, and there are further 
differences between recruiting in Europe, where there are large and 
largely unassimilated Muslim immigrant populations, and recruiting in 
the United States, a nation with a long tradition of assimilating 
immigrants. Potential jihadist recruits in Western countries are part 
of a marginalized immigrant subculture or are themselves cut off even 
from family and friends within that community. The more vulnerable are 
those who are at a stage of life where they are seeking an identity, 
while looking for approval and validation. They are searching for 
causes that can be religiously and culturally justified, that provide 
them a way to identify who they are, and that provide a clear call for 
action.
    The jihadist agenda is action-oriented, claims to be religiously 
justified, and appeals to this relatively young, action-oriented 
population. Self-radicalization begins the day that an individual seeks 
out jihadist websites. In the real world they seek support among local 
jihadist mentors and like-minded fanatics. This is the group that 
currently poses the biggest danger to the West.
    Jihadists recruit one person at a time. The message from the global 
jihad is aimed directly at the individual. It argues that the Islamic 
community faces assault from aggressive infidels and their apostate 
allies; it is threatened by military attack, cultural corruption, 
social disintegration, and substandard zeal. The antidote to these 
threats is jihad, not as a spiritual quest, but as an armed defense. 
This is a religious obligation incumbent upon all true believers.
    Al Qaeda's brand of jihad offers a comprehensive and uncomplicated 
solution--the possibility of adventure, a ``legitimate'' outlet for 
aggression, the lure of clandestinity, pride, camaraderie, an elixir to 
cure all ills, an antidote to anxiety, an achievable goal, a seemingly 
noble cause, a sense of direction and meaning in life, and the eventual 
promise of earthly pleasures in the hereafter. It is a message that is 
especially attractive to angry young men and frustrated, compliant 
individuals.
    Becoming a jihadist is a gradual, multi-step process that can take 
months, even years, although since 9/11 the pace has accelerated. The 
journey may begin in a mosque where a radical Imam preaches, in 
informal congregations and prayer groups--some of which are 
clandestine--in schools, in prisons, on the Internet.
    The process starts with incitement--a message that commands and 
legitimizes violent jihad--and it combines self-selection and 
persuasion by jihadist recruiters. Volunteers are recruited into a 
universe of belief, not a single destination. Eager acolytes may 
coalesce into an autonomous cell, as did the original Hamburg group 
that later carried out the 9/11 attack, or they may join an existing 
local group. Individuals may be moved along to training camps or be 
persuaded by jihadist exhortation to act on their own.
    Becoming a jihadist may involve a series of invitations and proofs 
of commitment; it may also involve training abroad. Proceeding to the 
next step, ultimately to act, is always an individual decision. 
Volunteers move on by self-selection. There may be powerful peer 
pressure, but there is no coercion. Submission is voluntary. Not all 
recruits complete the journey. Commitment is constantly calibrated and 
re-recalibrated. Some drop out along the way. A component of our 
counter-recruiting strategy must be to always offer a safe way back 
from the edge.
    Jihadist recruiting emphasizes various themes: Honor, dignity, and 
duty versus humiliation, shame, and guilt. Fighting is God's mandate, a 
religious duty--paradise is guaranteed to those who join jihad. Jihad 
provides an opportunity to demonstrate commitment, courage, prowess as 
a warrior, and although it is not explicit in the recruiting, jihad is 
a license for violence. At the very least, it provides vicarious 
participation in war through martial arts, paintball battles, 
reconnaissance of potential targets, and endless discussion of fantasy 
terrorist plans.
    Short of preparing for a specific attack, it is hard to define the 
exact point at which one becomes a jihadist: Internalization of 
jihadist ideology? Bonding with brothers at a jihadist retreat? 
Downloading jihadist literature or bomb-making instructions from the 
Internet? Fantasizing about terrorist operations? Reconnoitering 
potential targets? Going to Pakistan? Signing a contract to pray for 
the jihadists, collect money, or support operations? Taking an oath of 
loyalty to Osama bin Laden? The legal definition is broad.
    Personal problems also play a role. Recruits often come from 
dysfunctional families, have experienced disruptive relocations, suffer 
identity crises, face uncertain futures, feel alienation; many are in 
trouble with authorities. Some of the problems are typical of the age 
group, and some come with immigration. Many recruits in the West are 
second- or third-generation immigrants. Others display the zeal typical 
of new converts. But jihadists also include sons of well-off families, 
people with promising careers, and individuals who are seemingly well-
adjusted. There is no ingle psychological profile and no obvious 
indicator to permit targeted intervention.
    While the jihadist message is widely and increasingly disseminated, 
the actual connection with the jihadist enterprise, outside of Middle 
Eastern and Asian madrassahs, appears random, depending on personal 
acquaintance, finding a radical mosque, or being spotted by a 
recruiter. That, in turn, suggests that the numbers are driven not 
merely by the appeal of the jihadist narrative, but also by the number 
of ``retail outlets'' where recruiters can meet potential recruits.
    The recruiting process, therefore, seems to be not very efficient--
the yield is low. However, only a few converts suffice to carry out 
terrorist operations. Nevertheless, this suggests that reducing the 
number of suspected recruiting venues would seriously impede jihadist 
recruiting.

Radicalization And Recruiting In The United States
    Neither imported nor homegrown terrorism is new in the United 
States. Many immigrant groups have brought the quarrels of their 
homeland with them. Anti-Castro Cubans, Croatian separatists, Puerto 
Rican separatists, Armenian extremists, Taiwanese separatists, earlier 
cohorts of Islamist extremists have all carried on terrorist campaigns 
on U.S. soil, along with domestic ethnic groups, right-wing extremists, 
and ideologically driven fanatics.
    A homegrown conspiracy (albeit with foreign assistance) was 
responsible for the 1993 bombing of the World Trade Center. Another 
homegrown conspiracy carried out the devastating 1995 bombing in 
Oklahoma City. The United States, over the years, has successfully 
suppressed these groups through domestic intelligence collection and 
law enforcement.
    However, Europe faces different problems. With a population of 350 
million, Europe is home to between 30 and 50 million Muslims--estimates 
vary. By 2025, one-third of all children born in Europe will be of the 
Muslim faith. In contrast, the United States, with a population of 300 
million, has approximately 4.7 million Muslims, most of them native 
Americans. Of the 3.5 million Arab-Americans in the United States, 
fewer than 25 percent are Muslim.
    Large numbers of poor immigrants enter Europe legally and illegally 
from the Maghreb and Middle East, and assimilation is a problem. 
America, in contrast, is a distant destination for the Arab and Muslim 
masses; its recent Muslim immigrants tend to be better educated, better 
off, and more easily integrated. As a nation of immigrants, America 
does not demand cultural assimilation as a prerequisite to citizenship, 
and accented English is no barrier to achievement. These are inherent 
national strengths.
    Since 9/11, U.S. authorities have uncovered a number of alleged 
individual terrorists and terrorist rings, including clusters in 
Lackawanna, Northern Virginia, Portland, New York City, and Lodi and 
Torrance, California. In all, several dozen persons have been convicted 
of providing material support to a terrorist organization, a crime that 
U.S. courts have interpreted broadly, or related crimes. Others, 
without demonstrable connections to terrorism, have been expelled for 
immigration offenses.
    Most of those arrested have been young men of Middle Eastern or 
South Asian descent. They include both native and naturalized citizens, 
although almost all are citizens. Most were Muslims by birth, although 
some are converts. Most of them have been middle-class, with educations 
ranging from less than high school to postgraduate degrees. They 
represent diverse professions, and some are veterans of military 
service.
    The Lackawanna, Northern Virginia, and Portland groups began to 
radicalize before 9/11, while the individuals in New York City, Lodi, 
and Torrance were more recent arrivals in the jihadist universe. The 
Northern Virginia and Portland groups planned to join jihadist groups 
abroad; those in New York City, Lodi, and Torrance contemplated action 
in the United States; the Lackawanna group had no apparent operational 
plans.
    These arrests, along with intelligence operations, indicate that 
radicalization and recruiting are taking place in the United States, 
but there is no evidence of a significant cohort of terrorist 
operatives. We therefore worry most about terrorist attacks by very 
small conspiracies or individuals, which nonetheless could be 
equivalent to the London subway bombings or the 1995 Oklahoma City 
bombing.
    This suggests that efforts should be made to enhance the 
intelligence capabilities of local police, who through community 
policing, routine criminal investigations, or dedicated intelligence 
operations may be best positioned to uncover future terrorist plots.
    Of these, continued intelligence operations are the most important. 
Radicalization makes little noise. It occurs in an area protected by 
the First and Fourth Amendments. It takes place over a long period of 
time. It therefore does not lend itself to a traditional criminal 
investigations approach.

    Impeding Radicalization And Recruitment
    How might we best impede radicalization and recruiting? Let me 
suggest several possible angles of approach. These are not 
recommendations; they are options aimed at provoking further 
discussion, and each raises a number of questions.
    Blocking The Message. Is exhortation to violence free speech 
protected by the First Amendment, or does it fall into the category of 
conduct that can be legally prohibited? Can Internet content be 
controlled? European governments argue that it can be. Clearly, the 
Internet is a new battlefield in the jihadist campaign, and the U.S. 
Army is reportedly preparing an assault on jihadist websites.\10\
---------------------------------------------------------------------------
    \10\ Jim Michaels, ``Military Readies Internet Assault: Terrorist 
Activity Expands on Web,'' USA Today, March 28, 2007.
---------------------------------------------------------------------------
    But does the United States need a new information service to wage 
an information war? A new United States Information Agency? If so, 
where should it be located within our government?
    How can anti-jihadist messages be facilitated? Would distributing 
such messages violate rules against domestic propaganda? Current law 
does allow messages against drugs, drunk driving, smoking, domestic 
abuse, dropping out of school, and publicizing the identity of wanted 
gang leaders. Can we do the same with jihad?
    Removing The Inciters. Should the United States, like the United 
Kingdom, seek to expel foreign-born clerics who incite hatred and 
violence? Should institutions that host those exhorting violence lose 
their tax-free status and face other restrictions? Can foreign 
contributions be blocked when they clearly support radicalization?
    Are inciters legitimate targets of intelligence efforts? Should 
messages of hate and their authors be publicly exposed? How can 
alternative role models be publicized?
    Focusing On Recruiting Venues. Recruiting for jihad takes place 
both inside and outside of identified radical mosques and other known 
venues. These ``retail outlets'' can be identified and monitored. 
Surveillance, real and imagined, of recruiting venues can inform 
authorities of possible terrorist plots and may discourage recruiting.
    The 2004 Herald Square Case in New York City is a good example of 
the methods, patience, and persistence that are needed to identify, 
understand, and thwart a jihadist recruitment that would have resulted 
in a terrorist attack. In fact, the New York Police Department has 
developed a very sophisticated understanding of the radicalization 
process and, in my view, has made some of the greatest strides in 
addressing it.\11\ Prisons are another recruiting venue that could be 
better controlled.
---------------------------------------------------------------------------
    \11\ An insightful analysis of radicalization and recruitment is 
provided by Arvin Bhatt and Mitchell Silber in ``Radicalization in the 
West and the Homegrown Threat,'' forthcoming.

    Dissuading Potential Recruits. Can the community offer attractive 
alternatives to potential recruits--national and community service, 
education and technical training, sports, etc.? Can at least some 
imprisoned jihadists be rehabilitated to counter the recruiting 
message? Imprisoned terrorists in Italy were offered reduced sentences 
in return for renunciations of violence and cooperation with the 
authorities. Current programs to rehabilitate imprisoned jihadists in 
Singapore and Yemen may also provide valuable experience.
    Enlisting The Broader Community. Can we implement educational 
programs at mosques and community centers, as Singapore is also doing, 
to expose the nature of jihadist ideology?
    The absence of significant terrorist attacks or even advanced 
terrorist plots in the United States since 9/11 is good news that 
cannot be entirely explained by increased intelligence and heightened 
security. It suggests that America's Muslim population may be less 
susceptible than the Muslim population in Europe, if not entirely 
immune to jihadist ideology; indeed, there appear to be countervailing 
voices within the American Muslim community. Conversely it may merely 
indicate that the American Muslim population has not yet been exposed 
to the degree, variety, of radicalization as that of its European 
counterparts. This ``success,'' or temporary reprieve, whatever its 
explanation, suggests in turn that we move cautiously to fix what may 
not be broken while realizing that the threat from radicalization 
continues to grow.

Some Guiding Principles
    Society's purpose in this area is twofold: to deter vulnerable 
individuals from recruitment into destructive paths and to protect 
society itself against destruction--this may require preemptive 
intervention before manifest criminal behavior occurs.
    However, the first principle must be to do no greater harm, to 
avoid misguided policies, needless hassles that only create enemies. A 
more permissive intelligence environment, society's demand to intervene 
before terrorist attacks occur will inevitably result in occasional 
errors. These should not be the basis for dismantling intelligence 
efforts or imposing unreasonable controls: Errors should produce prompt 
apologies. Systematic abuse should be punished.
    Rules may be altered, but rules must prevail--assertions of 
extraordinary wartime authority or extrajudicial measures are 
unacceptable and dangerous. Domestic intelligence, surveillance, the 
rendering safe of dangerous ideologies are delicate undertakings that, 
as we already have seen, can slide into despotic behavior.
    A nation of immigrants, America has been successful at integrating 
new arrivals without specific policies beyond guaranteeing equal 
opportunity and fairness to all, so long as they obey its laws. This 
success makes one wary of government programs aimed at specific ethic 
or emigre communities.
    We owe immigrants nothing more than freedom, freedom from 
exploitation, freedom for prejudice, tolerance of different cultures 
and customs, and fair access to opportunity. In return, immigrants are 
not asked to abandon their faith or customs. They are required only to 
abide by the same laws and rules that govern our behavior.
    Proposed measures must fit the magnitude of the threat. Isolated 
terrorist attacks can always occur, as they have in the past and almost 
certainly will in the future, but at present there is no significant 
jihadist underground in this country. Good domestic intelligence can 
discourage overreaction as well as contribute to deterrence.
    Faith alone should cast no shadow of suspicion, but religion should 
provide no shield for subversion--society need not be shy about 
attacking hatred and exhortation to violence even when they are cloaked 
as religious belief. Protecting the freedom of religion may require 
enforced tolerance--that is, attacking exhortations to violence--in 
order to protect the freedom of all.
    Incitement to violence, especially when there is an expectation 
that it will lead to action, is not protected by the First Amendment.
    A sensible response requires a broad understanding of community 
structure and dynamics--innocent enterprises may at times be the 
subjects of official inquiry, if only to dismiss them from further 
scrutiny; intelligence activities should not imply suspicion.
    Intervention measures should not isolate, alienate, stigmatize, or 
antagonize the communities in which recruiters look for quarry.
    It is important to keep lines of communication open at all levels 
of government. This is community policing in its broadest sense, but 
the collection of intelligence and initiatives aimed at maintaining 
dialogue among communities and faiths are best handled at the local 
community level.
    Whatever we do must be done with strict oversight and a sense of 
proportion to the threat. We should not, by our very efforts to protect 
society against terrorism, destroy what may be our best defense--a free 
and tolerant society.

    Ms. Harman. Thank you, Mr. Jenkins.
    Mr. Gersten.

 STATEMENT OF DAVID GERSTEN, DIRECTOR, CIVIL RIGHTS AND CIVIL 
      LIBERTIES PROGRAMS, DEPARTMENT OF HOMELAND SECURITY

    Mr. Gersten. Chairwoman Harman, Ranking Member Reichert, 
and distinguished members of the Subcommittee, thank you for 
providing me with the opportunity to testify today. It is a 
privilege to testify alongside other dedicated public servants 
and community leaders.
    In seeking to counter the phenomenon of radicalization, it 
is critical that our country better understand and engage 
Muslim communities, both in America and around the world. We 
believe that engaging key communities can help prevent the 
isolation and alienation that many believe are necessary 
precursors for radicalization. I look forward to working with 
this Committee to tackle this complex issue.
    Today, I want to specifically address the Department's work 
with American Arab and Muslim communities. Officer for Civil 
Rights and Civil Liberties, Daniel Sutherland, launched the 
work of our Office in April 2003, he quickly realized that many 
of the issues facing us would be those affecting Americans of 
Arab descent and those of the Muslim faith. Therefore, the 
Department has embarked on a project to develop, cultivate, and 
maintain dialogue with key leaders of the American Arab and 
Muslim communities.
    We believe that we will be a much safer country if we learn 
to improve our work through listening to their concerns and 
ideas and if we receive help from key leaders in explaining our 
security mission to their constituents.
    We will have a greater impact in all of these efforts if we 
share best practices and experiences in community engagement 
and invite our non-Federal Government partners to participate 
in our dialogue with these communities.
    When appropriate, we should offer materials and facilitate 
training for our local partners to empower and advise them. 
Likewise, we should always be open to learning from them.
    We have invested a great deal of time in developing an 
infrastructure for success in this area. We have cemented 
positive relationships and we now know many of the concerns of 
these communities including aviation watch lists, encounters at 
the border and, of course, foreign policy.
    While most of their concerns are recent and related to 
post-9/11 security efforts, we in government are now better 
able to appreciate and welcome faith-based viewpoints as a 
result of our investment of time engaging on these immediate 
concerns. We also have some understanding of the level of trust 
and cooperation between community leaders and state and local 
authorities. Finally, we now have a better understanding of 
what the government wants and needs from these communities and 
what these communities want from government.
    Based on this infrastructure, we have been very active in 
trying to engage with these communities. As with all outreach 
efforts, the government must be careful to choose constructive 
partners. By the same token, community members are careful to 
meet with government officials who they believe will be 
reliable partners.
    Much of our Office's work has involved bringing leadership 
to the interagency engagement effort. Recently national 
community leaders have had substantive meetings with the 
Secretary Chertoff, the Director of the FBI, and others. Our 
Office has arranged for local officials to participate with us 
in engaging these communities, most recently hosting Los 
Angeles Deputy Mayor Hari Falicon at our Los Angeles 
roundtable.
    The Assistant Attorney General at the Justice Department 
hosts regular meetings between government agencies and national 
civil rights organizations. This type of engagement also takes 
place across the country under our sponsorship at CRCL in 
regularly scheduled meetings in cities such as Houston, 
Chicago, and Buffalo.
    Since October I have led the meeting here in Los Angeles. 
In Detroit, the U.S. Attorney has asked Daniel Sutherland to 
chair the regular meeting there. These meetings typically begin 
with a substantive presentation by the government on an issue 
of concern such as redress for travel screening and 
misidentifications. Then we provide an opportunity for the 
communities to specify issues of concern.
    In addition to this engagement through a project we call 
``Civil Liberties University,'' we have developed training that 
provides new skills and competencies for our front-line 
officers and their State and local partners. For example, we 
have just released an intensive training DVD for personnel who 
interact with Arab Americans, Muslim Americans, and people from 
the broader Arab and Muslim world.
    We have also produced educational materials on how to 
screen individuals who wear common Muslim and Sikh head 
coverings, training on how to screen those of the Sikh faith 
who carry a kirpan, and a tutorial on the Department's policy 
prohibiting racial profiling.
    In addition to producing training and building bridges with 
community leaders, we have also developed strong relationships 
across the Federal Government and with many state and local 
authorities and with allied governments in the United Kingdom, 
Canada, and Australia.
    Again, our goal is to develop, cultivate and maintain 
dialogue with key leaders of the American Arab, Muslim, Sikh, 
and South Asian communities. Let me finally highlight a few 
steps that we believe need to be taken at this time:
    First, we must deepen the engagement; we must take all of 
this activity to the next level including connecting more with 
young people from these communities. Second, we must 
institutionalize these efforts for success over the long term. 
The work we are trying to do is also taking place at our sister 
agencies and at the vital level by state and local authorities 
who interact with members of these communities where they live.
    We need to ensure that state and local governments are 
equipped with resources to reach out and connect with these 
communities all the while helping them comply with civil rights 
and civil liberties. Finally, we must challenge the communities 
to get involved. We need to challenge them to help us increase 
the integration and assimilation of new immigrants. This, too, 
is a job that local communities are best posed to accomplish. 
We need to challenge community leaders to spread understanding 
of our security mission.
    In conclusion, we must recognize that this work will not be 
easy. We have to make sure that those who believe in cementing 
positive relationships are voices that shape opinions. Thank 
you for the opportunity to testify today and I welcome your 
questions.
    [The statement of Mr. Gersten follows:]

                 Prepared Statement of David D. Gersten

Introduction
    Chairwoman Harman, Ranking Member Reichert, and distinguished 
Members of the Subcommittee: Thank you for providing me the opportunity 
to testify today. It is a privilege to testify alongside other 
dedicated public servants and community leaders. I hope that our 
testimonies today will demonstrate how closely our offices are working 
together to tackle the issues you are considering.
    In seeking to counter the phenomenon of radicalization, it is 
critical that our country better understand and engage Muslim 
communities, both in America and around the world. Though there is no 
magic formula, we believe that engaging key communities and promoting 
civic participation can help prevent the isolation and alienation that 
many believe are necessary precursors for radicalization. I look 
forward to working with this Committee to tackle this complex issue.

Mission of the Office for Civil Rights and Civil Liberties
    In accordance with 6 U.S.C. Sec. 345, the mission of the Office for 
Civil Rights and Civil Liberties is to assist the dedicated men and 
women of the Department of Homeland Security to enhance the security of 
our country while also preserving our freedoms and our way of life. In 
essence, we provide advice to our colleagues on issues at the 
intersection of homeland security and civil rights and civil liberties. 
We work on issues as wide ranging as: developing redress mechanisms 
related to watch lists; integrating people with disabilities into the 
emergency management system; ensuring appropriate conditions of 
detention for immigrant detainees; reviewing how the Department&rsquo;s 
use of technology and its approach to information sharing impacts civil 
liberties; adopting equal employment opportunities policies to create a 
model federal agency; and, ensuring that information technology is 
accessible to people with disabilities.
    Since its inception, the Office for Civil Rights and Civil 
Liberties has worked to help the Department establish and cement 
positive relationships with a variety of ethnic and religious 
communities, and the organizations that represent them. We have worked 
with Catholic and Protestant organizations concerned with immigration 
law and policy, with Sikh Americans concerned about various screening 
policies, with the leaders of the Amish community regarding 
identification issues, and with Jewish community groups on a wide 
variety of issues.
    Today, I want to specifically address the Department&rsquo;s work 
with American Arab and Muslim communities, but it is important to 
remember that the work I describe is part of a broader effort to ensure 
that all communities in this country are active participants in the 
homeland security effort.

Engagement with American Arab and Muslim Communities
    When the Department of Homeland Security'S Officer for Civil Rights 
and Civil Liberties, Daniel Sutherland, launched the work of our Office 
in April 2003, he quickly realized that many of the issues facing us 
would be those affecting Americans of Arab descent and those of the 
Muslim faith. There was an opportunity to do much more than solve 
specific isolated problems. These communities want to have two-way 
communication with the government--certainly they want to be able to 
raise complaints about various situations or policies, but they also 
want to be invited to roll up their sleeves and help find solutions.
    Therefore, the Department has embarked on a project to develop, 
cultivate, and maintain partnerships with key leaders of the American 
Arab, Muslim, Sikh, and South Asian communities. We believe that a 
critical element of our strategy for securing this country is to build 
a level of communication, trust, and confidence that is unprecedented 
in our nation's history. We believe that we will be a much safer 
country if we better connect the government to these strong 
communities; if we learn to improve our work through listening to their 
concerns and ideas; if we convince more young people from these 
communities to join public service; if we receive their help in 
educating us about the challenges we face; and, if we receive help from 
key leaders in explaining our security mission to their constituents.
    We will have a greater impact in all of these efforts if our State 
and local authorities create similar models of engagement on their own 
accord. Just as the Federal government shares information and 
intelligence needed to save lives and protect our communities, we must 
also share best practices and experiences in community engagement and 
invite our non-federal government partners to participate in our 
dialogue with these communities. When appropriate, we should offer 
materials and facilitate training for our local partners to empower and 
advise them. Likewise, we should always be open to learning from them.

Infrastructure
    We have invested a great deal of time in developing an 
infrastructure for success. For example, we now know many key leaders 
of the American Arab and Muslim communities. We have solid lines of 
communication with community activists, renowned scholars, and business 
leaders; we have established good links with professional and social 
organizations; and we have constructive and frank interactions with 
many of the leading civil rights organizations. In short, we have 
cemented positive relationships with key figures and civil society 
institutions in these communities.
    We now know many of the concerns of these communities. We know that 
these include: aviation watch lists; immigration processing; encounters 
at the border; investigative methods; detention and removal; and, of 
course, foreign policy. We know that government works best when it is 
not intrusive and it is encouraging to note that socio-economic 
indicators point to widespread achievement and assimilation among 
American Arab and Muslim communities. While most of their concerns are 
recent and related to post-9-11 security efforts, we in government are 
now better able to appreciate and welcome faith-based viewpoints as a 
result of our investment of time engaging on immediate concerns.
    We also have some understanding of the level of trust and 
cooperation between representatives of these communities and State and 
local authorities.
    Finally, we now have a better understanding of what the government 
wants and needs from American Arab and Muslim communities, and what 
these communities want from the government.

Engagement
    Based on this infrastructure, we have been very active in trying to 
engage with these communities. This applies, as well, to our colleagues 
at the Department of Justice, FBI, Treasury, and others, who have all 
made concerted efforts in this regard. Of course, as with all outreach 
efforts, the government must be careful to choose constructive people 
to partner with, and, by the same token, community members are careful 
to meet with government officials who they believe will be reliable 
partners.
    Much of our Office's work has involved bringing leadership to the 
interagency engagement effort. Together with our partners in other 
agencies, we have worked hard to ensure that national organizations 
have access to leaders here in Washington. Within the past several 
months, national community leaders have had substantive meetings with 
the Secretary of Homeland Security, the Attorney General, the Director 
of the FBI, the Secretary of Treasury and others. Our Office has 
arranged for local officials to participate with us in engaging these 
communities, most recently hosting Los Angeles Deputy Mayor for 
Homeland Security & Public Safety Arif Alikhan at our regular L.A. 
roundtable which I will describe further in a moment. These are not 
simply occasional meetings, but are becoming part of the structure of 
our work. For example, several senior leaders of our Department have 
met with community leaders in both formal and informal settings over 
the past several months. Moreover, the Assistant Attorney General for 
Civil Rights at the Justice Department hosts regular meetings between 
government agencies, including the Departments of Homeland Security, 
State, Treasury, Education and Transportation, and national civil 
rights organizations.
    This engagement takes place across the country. The Office for 
Civil Rights and Civil Liberties now actively leads or participates in 
regularly scheduled meetings with leaders from these communities in 
cities such as Houston, Chicago, and Buffalo. Since October, I have led 
the meeting here in Los Angeles. In Detroit, the U.S. Attorney has 
asked Daniel Sutherland to chair the regular meeting there, referred to 
as ``BRIDGES.'' In all of these venues, the local leaders of the DHS 
component agencies participate, usually along with the U.S. Attorneys' 
offices and the FBI. These meetings typically include two to three 
dozen people around a table in a conference room, at either a 
government agency or a community center. The meetings typically begin 
with a substantive presentation by the government on an issue of 
concern, such as redress for watch list misidentifications. Then, old 
business is discussed &ndash; government agencies are asked to provide 
updated information on issues that have been raised in previous 
meetings. Finally, the communities present new issues to discuss with 
the agencies. As you can see, the meetings provide an opportunity for 
the communities to learn information about significant new government 
projects, as well as to raise specific issues of concern in a format 
that emphasizes accountability for answers.

Building capacity
    Our Office is also working hard to build the capacity of our 
workforce to address the new challenges that face us. Through a project 
we call &ldquo;Civil Liberties University,&rdquo; we have developed 
training that provides new skills and competencies for our front-line 
officers and their State and local partners.
    For example, we have just released an intensive training DVD for 
Department personnel who interact with Arab Americans, Muslim 
Americans, and people from the broader Arab and Muslim world. The 
training includes insights from four national and international 
experts--an Assistant U.S. Attorney who is Muslim, a member of the 
National Security Council who is Muslim, an internationally renowned 
scholar of Islamic studies, and a civil rights attorney who advocates 
on issues of concern to Arab American and Muslim American communities. 
As with many of the materials we produce, our Federal and non-Federal 
partners have also found this training module on Arab and Muslim 
cultures useful. Last month our Office made available this DVD to 
nearly 600 fusion center directors and local, State, tribal, and 
Federal law enforcement officers within intelligence units attending 
the National Fusion Center Conference in Florida. This training program 
has been applauded by the communities who believe that they will be 
treated with more dignity and professionalism if front-line officers 
understand their cultures, traditions, and values; and, by our 
colleagues in the Department who believe that such training will help 
them do their jobs more efficiently and effectively.
    We have also produced educational materials with guidance to 
Department personnel on how to screen and, if necessary, search 
individuals who wear common Muslim and Sikh head coverings; training on 
how to screen those of the Sikh faith who carry a kirpan, or ceremonial 
religious dagger; and a tutorial on the Department's policy prohibiting 
racial profiling.
    This type of training is truly a win-win situation: our workforce 
and state and local partners win by acquiring new skills that they need 
to better carry out their jobs; and, we all win because American Arab 
and Muslim communities gain confidence that their insights and 
contributions are welcomed in the homeland security effort.

Incident Management Team
    If there is another terrorist attack on the United States, American 
Arab, Muslim, and South Asian communities would likely be at center 
stage. These communities may be a focus of investigative activity, 
rightly or wrongly, and quite possibly could be victims of racist 
retaliation. These communities could also be important keys to calming 
tensions throughout the Nation, assisting law enforcement in locating 
the perpetrators and serving as public spokespersons in the media. 
Therefore, it is critical that the U.S. Government be in contact with 
leaders from these communities in the hours and days after an incident.
    As a result, we have established an ``Incident Management Team'' 
that will connect government officials with key leaders of these 
communities in the event of another attack on our country.
    This Incident Management Team is made up of key government 
agencies, as well as approximately two dozen community leaders that we 
have come to know well. Government participants include several 
components within the Department, including the Office of Public 
Affairs, Office of Strategic Planning, and the Office of Intelligence & 
Analysis (I&A). We are joined by the Justice Department's Civil Rights 
Division, the FBI, the State Department, and the Department of the 
Treasury. Daniel Sutherland serves as the chair and activates the team 
and reaches out to incident specific participants. Community 
participants include scholars, community activists from several cities, 
and representatives of national organizations. Depending on the 
incident, State and local authorities responsible for community 
outreach may also be contacted and asked to participate. These meetings 
are meant to afford both Federal and non-Federal participants with 
real-time sharing of information and common messages needed in the 
aftermath of an attack.
    On the morning of the announcement of the London arrests this past 
August, our office convened this Incident Management Team. 
Representatives from Transportation Security Administration, I&A, and 
the British embassy all provided briefings to the community leaders on 
the events from the last several hours. While no classified or 
sensitive material was provided, the briefings were very substantive 
and gave these leaders concrete information they could share with their 
communities. There was a question and answer session for the briefers, 
and then the community leaders shared reactions to the events. The call 
was valuable for the community leaders, because they received key and 
timely information, and it led to tangible results. Several 
organizations issued press releases, which assured their communities 
that the government was engaging actively with them, again illustrating 
that there is no need to feel isolated from the homeland security 
effort.
    In addition to building bridges with community leaders, we have 
also developed strong relationships across the government. The working 
relationships among Federal agencies on these issues are extremely 
strong. We work on a daily basis with colleagues from State, Justice, 
FBI, Treasury, the National Counterterrorism Center (NCTC), and the 
National Security Council.
    We have also developed strong relationships with allied 
governments. We work particularly closely with our colleagues in the 
United Kingdom, but also regularly meet with representatives of the 
Canadian and Australian governments, and others as well--such as 
colleagues from Denmark and the Netherlands.

Next Steps
    Again, our goal is to develop, cultivate and maintain partnerships 
with key leaders of the American Arab, Muslim, Sikh, and South Asian 
communities. We have laid a strong infrastructure, and we have taken a 
number of important steps in the early phases of this project. We have 
seen enough progress to know that we can reach this goal, in the 
relatively near future, if there is a continuing strong and sustained 
commitment from all.
    Let me highlight four steps that we believe need to be taken at 
this time:
    First, we must deepen the engagement; we must take all of this 
activity to the next level. Leaders from all branches of government 
need to take steps to engage with these communities; meet them, learn 
about them, and open lines of communication. Government leaders also 
need to make public statements that impact opinion and drive current 
debates in ways that increase our citizens&rsquo; desire to get 
involved in public life and public policy, and that decrease the 
natural tendency toward isolation from government. For example, in the 
days after the August 2006 arrests of the bomb plotters in London, 
Secretary Chertoff made the following remarks to an audience here in 
Los Angeles:
    ``Given recent events, I think it's good to reinforce the message 
that America values its rich diversity. Muslims in America have long 
been part of the fabric of our nation. The actions of a few extremists 
cannot serve as a reflection on the many people who have made valuable 
contributions to our society. Right here in Los Angeles we work with 
several Muslim American leaders who are helping us to better secure our 
country. Muslim Americans, like all Americans are united in our resolve 
to live in safety and security.''
    We need to ensure that a wide range of senior government leaders 
make statements such as these.
    We also need to connect with young people from these communities. 
We need to find innovative new strategies to improve communication with 
young people from these ethnic and religious communities.
    Second, we must institutionalize the engagement effort for success 
over the long term. At the Department of Homeland Security, we have 
established the Department's Radicalization and Engagement Working 
Group. We have also established the Incident Management Team and our 
colleagues at I&A have established a unit focused on radicalization 
issues. But we need to redouble our efforts to ensure that all of the 
component agencies are equipped to play a significant role in reducing 
isolation and therefore radicalization.
    The work that we are trying to do is also taking place at our 
sister agencies--Justice, State, Treasury, NCTC, and others--and, at a 
vital level, by the State and local authorities who interact where 
members of these communities live. We need to ensure that State and 
local governments are equipped with resources to reach out and connect 
with these communities, all the while, helping them comply with civil 
rights and civil liberties protections.
    Third, we must continue to address policy issues of concern. In 
preparing for our community meetings, we remind ourselves that the 
meetings will be seen as useless if concrete results are not visible. 
We have found that these communities have provided a great deal of 
constructive criticism--that is, they have identified problems we need 
to address and, in some cases, made excellent recommendations for 
solutions as well. To be credible, the government must continue to 
address issues of concern and report back to the communities when 
progress is made.
    Finally, we must challenge the communities to get involved. To 
achieve our mission, we need help from every part of America. We know 
that these communities are anxious to roll up their sleeves and get 
involved. It is important at this time that we say loudly and clearly: 
``We need your help and we welcome you to the table.''
    Specifically, we need community leaders to convince more of their 
young people to consider public service as a career. One of our 
priorities as a government has to be to get young people from American 
Arab and Muslim families to join government service. We desperately 
need their language skills, but we also need their cultural insights. 
We need to challenge community leaders to extol the virtues of public 
service, whether it is as a candidate for political office, as an FBI 
agent, a soldier, an accountant, a lawyer, or an IT specialist--we need 
more people from this community to see government service as a place 
they can build a successful career.
    We also need to challenge these communities to help us increase the 
integration and assimilation of new immigrants, particularly those from 
the Arab and Muslim worlds. We need to ensure that these new immigrants 
become comfortable with their children's schools, get plugged into 
places of worship where they can build friendships, learn to speak 
English, and become familiar with their local government. This is a job 
that local communities are best poised to accomplish.
    We need to challenge community leaders to spread understanding of 
our security mission. There are times when we must deport someone who 
has come to our country illegally; we need community leaders to calm 
community tensions and explain the role that Homeland Security officers 
must play. There are times when someone is questioned at an airport or 
border port of entry; we need community leaders to explain that in many 
cases, these are important features of the landscape we have post 9/11. 
We do not need community leaders to become our spokespeople; but we do 
need them to help build a level of understanding regarding these 
issues, which will help people respond to the latest headlines most 
successfully.
    We also need to challenge community leaders to influence Muslim 
perspectives in other parts of the world. For example, Muslim 
communities in Europe are much less integrated, successful, and 
prosperous than American Arab and Muslim communities. We need to 
challenge community leaders here to communicate with communities in 
Europe, to convince them Muslims can successfully integrate into 
secular democracies while maintaining their religion, and fully 
participate in those countries. From decades of experience, Muslims in 
America know that the environments created by democracies such as ours 
give them freedom to choose the way they want to worship, raise their 
families, get an education, relate to their government, start a 
business, and become prosperous in their professions. Muslims in Europe 
need to be convinced of these principles, and American Arab and Muslim 
leaders can play a significant role.
    In all of these areas, community leaders are already stepping up to 
the plate. For example, many Arab and Muslim community leaders have 
traveled internationally and talked about the issues of the day. As a 
government, we simply need to recognize the efforts that have already 
been made, and then step up our support and encouragement for even more 
significant efforts in all of these areas.

Conclusion
    In conclusion, we recognize that this will not be an easy task. 
This will be a path with many peaks and valleys. There are constant 
pressures that seek to pull us apart; we must resist those. We have to 
make sure that those who believe in cementing positive relationships 
are the voices that shape opinions, and that these are the people who 
are influencing the debate. Thank you for the opportunity to testify 
today, and I welcome your questions.

    Ms. Harman. Thank you, Mr. Gersten.
    I yield myself five minutes for questions and we will make 
a few comments at the beginning, and that is to thank all three 
of you for excellent testimony. In Washington we have heard 
recently from civil liberties groups that they are afraid of 
these fusion centers and they are worried that the activities 
at the local level will infringe on civil liberties.
    Obviously this panel was put together in part to 
communicate a message that at the local level people are paying 
close attention and groups are being enlisted to be good 
citizens, as the Muslim American community is, and help law 
enforcement get it right. And also that there is training going 
on in privacy and civil liberties for personnel at these fusion 
centers and involved in local law enforcement.
    I just want to say to you, Mr. Jenkins, that your comments 
about how we have to get this right but we also have to do this 
within the rule of law surely resonate with me. I have often 
said that protection of security and liberty is not a zero sum 
game. We don't get more of one and less of the other. We either 
get more of both or less of both. That actually was not my 
idea. That was Ben Franklin's idea. He has a marvelous quote 
about that.
    I see you nodding. I wasn't going to ask you about that. I 
do want to ask this panel about the Adam Gadahn case. I raised 
it in my opening remarks. I assume you are familiar with it. 
Here was a kid in Orange County who grew up in modest 
circumstances white, of Jewish ancestry, who became quite 
aimless.
    My understanding is that he on the web, found a religious 
site that led him to a local mosque, became radicalized and now 
lives in Waziristan, Pakistan. It is alleged he is the head of 
PR for Osama Bin Laden and he has been indicted for treason in 
this country. My question is how could this happen and if it 
happened to this kid, how likely is it to happen to another 
kid? Let's start with Mr. Jenkins.
    Mr. Jenkins. You know, you indicated a number of the 
attributes there. First of all, aimless. He's looking for 
meaning in life. There are lots of young men in our communities 
whatever their faith or social status who are in that same 
position. He went to the web. The web has become an 
increasingly important source of information. He found 
something that resonated with him personally.
    The next step, however, really is very much a random step 
and that is he found a retail outlet. Now, whether that is a 
mosque, whether it is a group of chums or whatever, he found a 
connection that then took him the next step. That contact led 
him along the way.
    This is a process that we see taking place probably tens of 
thousands of times at the front end as we go through it up each 
individual step which is an individual decision. There is a lot 
of peer pressure but there is no coercion in this so this is 
very much self-selection. Then that figure would get smaller 
and smaller and smaller and smaller until we have finally a 
young man that starts off in suburbia, United States, and ends 
up in Waziristan.
    Ms. Harman. Well, Ms. Sawaf, I am sure you are familiar 
with this case, too. What can the Muslim American community 
help law enforcement do to prevent the Adam Gadahns from taking 
that last step? The wandering around and searching the web are 
things that we permit in a democratic society but it is when 
that kid goes wrong and becomes a violent actor that we want to 
prevent. What can you contribute to solving this problem?
    Ms. Sawaf. Thank you. I think there are a few things we 
have to take into consideration. Number 1, the trust between 
law enforcement and that community that took in the suspect, 
Adam Gadahn. If there was trust built in between the two, law 
enforcement may have received a phone call, may have received 
comments or possible information about what they identified as 
suspicious.
    Number 2, are we actually listening to Muslim youth? 
Whether they are new converts or whether they are born into 
Islam, from my perspective I don't think we collectively are 
listening enough to Muslim youth. It is important to bring them 
to the table, to have them interact with decision makers and 
the opinion shapers to ensure that they know that they are part 
of America's fabric and they can, in fact, play a contributory 
role in protecting the country. That, in fact, engagement on 
that level can encourage and facilitate civic engagement as the 
avenue for change rather than extremism or radicalization.
    Ms. Harman. Thank you for that answer. You did mention 
earlier that you prepared a paper on Muslim youth. Mr. Dicks 
has suggested, and I concur, that we request a copy for the
    Subcommittee. Are you able to provide it to us?
    Ms. Sawaf. Absolutely.
    Ms. Harman. Thank you very much.
    Mr. Gersten, on the same subject, what do you have to 
contribute to preventing the next Adam Gadahn?
    Mr. Gersten. Well, let me first begin by giving you the 
Department's definition of radicalization. The Department 
defines radicalization as the process of adopting an extremist 
belief system including the willingness to use, support, or 
facilitate violence as a method to effect societal change. The 
fact is that we don't know enough. I think there needs to be a 
lot more research in this area, and there is ongoing research 
within our Department on the process of radicalization.
    So far we have discovered and identified many of the nodes 
that are exercised by those who are attempting to radicalize 
others, the venues that forge the radicalization process venues 
such as universities, prisons, religious institutions, the 
internet, propaganda, leaders, and even rights of passage such 
as going to a training camp of some sort. These all have 
transformative effects. It certainly is the case that Adam 
Gadahn did, in fact, use some of those venues and we are aware 
of that.
    From our perspective at the Office of Civil Rights and 
Civil Liberties, we believe that engagement empowers Muslims to 
rest control of the debate over reconciling Islamic law with 
pluralistic western societies from the radicals who interpret 
Sharia law to justify terror. By demonstrable engagement and 
influence in the democratic process and civic engagement 
American Muslims are a testament and an example that directly 
counters the violent claims--
    Ms. Harman. Thank you. My time has expired.
    Mr. Reichert has asked to yield his first round or his time 
now to Mr. Lungren. He will ask questions in the subsequent 
sequence because Mr. Lungren has to leave for an airplane.
    Mr. Lungren. Thank you.
    Ms. Harman. I recognize the gentleman from California for 
five minutes.
    Mr. Lungren. I appreciate it. Ms. Sawaf, it is very 
encouraging the work that you are doing in concert with law 
enforcement in what is occurring here in Southern California.
    Let me ask you something that I hear from constituents who 
don't have the opportunity to be involved in those sorts of 
circles but are the recipients of what they see in the news.
    They say to me, ``If, as you say, this is radical Islam and 
it is just a very, very small part of Islam and a distortion of 
Islam, how come we don't hear that from more people in the 
moderate or regular Muslim community?'' Could you tell me where 
I can direct them? Where is there an outlet to find those 
comments, those condemnations of this misuse of Islam in a 
violent way? It would be very helpful.
    Ms. Sawaf. Absolutely. Thank you for asking. I think if you 
direct them to our website or you direct them to contact me 
directly, I would be happy to share that information. There is 
a long line of condemnations beginning from the day of 9/11 
when our executive director along with other Muslim leaders 
were in the White House prepared to meet with the President. 
Obviously that meeting was canceled but we issued a 
condemnation within hours of the attacks.
    Mr. Lungren. You do realize that perception is out there?
    Ms. Sawaf. Absolutely. I think that the question we have to 
ask is where are we going to find and where are people seeking 
to find the answers and the condemnations.
    Mr. Lungren. The problem is mostly they are looking at 
television, radio, you have it. Maybe that is a criticism of 
the media but maybe there aren't the number of condemnations. I 
don't know. I will be happy to look at your website and examine 
that.
    Ms. Sawaf. I think it is a matter of what makes news, 
right?
    Mr. Lungren. Oh, absolutely.
    Ms. Sawaf. Does it make news for Muslims to participate in 
attacking the country?
    Mr. Lungren. If it bleeds, it leads. That's what they say.
    Ms. Sawaf. Exactly.
    Mr. Lungren. Particularly in television in Southern
    California.
    Ms. Sawaf. There is certainly a long list that I would be 
happy to share.
    Mr. Lungren. Mr. Jenkins, you really did put your finger on 
the problem we have here. Look, those who want to destroy our 
way of life succeed if either they destroy us or they cause us 
to destroy our own way of life. Give up our civil liberties in 
an undue fear of being able to control our own destiny in 
response to them. But you talked about the internet having a 
tremendous recruiting capability for young people.
    We have the First Amendment. We don't restrict. In some 
cases where you would look at a conventional criminal question 
you would say we can prevent and we can deter. Prevent, you say 
you can't do that. We can't do that in terms of the web but is 
there an element of deterrence? I mean, how do we handle this 
where people are incited to violence in what are First 
Amendment protected sites? Is there nothing we can do or is 
there a strategy of deterrence that helps us and also is that 
in conjunction with other things?
    Mr. Jenkins. A couple of thoughts here. By the way, first 
of all, let me just add a comment to that of Ms. Sawaf and that 
is public condemnations by members of the Muslim community of 
terrorism are useful but they are also the equivalent of public 
condemnations of terrorism by anybody. They make you feel good 
but they really don't really get you there. What we really 
have--
    Mr. Lungren. Let me interrupt on that point which is in 
response to the question of Islamophobia in response to 
Americans who were benign in their concerns or attitude towards 
Islam. You know, live and let live. Now because they don't see 
those condemnations, it changes their attitude was my point.
    Mr. Jenkins. Yeah. No, I understand that. It has that 
political utility but the more effective form of deterrence and 
dissuasion coming from the Muslim community may be the part 
that is invisible to the rest of us. It is good news that we 
have not had a major terrorist attack in the United States 
since 9/11. I would like to credit that all to superior 
intelligence and heightened security. I don't believe that for 
one minute. It does suggest that the Muslim community in the 
United States is far less receptive to this ideology of jihad.
    Mr. Lungren. That is an excellent point.
    Mr. Jenkins. And, moreover, that there are countervailing 
voices within the community that without public denunciations 
are, in fact, counseling against this type of behavior. I just 
want to make that point.
    Mr. Lungren. That is a good point. To your question about 
the First Amendment, free speech. There is no question that it 
does raise First Amendment rights. We do put restrictions on 
things now. We put various kinds of restrictions on the 
internet with issues of pornography. We do put limitations on 
issues pertaining to violence. At a certain point speech 
becomes conduct.
    Free speech is guaranteed. Conduct can be addressed, 
especially when it is an exhortation to violence where there is 
the expectation on the part of the communicators that it will 
be acted upon. I think that is something that without altering 
the constitution we do want to take a look at that.
    Ms. Harman. Thank you. Safe travel.
    The Chair now yields five minutes to Mr. Dicks of 
Washington State.
    Mr. Dicks. Ms. Sawaf, in terms of radicalization what 
recommendations would you have in terms of what should be done 
to address Muslim youth? What would you recommend?
    Ms. Sawaf. Well, if I can just quickly tailgate on the 
comments of Mr. Jenkins, it is important to recognize the 
internet and these other avenues are simply means. We have to 
prevent radicalization from the root of the problem.
    That route is when Muslim youth or Muslim prisoners or 
others, non-Muslims or whatnot, feel as though they are 
disenfranchised and marginalized and cannot, in fact, make any 
sort of change and cannot contribute to the political process. 
When they feel that it is hopeless, we have seen it resort to 
radicalization and criminal activity. We have to make sure that 
we engaging at all levels. Engagement in terms of roundtables 
and in terms--
    Mr. Dicks. Are there any examples of a person who has been 
radicalized having this kind of effort made and they change 
their views? Do you have any examples of that?
    Ms. Sawaf. I don't personally have examples off hand in the 
United States and I don't think we have seen many pop up. I 
think, though, when you look at the profile of the people, the 
suspects, we have seen that many of them are disenfranchised. 
You look at Europe and the landscape of Europe and the cases 
are very familiar amongst us.
    Mr. Dicks. That isn't always the case. Osama Bin Laden 
himself came from a very wealthy family.
    Ms. Sawaf. Of course, but Bin Laden preached that the way 
to make a difference, the only way to make a difference, was 
through attacking our country and our civilization so we need 
to counter that message. There are other avenues to make 
change. We know as a country based off of the successes of 
immigrants that we have a very strong message and we have 
assets in and of ourselves that we can show to the community 
that they have not seen.
    It becomes overwhelming when people are constantly 
bombarded with negative images of Islam and Muslims in the 
media and when they hear about their neighbors being placed on 
a watchlist and when we read about the evidence possibly 
corrupted for intelligence being used in the prosecution of 
domestic charities. All of that creates a climate of fear and 
distrust towards government. What we need to do is better our 
communication strains with the community and communicate the 
reasons behind these policies and programs and also open our 
minds to the community rolling up their sleeves and 
participating.
    Mr. Dicks. Do you agree with Mr. Jenkins that in the United 
States this message is less receptive than it is in other 
countries?
    Ms. Sawaf. Absolutely. Absolutely. By the nature of our 
country we look at our constitution when we talk about the 
separation of church and state, it is not one that completely 
denies religion or is anti-religion but it accommodates all 
religion and all community groups so absolutely.
    Mr. Dicks. Mr. Gersten, do you have a comment?
    Mr. Gersten. I do. At a conference in November I 
represented the U.S. Government in a discussion of engaging 
Muslim youth and what I heard there from leaders of Muslim 
youth organizations including the founder of Muslim Space was 
that one of the tools in counteracting radicalism is being shut 
off by the very First Amendment concerns that we heard from 
Congressman Lungren.
    The founder of Muslim Space mentioned that, indeed, many of 
those that have a zeal for action simply want to be able to 
debate these issues so we do need to actually empower Muslim 
youth to be able to discuss the issues of radicalization 
without necessary fear of reprisal. In fact, this debate if we 
were to shut it off by being overly wary of what is mentioned 
in these discussions among Muslim youth could, in fact, lead to 
further radicalization.
    Mr. Dicks. Is there any website that gets into why a youth 
should use the existing constitutional system to express 
themselves, to provide questions about the whole situation?
    Mr. Gersten. There are many. In fact, most of the 
organizations that we engage with have a long history of civic 
engagement and cooperation with government using the democratic 
process and meeting with the representatives from the public 
sector and affecting change. They do chronicle on their 
websites their success in that area.
    Mr. Dicks. Good. Thank you.
    Ms. Sawaf. We would be happy to host some hearings with you 
and your staffers, of course, with Muslim American youth to 
talk about issues that are important. We are doing that this 
month with the Senate Committee.
    Ms. Harman. Thank you very much.
    Mr. Reichert is now recognized for five minutes.
    Mr. Reichert. Thank you, Madam Chair. I also want to add my 
thanks to the three of you and the first panel for the work 
that you are doing. It is important, very important work. Both 
panels really have highlighted, at least for me, two issues. 
One, how important the local law enforcement role is in 
protecting our communities and rooting out radicalization.
    And, two, how important it is to address the issue of youth 
and at the root of the problem. I think for me this goes back 
to the early 1990's when community policing was first talked 
about. It was that connection between police and the local 
community that made a huge difference as we saw through the 
1990's crime rates tumble. Now today we have to enhance those 
efforts even more so to address this issue of radicalization.
    I want to follow up from Mr. Dicks' line of questioning 
around youth because you have both hit on, Mr. Gersten and Ms. 
Sawaf, talked about the youth and the importance of building a 
closer relationship, giving them opportunities to speak and 
deepen this relationship. How do you propose to do that? You 
have talked about roundtables but in the community policing 
world and law enforcement there actually are things that are in 
place, tools to be used to bring people together, community 
block watches, etc. What are you working on together to really 
capture the youth and educate them?
    Mr. Gersten. It is interesting you mention that because it 
is one of the constraints we have from the Federal level. Most 
of the engagement that we do is with civil rights and advocacy 
organizations around the country, lawyer associations, those 
who have been engaged with Government from times dating back 
many, many years.
    There is a certain level of wariness beyond the civil 
rights organizations within the Muslim community and engaging 
with Federal authorities. Therefore, I think that part of the 
answer is to empower state and local authorities who are in the 
communities on the ground level to do some of this engagement. 
They will be better trusted in some ways and they are there on 
a day-to-day level.
    As Ms. Sawaf mentioned earlier, there is a bureaucracy that 
does get in the way of some of the coordination of our 
engagement efforts and we would certainly acknowledge that and 
think that part of the solution for reaching out to Muslim 
youth is to empower state and local authorities.
    Mr. Reichert. I am glad you mentioned that. Doing a lot of 
great things but there is that Federal bureaucratic red tape 
that we have to go through.
    Ms. Sawaf.
    Ms. Sawaf. I think to add to that, it is important that 
when there are high-profile cases that are announced in 
mainstream media on the frontlines in the news, it is important 
that if those cases turn out not to be national security 
related cases that is, in fact, announced by the officials that 
were involved in investigating and prosecuting the case.
    Otherwise, what happens and what has happened is a lack of 
trust and confidence in the authorities and the investigations 
and it becomes perceived as politicized. In order to ensure 
that there is transparency and we can then build trust off of 
that transparency, that is one thing that local and Federal 
officials can do. Of course, another one is to provide funding.
    There was an amazing program called Partnering for 
Prevention that was proposed by Northeastern University with a 
$1 million budget. Lo and behold, it was decided by the FBI 
that it was no longer a program that they would fund because 
they had to fund computers. There is tons of money going into 
homeland security efforts and very little to nothing going into 
cooperation and partnership. We are an asset in this fight 
against terror and it has to come from within the community 
because we are the ones that can connect with our community and 
can bring them to the table. I think those are two things that 
can be done.
    A third one, like I mentioned earlier, is organizing 
roundtable and hearings that include Muslim youth and their 
perspectives. We often talk about them. We rarely listen to 
them or talk to them. I think that is critical if we really 
want to understand what is going on in the hearts and the minds 
of the youth.
    Mr. Reichert. Thank you.
    Madam Chair, I yield.
    Ms. Harman. Thank you. The gentleman's time has almost 
expired and I yield to Mr. Perlmutter of Colorado for the final 
five minutes.
    Mr. Perlmutter. Thank you, Madam Chair. This panel has 
really stimulated a lot of thoughts for me. I would just 
appreciate your testimony.
    Ms. Sawaf, some of the things that you were saying it is a 
little different, and Mr. Jenkins may be the guy who remembers 
all this, but it reminds me of the things that created the 
Weather Underground or the Black Panthers or things like that, 
sort of this feeling of hopelessness, of disenfranchisement, of 
inequality, disparity which then led to radicalization of some 
middle class white youth, African Americans, and then 
ultimately led to violence in a very small sliver, but violence 
nonetheless.
    What ultimately I think helped in those situations was 
engagement and a belief that you really could make a difference 
through the system and not just through violent acts. The 
difference here that worries me a little bit is the religious 
overtone of this, that God is on my side and he is not on your 
side. We have had that too much in our history on this planet 
that ultimately results in violence so just my thoughts and the 
words that you said, Mr. Jenkins, about a sense of proportion 
in how we react to all of this I thought really struck a chord 
with me. I am just sort of spilling all that and you all can 
react to it as you choose.
    Mr. Gersten. I was just going to say that we in government 
our hands are some ways tied in terms of debating the issue of 
Islamic law and attempting to convince Salafi, for instance, 
that Islamic law does not support terror. If we were to engage 
directly in debates like that, we would, of course, violate the 
establishment clause. We do have to be concerned of that. 
Rather I think what we need to do is continue to engage with 
constructive partners in the Muslim community and encourage 
them and empower them through their dialogue with us to do that 
in a sense as a proxy.
    Mr. Jenkins. I think it is important that we really take 
the jihadist, and I use that term deliberately, by the way, as 
opposed to Islamist extremists or anything connected with Islam 
because I think it is important that we take this threat that 
we face out of the context of Islam. This is an ideology. It is 
an ideology that certainly extracts portions of a religion to 
support its own ideological point of view that is certainly not 
unique to Islam.
    We have had extremist groups in this country that extract 
portions of the Bible to support their views as well. As I say, 
we take this out of the realm of religion. Religion is not 
going to provide any cloak for that. We look at it in that 
sense. In so doing I think where the issue of religion comes 
into it, or faith, is that certainly our first governing 
principle should be do no greater harm. That is, we should not 
by our actions alienate or antagonize or stigmatize members of 
any ethnic or religious community.
    I say that for ferociously pragmatic reasons. Good 
intelligence depends ultimately on good relations. Our ability 
to deal with that handful that you mentioned and all of these 
great movements in American history whether it was the labor 
movement at the turn of the century, whether it was the civil 
rights movement, whether it was the anti-war movement have all 
spawned out under extremist fringe, a handful of bombers and 
shooters.
    We want to as a society, and we are pretty good at as a 
society co-opting and absorbing the larger movement, the 
legitimate components of that. At the same time because of the 
increasing destructive power that is coming into the hands of 
gangs, whether the grievances are real or imaginary, we have to 
work very hard on going after those small groups.
    That is going to take intelligence, intelligent 
intelligence if I can say that, primarily done at the local 
level and that is the challenge, to deal with the reservoir, 
not antagonize it, not do anything to alienate it. At the same 
time we vigorously go after that handful with that ideology.
    Ms. Harman. Ms. Sawaf, please complete your answer as 
briefly as possible.
    Ms. Sawaf. Briefly, we as Muslim Americans shoulder the 
responsibility to fight the theological battle. It is our role 
and only our role to really get into the domain of the fact 
that the American identity does not at all clash with the 
Muslim identity. Therefore, we propose an American Muslim 
identity that gels together due to the principles of the Sharia 
and the constitution of the United States.
    They go hand in hand. It is our role and we take that upon 
ourselves. We also take community initiatives upon ourselves. 
We also take community initiatives upon ourselves like our 
anti-terrorism campaign that I would be happy to share with 
you. It was endorsed by over 600 mosques. But I must include 
that you, too, share a responsibility. You as well as media as 
well as political analysts and so on and so forth. That 
responsibility is to include our perspective and furthermore 
not to use the language that will divide you from the Muslim 
American community.
    With all due respect, jihadist is wrong terminology because 
it is a very noble concept that all Muslims believe in. 
However, it is used and it simply strengthens the arguments of 
the extremists. We have to be thoughtful with the language we 
use. We have to be thoughtful with the voices we include. Thank 
you.
    Mr. Dicks. What would you say instead of that?
    Ms. Sawaf. I would say extremists.
    Mr. Neu. All time for questions has expired. I think this 
Subcommittee will be much more thoughtful having heard this 
excellent testimony. I want to thank the witnesses, the members 
for their questions, and our excellent staff for preparing this 
hearing.
    If members have additional questions, I would hope 
witnesses would respond to them in writing. Hearing no further 
business, this Subcommittee standards adjourned.
    [Whereupon, the Subcommittee was adjourned.]


                                APPENDIX

                              ----------                              


                             For the Record

Prepared Statement of John M. Vanyur, Assistant Director, Correctional 
              Programs Division, Federal Bureau of Prisons

    The Bureau of Prisons (BOP) is pleased to submit this statement for 
the record regarding the efforts our agency is taking to ensure we are 
preventing the recruitment of terrorists and extremists in Federal 
prisons.
    The BOP is responsible for the custody and care of approximately 
195,500 inmates confined in 114 Federal prisons and facilities operated 
by private companies, State and local governments. Our mission is to 
protect society by confining offenders in the controlled environments 
of prisons and community-based facilities that are safe, humane, cost-
efficient, and appropriately secure; and to provide work and other 
self-improvement opportunities to assist offenders in becoming law-
abiding citizens.
    The BOP is committed to ensuring that Federal prisoners are not 
radicalized or recruited for terrorist causes. The support that has 
been provided by the FBI, the agencies represented on the National 
Joint Terrorism Task Force (NJTTF), other components of the Department 
of Justice, and many other members of the law enforcement and 
intelligence communities has been invaluable to our efforts in this 
area.
    We understand the importance of controlling and preventing the 
recruitment of inmates into terrorist activities and organizations. We 
also acknowledge that this is an evolving issue, especially as it 
relates to the relationships between terrorism, certain radical or 
extremist ideologies, and the penchant of those who adhere to these 
ideologies to recruit others to their positions. The BOP's efforts at 
preventing radicalization focus on:
        (1) managing and monitoring inmates who could attempt to 
        radicalize other inmates
        (2) screening religious service providers to avoid hiring or 
        contracting with anyone who could radicalize inmates, and
        (3) providing programs to help inmates become less vulnerable 
        to attempts at radicalization.
    We know that some inmates may be particularly vulnerable to radical 
recruitment and we must guard against the spread of terrorism and 
extremist ideologies. Our practices in institution security and inmate 
management are geared toward the prevention of any violence, criminal 
behavior, disruptive behavior, or other threats to institution security 
or public safety, which includes the radicalization of inmates.
    Over the last several years, our agency has taken a number of 
significant measures, and we are actively engaged in several ongoing 
initiatives to ensure that inmates in Federal prison are not recruited 
to support radical organizations or terrorist groups. For example, we 
have eliminated most institution-based inmate organizations with 
community ties to control the influence that outside entities have on 
Federal inmates. We also have enhanced our information and monitoring 
systems, intelligence gathering and sharing capabilities, and 
identification and management of disruptive inmates.
    For over a decade, we have been managing inmates with ties to 
terrorism by confining them in more secure conditions and closely 
monitoring their communications. We have established a strategy that 
focuses on the appropriate levels of containment to ensure that inmates 
with terrorist ties do not have the opportunity to radicalize or 
recruit other inmates.
    We define terrorist inmates as those having been convicted of, 
charged with, associated with, or linked to terrorist activities or 
belonging to organizations that planned and/or executed violent and 
destructive acts against the U.S. Government and/or privately owned 
American corporations.
    All inmates determined to have terrorist ties are clearly 
identified and tracked in our information systems. The most dangerous 
terrorists are confined under the most restrictive conditions allowed 
in our most secure facility, the Administrative Maximum United States 
Penitentiary (ADX) in Florence, Colorado. We have also transferred a 
number of terrorist inmates to the Federal Correctional Complex in 
Terre Haute, Indiana, to consolidate them at one facility and increase 
the monitoring and management of these inmates.
    We monitor, record, and translate if necessary, all telephone 
communications (except attorney-client conversations) involving inmates 
with terrorist ties. We then share any relevant information with the 
FBI, the NJTTF, and other agencies.
    We also monitor all of the general mail delivered to or sent from 
terrorist inmates. Mail is not delivered to or sent from terrorist 
inmates until it is read, and if necessary, translated and/or analyzed 
for intelligence purposes. If suspicious content is found, the 
correspondence is referred to the FBI for analysis before being 
processed any further. In addition, we have eliminated outgoing 
``special mail'' drop boxes.\1\ Inmates must deliver outgoing special 
mail directly to a staff member for further processing. All outgoing 
special mail is subject to scanning by electronic means such as x-ray, 
metal detector, or ion spectrometry equipment.
---------------------------------------------------------------------------
    \1\ Special mail is privileged communication between an inmate and 
his or her attorney or government officials. Federal regulations 
prohibit the BOP from monitoring the content of special mail (28 CFR 
540.18).
---------------------------------------------------------------------------
    We recently established a Counter-terrorism Unit in Martinsburg, 
West Virginia. One of the responsibilities of that Unit is to process 
inmate correspondence that requires language translation and content 
analysis. The Unit will improve our ability to monitor correspondence 
and analyze it for potential terrorism-related intelligence. The Unit 
also oversees telephone monitoring systemwide and has implemented 
mechanisms to ensure phone calls by terrorist inmates are being 
monitored.
    In addition, an FBI special agent and an FBI intelligence analyst 
are assigned to assist ADX Florence with communication and intelligence 
matters.
    We have worked diligently, particularly since 9/11, to enhance our 
intelligence gathering and sharing capabilities in order to ensure a 
seamless flow of intelligence information between our agency and other 
law enforcement and counter-terrorism agencies.
    We have two individuals (one employee and one contractor) detailed 
to the NJTTF to facilitate our involvement on this task force and to 
coordinate the exchange of intelligence related to corrections. These 
two members of the NJTTF manage the Correctional Intelligence 
Initiative (CII), a nationwide NJTTF special project involving 
correctional agencies at the Federal, State, territorial, tribal, and 
local levels, designed to detect, deter, and disrupt the radicalization 
and recruiting of inmates. This initiative involves training of 
correctional administrators by each local JTTF; exchanging of 
intelligence; communicating best practices to local JTTFs in order to 
detect, deter, and disrupt radicalization; and coordinating of liaison 
and intelligence-sharing activities between local JTTFs and corrections 
agencies.
    Most importantly, through the CII, intelligence regarding any 
attempts by inmates, religious providers, or others to radicalize any 
segment of the population is gathered and shared, and interdiction 
action is taken by the appropriate correctional authority.
    In addition, we have established intelligence officers at the 
majority of our metropolitan detention centers under a Joint 
Intelligence Sharing Initiative. These intelligence staff members 
gather and share intelligence information with the FBI and with our 
Central Office intelligence operations. This staff also coordinate with 
the local JTTF and act as full JTTF members in some cases. All BOP 
facilities are required to coordinate with their local JTTFs on matters 
with a connection to terrorism.
    In addition to managing and monitoring inmates who could attempt to 
radicalize other inmates, we help inmates become less vulnerable to any 
such attempts.
    Experts have identified the societal marginalization of inmates as 
a key factor in their becoming radicalized. Our agency provides inmates 
with a broad variety of programs that are proven to assist in the 
development of key skills, thereby minimizing the likelihood of the 
inmates being marginalized.
    The programs we provide include work in prison industries and other 
institution jobs, vocational training, education, substance abuse 
treatment, religious programs, and other skills-building and pro-social 
values programs.
    Moreover, we are very aware of the important role religious 
programs play in preparing inmates to reintegrate successfully into 
society following release from prison. Religious programs and 
chaplaincy services are provided to the approximately 30 faiths 
represented within the Federal prison population. Within the 
constraints of security, we provide worship services, study of 
scripture and sacred writings, and religious workshops; and we make 
accommodations to facilitate observances of holy days. Full-time civil 
service chaplains in the BOP lead worship services and provide pastoral 
care and spiritual guidance to inmates, and chaplains oversee the 
breadth of religious programs and monitor the accommodations provided 
by contract spiritual leaders and community volunteers. The 
overwhelming majority of inmates participate in religious programs in a 
positive, healthy, and productive way.
    We screen all of our civil service staff, volunteers, and 
contractors to avoid hiring or contracting with anyone who would pose a 
threat to institution security. Every BOP civil service chaplain must 
meet all the requirements for employment as a Federal law enforcement 
officer, including a field investigation, criminal background check, 
reference check, drug screening, and pre-employment suitability 
interviews and screenings. In addition, chaplains must meet 
requirements unique to their employment and the scope of their duties. 
Like all BOP employees, chaplains are strictly prohibited from using 
their position to condone, support, or encourage violence or other 
inappropriate behavior.
    Our religious contractors and volunteers are also subject to a 
variety of security requirements prior to being granted access to an 
institution, including criminal background checks, law enforcement 
agency checks to verify places of residence and employment, a 
fingerprint check, information from employment over the previous 5 
years, and drug testing.
    The BOP continues to work closely with the FBI and the NJTTF with 
regard to the screening of contract service providers. Information on 
contractors and volunteers (whether the contractor or volunteer is 
being considered to help provide religious services or not) is checked 
against databases supported by the FBI. Moreover, over the last 4 
years, we have enhanced supervision of programs and activities in our 
chapels.
    We also have increased the training of our staff in the areas of 
counter-terrorism and recognition of potential radicalization. All BOP 
staff receive basic correctional skills training at the beginning of 
their career, and on an annual basis, BOP employees receive additional 
training that addresses current security and inmate management issues. 
Since 2004, our agency has included a training segment titled 
``Terrorism Management and Response'' in Annual Training for all BOP 
staff. In addition, Religious Services personnel present a segment 
during Annual Training that emphasizes an awareness of discriminatory 
language, behaviors, rhetoric, and speech that could indicate the 
presence of radical ideology in the inmate population.
    In 2003, we distributed a Terrorism Training for Law Enforcement 
CD, developed by the Bureau of Justice Assistance, to all of our 
facilities. We are in the process of distributing the updated 2006 
version of the Terrorism Training for Law Enforcement CD to all 
institutions. Among the activities of our Martinsburg Counter-terrorism 
Unit are the production and distribution of intelligence-related 
documents to BOP staff and the development and provision of counter-
terrorism training programs for BOP staff.
    Every BOP facility has one or more Special Investigative 
Supervisors/Special Investigative Agents who serve as the focal point 
in our agency's efforts to manage all security threat groups, including 
terrorists. This staff helps identify and track members and associates, 
monitor mail and telephone communications, provide enhanced supervision 
of identified security threat group members, and share intelligence on 
the activities of any security threat group. Special Investigative 
Agents serve as a liaison to the FBI, the U.S. Marshals Service, and 
the U.S. Secret Service regarding the activities of security threat 
group members and the investigation of criminal activity in BOP 
facilities.
    In 2004 and 2005, Special Investigative Supervisors and Special 
Investigative Agents from every BOP institution received specialized 
training in the control and management of terrorist inmates. In 
December 2006, twenty BOP intelligence staff participated in a 32-hour 
intelligence gathering and analysis training course provided by the 
FBI. Two additional classes are planned for over 45 special 
investigative supervisors and special investigative agents in June and 
August of this year.
    BOP chaplains receive specialized training to ensure they have the 
necessary information about each religion to oversee and manage 
religious services and programs effectively. Our agency has prepared a 
comprehensive technical reference manual that describes appropriate 
religious services procedures and behaviors. The manual is available 
for use by any staff member overseeing a religious service or activity. 
Thirty chaplains recently participated in mandatory training designed 
to enhance their awareness and knowledge about identifiers of radical 
religious groups. The training will be repeated each year until all BOP 
chaplains have attended.
    I hope the information provided in this statement will be 
beneficial to the Subcommittee in its investigation of efforts underway 
to prevent radicalization in America's prisons.

                                 <all>

</pre></body></html>
